<html>
<title> - REPORT BY THE PRESIDENT'S TASK FORCE ON PUERTO RICO'S STATUS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
     REPORT BY THE PRESIDENT'S TASK FORCE ON PUERTO RICO'S STATUS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, April 27, 2006

                               __________

                           Serial No. 109-49

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-315                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel


                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, April 27, 2006.........................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................    22
    Duncan, Hon. John J., Jr., a Representative in Congress from 
      the State of Tennessee.....................................    14
        Prepared statement of....................................    15
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................    16
    Fortuno, Luis G., a Delegate in Congress from Puerto Rico....     3
        Prepared statement of....................................     3
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................    23
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     1
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     5
        Prepared statement of....................................     5

Statement of Witnesses:
    Berrios-Martinez, Ruben, President, Puerto Rican Independence 
      Party, and Former Senator, Senate of Puerto Rico...........    51
        Prepared statement of....................................    52
    Dalmau, Carlos G., Executive Director, Popular Democratic 
      Party Committee on Status..................................    37
        Prepared statement of....................................    39
        Response to questions submitted for the record...........    41
    Hernandez Colon, Rafael, Former Governor of Puerto Rico, past 
      President of the Popular Democratic Party..................    70
        Prepared statement of....................................    72
    Marshall, C. Kevin, Deputy Assistant Attorney General, Office 
      of Legal Counsel, U.S. Department of Justice, and Co-Chair, 
      President's Task Force on Puerto Rico's Status.............     9
        Prepared statement of....................................    11
        Response to questions submitted for the record...........   112
    Romero-Barcelo, Carlos A., Former Governor of Puerto Rico, 
      Former Member of Congress..................................    75
        Prepared statement of....................................    78
    Rossello, Hon. Pedro, President, New Progressive Party of 
      Puerto Rico, and Senator, Senate of Puerto Rico............    46
        Prepared statement of....................................    48

Additional materials supplied:
    Aponte-Hernandez, Hon. Jose, Speaker of the House of 
      Representatives of Puerto Rico, Statement submitted for the 
      record.....................................................    90
    Burton<plus-minus><plus-minus> Hon. Dan, a Representative in 
      Congress from the State of Indiana, Oral statement of......    20
        Prepared statement submitted for the record..............    21
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, Statement submitted for the record............   101
    Diaz-Balart, Hon. Lincoln, a Representative in Congress from 
      the State of Florida, Oral statement of....................    32
    Hyde, Hon. Henry, a Representative in Congress from the State 
      of Illinois, Statement submitted for the record............   101
    Ramirez, Miriam J., M.D., Vice President, New Progressive 
      Party of Puerto Rico, and President, Republican Women of 
      Puerto Rico, Statement submitted for the record............   102
    Serrano, Hon. Jose E., a Representative in Congress from the 
      State of New York, Oral statement of.......................    33
    Velazquez, Hon. Nydia M., a Representative in Congress from 
      the State of New York, Oral statement of...................    19
        Prepared statement of....................................    67
    Weller, Hon. Jerry, a Representative in Congress from the 
      State of Illinois, Oral statement of.......................    34
        Prepared statement of....................................   111


  OVERSIGHT HEARING ON ``THE REPORT BY THE PRESIDENT'S TASK FORCE ON 
                        PUERTO RICO'S STATUS.''

                              ----------                              


                        Thursday, April 27, 2006

                     U.S. House of Representatives

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:05 a.m. in Room 
1324, Longworth House Office Building, Hon. Richard W. Pombo 
[Chairman of the Committee] presiding.
    Present: Representatives Pombo, Rahall, Duncan, Fortuno, 
Drake, Flake, Gibbons, Jones, Grijalva, Bordallo, Napolitano, 
Mark Udall, Faleomavaega, Christensen, Cardoza, Young, 
McMorris, Inslee.
    Also present: Representatives Burton, Wicker, Weller, 
Serrano, Gutierrez, Velazquez, Lincoln Diaz-Balart, Kennedy, 
and Dent.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    The Chairman. The Committee on Resources will come to 
order. I ask unanimous consent that the gentleman from Indiana, 
Mr. Burton, the gentleman from Mississippi, Mr. Wicker, the 
gentleman from Illinois, Mr. Weller, the gentleman from New 
York, Mr. Serrano, the gentleman from Illinois, Mr. Gutierrez, 
the gentlewoman from New York, Mrs. Velazquez, the gentleman 
from Florida, Mr. Diaz-Balart, the gentleman from Rhode Island, 
Mr. Kennedy, and the gentleman from Pennsylvania, Mr. Dent, be 
allowed to sit on the dais and participate in the hearing.
    Hearing no objection, so ordered.
    The Committee is meeting today for an oversight hearing to 
receive testimony on the Report by the President's Task Force 
on Puerto Rico's Status. Under Rule 4[g] of the Committee 
Rules, any oral opening statements at hearings are limited to 
the Chairman and the Ranking Minority Member. This will allow 
us to hear from our witnesses sooner and help Members keep to 
their schedules. Therefore, if other Members have statements, 
they can be included in the hearing record under unanimous 
consent.
    On behalf of the full Committee, I would like to welcome 
everyone in attendance today and especially our witnesses. We 
are also fortunate to have with us on the dais numerous Members 
that currently do not serve on the Committee yet have a 
particularly strong interest in the issues that relate to 
Puerto Rico.
    The nearly four million people living on Puerto Rico and 
the millions that have settled in various parts of the 
continental United States are represented by Members all over 
the country, from New York to Florida and elsewhere. Thus, some 
Members have a strong and vocal constituency in their 
districts, while others with us today know well the long 
history the United States shares with the island that date back 
to 1898.
    It is difficult to deny that the debate over Puerto Rico's 
political status is one that truly permeates the entire Puerto 
Rican culture. There are clear differences between the 
political parties and the voting populace in Puerto Rico on 
what path to a more defined status is best or what outcome is 
most advantageous. Still Puerto Ricans living on the mainland 
United States or on the islands remain steadfast, united on one 
fact--their voices must be heard, and action should be taken 
regarding this debate.
    These two aspirations seem reasonable enough, though we 
have seen the passage of time with Presidents Reagan, George 
H.W. Bush, Clinton, and the current Administration grapple with 
the best form by which to reflect the will of the people. This 
oversight hearing represents one of the first substantial steps 
on this issue in Congress since multiple major actions in 1998 
when Don Young was Chairman of the Committee.
    The impetus for this hearing is the Report by the 
President's Task Force on Puerto Rico's Status, which was 
released a few days before Christmas last year. The Task Force 
was formed under an Executive Order by President Clinton in 
2000, and this document will be very helpful to both inform and 
reenergize discussion. It represents a constructive 
contribution to this debate as it provides Congress with 
findings and self-determination procedures that are stated to 
be compatible with the Constitution and decision of our courts.
    Further, the report gives a short history of the 
relationship between the U.S. and Puerto Rico while formally 
offering recommendations to Congress concerning political 
status options. Congress has the primary authority and 
responsibility to weigh and legislate status options that the 
body will accept as legally valid. To that end, our hearing 
today will be a crucial step in analyzing the status debate in 
light of the report's findings.
    The necessary goal of this committee and Congress generally 
is to decide what the most prudent form of an educated, 
informed, self-determination process should emerge. That is the 
only way we can empower the people living in Puerto Rico to 
exercise their right to be the linchpin of this debate.
    I thank the witnesses for coming, and I look forward to 
their testimony. At this time, I would yield what remains of my 
time for a short statement from the Resident Commissioner from 
Puerto Rico, Mr. Luis Fortuno, so that he may welcome the 
witnesses providing testimony here today. Mr. Fortuno.

 STATEMENT OF THE HON. LUIS G. FORTUNO, A DELEGATE IN CONGRESS 
                        FROM PUERTO RICO

    Mr. Fortuno. Thank you, Mr. Chairman. I want to thank 
Chairman Pombo for his leadership in holding this hearing 
today, only four months after the President's Task Force on 
Puerto Rico's Status issued its long-awaited report. I also 
wish to thank Ranking Member Rahall for his cooperation and 
commitment in making this a truly bipartisan effort. I also 
want to extend my greetings to all my fellow members in the 
Resources Committee present here today and to my colleagues who 
have honored us with their presence at this historic hearing.
    I would like to recognize and thank all the distinguished 
witnesses who have traveled to our nation's capital to testify 
today at this hearing, including three previous Governors of 
Puerto Rico and the representatives of all the major political 
parties from Puerto Rico.
    I want to express my deep, personal gratitude to the 106 
Members of this Congress, especially my fellow Puerto Rican, 
Jose Serrano, that have joined me in fighting H.R. 4867, which 
seeks to implement the recommendations of the Task Force report 
so that the U.S. citizens of Puerto Rico may, for the first 
time in 108 years, move directly in a federally sponsored 
plebiscite under individual status preference.
    I am humbled by the support of my colleagues and my 
constituents in Puerto Rico to my proposal. I also want to 
thank Senators Martinez and Salazar and the other nine 
bipartisan cosponsors who yesterday filed S. 2661, companion 
bill to H.R. 4867, the Puerto Rico Democracy Act of 2006. We 
are honored to have the Senators share our commitment to grant 
Puerto Ricans for the first time in our history the opportunity 
to express their status preference by a direct vote in a 
federally sponsored plebiscite.
    The Task Force was created by Executive Orders of President 
Bill Clinton and President George W. Bush. The mission of the 
Task Force was to provide options for Puerto Rico's future 
status or relationship with the government of the United 
States. The report was developed without prejudice toward any 
particular status option and has developed options that are 
compatible with the U.S. Constitution and the basic laws and 
policies of this great nation.
    Different views and positions adopted by the Task Force 
have been objectively determined. Those individuals who now 
criticize this effort of the Task Force only reflect their 
personal opposition or ideology. I would find it impossible to 
prove specific claims to factual, Constitutional or legislative 
errors in the report. Again, thank you Chairman Pombo and 
Ranking Member Rahall for holding this hearing today.
    [The prepared statement of Mr. Fortuno follows:]

               Statement of The Honorable Luis Fortuno, 
                a Delegate in Congress from Puerto Rico

    I want to thank Ranking Member Nick Rahall for yielding some of his 
allotted time to me, and for making an emotional reference to the 
patriotism demonstrated by the people of Puerto Rico in defense of our 
great Nation. Thank you!
    It is mostly about what Ranking Member Rahall has just stated. I 
will make various statements in support of the Task Force Report on 
Puerto Rico's Status and of the reasons why we should have a federally 
sponsored plebiscite in Puerto Rico, but nothing is truly more 
important than the patriotism of the Puerto Rican men and women who 
have served with honor and distinction in every war since we became 
citizens of the United States in 1917, 89 years ago. Puerto Ricans have 
fought in defense of our Nation, and the democratic principles of 
freedom for which it stands, since World War 1. They have fought, and 
many have made the ultimate sacrifice, on the battlefields of Europe 
and Africa, the Pacific and Korea, Vietnam and the Middle East, and 
recently in Afghanistan and Iraq. I regularly visit our wounded at 
Walter Reed, and am honored to witness first-hand their dedication and 
love for our Nation.
    We have made a disproportionate contribution to our current effort 
on the War on Terrorism. We have earned our keep, and we deserve 
congressional consideration of our request for a fair and legitimate 
process to exercise our right to self-determination.
    I want to state this very clearly, I am in full agreement with the 
conclusions and recommendations of the President's Task Force Report on 
Puerto Rico's Status. As a result of this, I have limited myself, in 
H.R.4867, to following the recommendations of the Task Force Report. It 
is ironic that critics of the Report have stated that it is stacked in 
favor of statehood, yet I have been criticized in my District for not 
filing a ``statehood bill'', and limiting myself to setting up a 
``democratic process'' where the people of Puerto Rico could express 
their individual status preference. It is ironic that the Report has 
been labeled as ``stacked in favor of statehood'', and yet we will hear 
testimony today from the representatives of the Puerto Rico 
Independence Party supporting most of the conclusions of the Task Force 
Report.
    In this very brief statement, I want to address some of the most 
frequent concerns or questions raised by my congressional colleagues, 
when we converse on the issues of the Task Force Report, the status of 
Puerto Rico, and H.R. 4867.
    The most frequently asked question by my colleagues is: why do we 
need to deal with this? The Treaty of Paris, which formally ended the 
Spanish-American War on December 10, 1898, resulted in Spain 
relinquishing Puerto Rico, among several other territorial holdings, to 
the United States. Puerto Rico has remained under the sovereignty of 
the United States, under the Territorial Clause of the U.S. 
Constitution since then, even though Congress allowed for a local 
constitution to be approved in 1952 allowing a certain degree of self-
government, strictly for local matters within Puerto Rico.
    After 108 years of territorial status, Puerto Rico remains the 
longest standing territory in the history of the United States. 
Congress retains jurisdiction over the Puerto Rican status issue, so we 
have a constitutional responsibility to address the issue. Although 
Congress has consistently expressed its commitment to respect the right 
of self-determination of the people of Puerto Rico, Congress has never 
sponsored a plebiscite to allow the people of Puerto Rico to express 
themselves on their preference based on options that are compatible 
with the U.S. Constitution and basic laws and policies of the United 
States.
    Another frequently asked question is: haven't the people of Puerto 
Rico expressed themselves repeatedly in the past in favor of 
Commonwealth, the current status? It is ironic that the Task Force 
Report has been criticized by the proponents of the current territorial 
status as being stacked in favor of statehood when every single 
plebiscite held in Puerto Rico has been stacked against the statehood 
or independence options by an option that has often defined 
Commonwealth as ``the best of two worlds'', or translated into laymen's 
terms to mean ``all the benefits of statehood, without the 
responsibilities.'' Some of the characteristics included in the 
definition of enhanced Commonwealth are the following:
    <bullet>  PR would be recognized as a nation but in a permanent 
union with the US, under a covenant binding upon both nations.
    <bullet>  Veto power over applicability of federal laws.
    <bullet>  U.S. would continue to grant citizenship to persons born 
in PR.
    <bullet>  U.S. would continue all assistance programs to Puerto 
Ricans.
    <bullet>  U.S. would provide a new annual block grant for social 
and economic development.
    <bullet>  U.S. would provide incentives for investment in PR.
    <bullet>  U.S. would be responsible for the defense of PR.
    <bullet>  Free trade between PR and US.
    <bullet>  Puerto Ricans would continue to enjoy rights under the 
U.S. Constitution.
    <bullet>  The Commonwealth would possess all powers not delegated 
to the US.
    <bullet>  The Commonwealth would be able to determine the 
jurisdiction of the U.S. courts.
    <bullet>  Puerto Ricans would not pay federal taxes.
    I believe it is highly unlikely that this 109th Congress, or any 
other future Congress would be willing, or constitutionally able, to 
grant most of these provisions. Is it any wonder that Commonwealth has 
prevailed in the past plebiscites? Would any future Congress be willing 
to grant Puerto Ricans benefits that are not available to the 
constituents of any of the Members of Congress? Not likely.
    When status plebiscites are sponsored at the local level in Puerto 
Rico, the definitions of the status options are left to the local 
political parties, and party partisanship takes over. A clear example 
of this are the results of the last plebiscite, in which the option 
``none of the above'' prevailed by a plurality. We cannot afford a 
similar travesty in the future, which is why a federally sponsored 
plebiscite is needed.
    Another concern that has been raised by sympathizers of the current 
territorial status option is that the formula that has prevailed in the 
past has been excluded from the process proposed by the Task Force 
Report and H.R. 4867. Nothing is further from the truth. The Puerto 
Rican people will be able to vote in the first plebiscite to retain the 
current territorial status, if they so choose.
    Legislation has also been filed in both the House and the Senate to 
ignore the recommendations of the Task Force Report, and place in the 
hands of a select group of delegates the power to decide what will be 
the status option that the people of Puerto Rico will present to 
Congress. A Constitutional Convention was held in Puerto Rico over 50 
years ago, and we are still arguing about the solution to our century 
old status as a territory. This proposal is promoted by the same 
persons that believe that the best strategy to solve our status dilemma 
is to procrastinate and wear-out the opposition, which are those of us 
that believe that it is high time to decide on a permanent, non-
territorial status option.
    I want to be perfectly clear on this, as the freely elected 
representative of the people of Puerto Rico to Congress, I will not 
now, or in the future, support any bill that denies my constituents, 
the people of Puerto Rico, the right to exercise their right to self-
determination by a direct vote. The people of Puerto Rico deserve 
nothing less. We have earned this right. We have been waiting 108 
years. Now it is time for Congress to carry out its constitutional 
responsibility.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you. I recognize Mr. Rahall for his 
opening statement.

 STATEMENT OF THE HON. NICK J. RAHALL II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Mr. Chairman. I commend you as well 
for holding these hearings, and to the people of Puerto Rico, 
to the families who have lost a husband, a father, a daughter, 
a son in our wars in the defense of the United States of 
America, I take this moment to salute you.
    We can debate the political status, but what is not subject 
of debate is the patriotism of the people of Puerto Rico. At 
this point, Mr. Chairman, I ask unanimous consent my full 
statement be made a part of the record, and following your 
lead, I will submit that into the record and yield the balance 
of my time also to the gentleman from Puerto Rico.
    [The prepared statement of Mr. Rahall follows:]

              Statement of The Honorable Nick J. Rahall, 
                Ranking Democrat, Committee on Resources

    Thank you, Mr. Chairman. To the people of Puerto Rico, to the 
families who have lost a husband, a father, a daughter, a son, in our 
wars, in the defense of the United States, I take this moment to salute 
you. We can debate political status. But what is not subject of debate 
is the patriotism of the people of Puerto Rico.
    The Island's century long history within the American family has 
been significant. Ceded by Spain as a result of war, Puerto Rico was 
one of the first areas outside of the continental United States where 
the American flag was raised. To the U.S., it marked a milestone in our 
own political development. Where once our union of States were renegade 
English colonies, we then stepped into a role that we once fought 
against.
    Given our own experience, would anyone have imagined that our new 
colony would be disenfranchised and kept unequal in our political 
framework? Our commitment to Puerto Rico's advancement under the 1898 
Treaty of Paris would be our judge.
    If our measure of success is today's Puerto Rico, then I say Puerto 
Rico has done well by the United States. It is a showcase of democracy 
in the Carribean. Having some of the highest voter turnout rates in our 
Nation, Puerto Rico shames many of our own States with its energy and 
enthusiasm in electing its leaders. Economically, it is a powerhouse in 
the Carribean and considered a home away from home for many mainland 
Fortune 500 companies.
    Equal in importance to Puerto Rico's political and economic prowess 
is the Island's contributions to our own social fabric. Every aspect of 
American art, music, theater, and sport has been influenced by Puerto 
Rico's own culture and its people.
    And beyond such contributions, there remains Puerto Rico's 
patriotism, beginning in World War I where twenty-thousand Puerto 
Ricans served in the U.S. military. There is no doubt that tens of 
thousands more are currently serving in our armed forces; fighting our 
wars and dying for our country.
    The Committee convenes this morning because in spite of what we 
have gained from each other, there has been no ultimate achievement in 
Puerto Rico's political status--which is really the greatest commitment 
the U.S. has to all of our territories.
    In the past century, three plebiscites have gauged the people's 
desires to advance their current political status in the American 
family as a U.S. territory. It has become clearer that with each 
completed plebiscite, all has become vague, with a choice of ``None of 
the Above'' garnering more votes than any other political status option 
on the ballot in the 1998 plebiscite.
    An effort was undertaken by former President Clinton to bring more 
clarity to the issue by establishing, through Executive Order, a Task 
Force to review what status options could be considered viable to 
establish a non-territorial form of government for Puerto Rico. The 
Order was honored in the Bush Administration and we have those 
recommendations before us today.
    I believe that this Committee's responsibility is to be an honest 
broker with the people of Puerto Rico as this issue moves forward. It 
would be misleading to ignore the recommendations of this Report, the 
positions of previous Administrations, our Committee's own record, 
international law, indeed our country's Constitution.
    At the table of these United States, Puerto Rico has sat for more 
than a century on a two-legged stool. It is not fully empowered. It 
does not have full representation. And that is wrong.
    For in this day and age, certainly, all people represented by a 
democracy should have an equal voice on issues which not only effect 
them but future generations as well. Puerto Rico has been denied this 
equal voice for far too long.
    In my opinion, this Report makes clear which paths can be tread. It 
keeps us honest with Puerto Rico. No matter where any of us personally 
lean, we have a duty to be clear and honest in this process and let the 
majority of the people of Puerto Rico decide their future.
    And with this Report and this meeting today, I believe we are 
starting a process that will one day be looked upon as one of those 
rare moments when history itself seemed to hold its breath.
    Thank you.
                                 ______
                                 
    Mr. Fortuno. I want to thank you again. I want to thank 
Ranking Member Nick Rahall for yielding some of his allotted 
time to me and for making an emotional reference to the 
patriotism demonstrated by the people of Puerto Rico in defense 
of our great nation. Thank you again, Mr. Rahall. It is mostly 
about what Ranking Member Rahall has just stated. I will make 
various statements in support of the Task Force Report on 
Puerto Rico's Status and of the reasons why we should have a 
federally sponsored plebiscite in Puerto Rico, but nothing is 
truly more important than the patriotism of the Puerto Rican 
men and women who have served with honor and distinction in 
every war since we became citizens of the United States in 
1917, 89 years ago.
    Puerto Ricans have fought in defense of our nation and the 
Democratic principles of freedom for which it stands since 
World War I. They have fought, and many have made the ultimate 
sacrifice on the battlefields of Europe and Africa, the Pacific 
and Korea, Vietnam and the Middle East, and recently in 
Afghanistan and Iraq.
    I regularly visit our wounded at Walter Reed Hospital, and 
I am honored to witness firsthand their dedication and love for 
our nation. We have made a disproportionate contribution to our 
current effort on the war on terrorism. We have earned our 
keep, and we deserve congressional consideration of our request 
for a fair and legitimate process to exercise our right to 
self-determination.
    I want to state this very clearly. I am in full agreement 
with the conclusions and recommendations of the President's 
Task Force Report on Puerto Rico's Status. As a result of this, 
I have limited myself in H.R. 4867 to following the 
recommendations of the Task Force report.
    It is ironic that critics of the report have stated that it 
is stacked in favor of statehood, but yet I have been 
criticized in my own district for not filing a statehood bill 
and limiting myself to setting up a Democratic process where 
the people of Puerto Rico could express their individual status 
preference.
    It is ironic that the report has been labeled as stacked in 
favor of statehood, and yet we will hear testimony today from 
the representatives of Puerto Rico's Independence Party 
supporting most of the conclusions of the Task Force report.
    In this brief statement, I want to address some of the most 
frequent concerns or questions raised by my congressional 
colleagues when we converse on the issues of the Task Force, 
the status of Puerto Rico, and H.R. 4867.
    The most frequently asked question by my colleagues is: Why 
do we need to deal with this? The Treaty of Paris, which 
formally ended the Spanish-American War on December 10, 1898, 
resulted in Spain relinquishing Puerto Rico, among several 
other territorial holdings, to the United States.
    Puerto Rico has remained under the sovereignty of the 
United States under the territorial clause of the U.S. 
Constitution since then, even though Congress allowed for a 
local Constitution to be approved in 1952 allowing a certain 
degree of self-government strictly for local matters within 
Puerto Rico.
    After 108 years of territorial status, Puerto Rico remains 
the longest standing territory in the history of the United 
States. Congress retains jurisdiction over the Puerto Rican 
status issue, so we have a Constitutional responsibility to 
address the issue.
    Although Congress has consistently expressed its commitment 
to respect the right of self-determination of the people of 
Puerto Rico, Congress has never sponsored a plebiscite to allow 
the people of Puerto Rico to express themselves under 
preference based on options that are compatible with the U.S. 
Constitution and basic laws and policies of the United States.
    Another frequently asked question is: Have not the people 
of Puerto Rico expressed themselves repeatedly in the past in 
favor of commonwealth, the current status? It is ironic that 
the Task Force report has been criticized by the proponents of 
the current territorial status as being stacked in favor of 
statehood when every single plebiscite held in Puerto Rico has 
been stacked against statehood or independence options, my 
option that has often been defined as commonwealth as the best 
of two worlds or, translated into layman's terms, to mean all 
the benefits of statehood without the responsibilities.
    Some of the characteristics included in the definition of 
enhanced commonwealth are as follows: That Puerto Rico will be 
recognized as a separate nation in permanent unity with the 
United States under a permanent binding upon both nations; veto 
power over applicability of Federal laws; that the U.S. will 
continue to grant citizenship to the persons born in Puerto 
Rico; that the U.S. will continue to allow assistance programs 
to Puerto Ricans; they will provide a new annual block grant 
for socioeconomic development; they will provide incentives for 
investment in Puerto Rico; that the U.S. will be responsible 
for our defense, and that there will be free trade between 
Puerto Rico and the United States; that Puerto Rico will 
continue to enjoy rights under the U.S. Constitution; the 
commonwealth will possess all powers not delegated to the 
United States; that the commonwealth will be able to determine 
the jurisdiction of the U.S. courts presently there; and that 
Puerto Ricans will not pay any Federal taxes.
    I believe it is highly unlikely that this 109th Congress or 
any other future Congress will be willing or Constitutionally 
able to grant most of these provisions. Is it any wonder the 
commonwealth has prevailed in the past plebiscites? Will any 
future Congress be willing to grant Puerto Ricans benefits that 
are not available to the constituents of any of the Members of 
Congress? Not likely.
    When status plebiscites are sponsored at the local level in 
Puerto Rico, the definitions of the status options are left to 
the local parties, and party partisanship takes over. A clear 
example of this are the results of the last plebiscite in which 
the option, none of the above, prevailed by a polarity. We 
cannot afford a similar travesty in the future, which is why a 
federally sponsored plebiscite is needed.
    Another concern has been raised by sympathizers of the 
current territorial status option is that the formula that has 
prevailed in the past has been excluded from the process 
proposed by the Task Force. Nothing is further from the truth. 
The Puerto Rican people will be able to vote in the first 
plebiscite to retain the current territorial status if they so 
choose.
    Legislation has also been filed in both the House and the 
Senate to ignore the recommendations of this Task Force report 
and place in the hands of a select group of delegates the power 
to decide what will be the status option that the people of 
Puerto Rico will present to Congress.
    A Constitutional convention was held in Puerto Rico over 50 
years ago, and we are still arguing about the solution to our 
century old status as a territory. This proposal is sponsored 
by the same persons that believe that the best strategy to 
solve our status dilemma is to procrastinate and wear out the 
opposition, which are those of us that believe that it is high 
time to decide on a permanent, nonterritorial status option.
    In closing, I want to be perfectly clear on this. As the 
freely elected representative of the people of Puerto Rico to 
Congress, I will not now or in the future support any bill that 
denies my constituents, the people of Puerto Rico, the right to 
exercise their right to self-determination by a direct vote. 
The people of Puerto Rico deserve nothing less. We have earned 
this right. We have been waiting for 108 years. Now it is time 
for Congress to carry out its Constitutional responsibility. 
Thank you again. I yield back.
    The Chairman. I would like to now introduce our first 
panel. Welcome, Mr. C. Kevin Marshall, Deputy Assistant 
Attorney General with the Department of Justice, who also 
served as Co-Chair of the President's Task Force on Puerto 
Rico's Status, to our hearing today to talk about the work of 
the Task Force. Before Mr. Marshall gives his testimony, I wish 
to continue my customary practice of swearing in all witnesses 
as provided under Rule 4[f].
    [Witness sworn.]
    The Chairman. Thank you. Let the record show he answered in 
the affirmative. Welcome to the Committee. We eagerly 
anticipate your testimony. You can begin.

   STATEMENT OF C. KEVIN MARSHALL, DEPUTY ASSISTANT ATTORNEY 
 GENERAL, OFFICE OF LEGAL COUNSEL, U.S. DEPARTMENT OF JUSTICE, 
    CO-CHAIR, PRESIDENT'S TASK FORCE ON PUERTO RICO'S STATUS

    Mr. Marshall. Thank you, Mr. Chairman and Ranking Member 
Rahall, for inviting me to discuss the work and report from the 
President's Task Force on Puerto Rico's Status. As you 
mentioned, I am the Deputy Assistant Attorney General from the 
Justice Department's Office of Legal Counsel. As the Attorney 
General's designee on the Task Force, I serve as his Co-Chair, 
along with the Deputy Assistant to the President and Director 
for Intergovernmental Affairs, Ruben Barrales.
    The status of Puerto Rico and the options regarding that 
status have been issues for many years. President George H.W. 
Bush in a 1992 memorandum recognized that Puerto Rico's current 
commonwealth status grants it significant self-government, 
described Puerto Rico as a territory, and directed that it be 
treated like a state.
    President Clinton, in establishing the Task Force in 2000, 
made it the policy of the executive branch to help answer the 
questions that the people of Puerto Rico have asked for years 
regarding the options for the island's future status and the 
process of realizing an option. The Task Force is required to 
consider and develop positions on proposals without preference 
among the options for the commonwealth's future status.
    Its recommendations are limited, however, to those options 
permitted by the Constitution. In establishing the Task Force, 
President Clinton also expressly recognized that Puerto Rico's 
ultimate status has not been determined and noted the different 
visions for that status within Puerto Rico. Although Puerto 
Rico held a plebiscite in 1998, none of the proposed status 
options received a majority. Indeed, none of the above 
prevailed because of objection to the ballot definition of the 
commonwealth option.
    Some in Puerto Rico have proposed a new commonwealth status 
that among other things could not be altered without the mutual 
consent of Puerto Rico and the Federal government. In October 
2000, a few months before President Clinton established the 
Task Force, William Treanor, who held the same position in the 
Office of Legal Counsel that I now hold, testified to this 
committee that such a proposal was not Constitutional.
    Seeking to determine the Constitutionally permissible 
options and recommended process for realizing one of the 
options, the Task Force considered all status options 
objectively without prejudice. We sought input from all 
interested parties and met with anyone who requested a meeting.
    The Task Force issued its report last December and 
concluded that there were three general options under the 
Constitution for Puerto Rico's status: One, continue its 
current status as a largely self-governing territory; two, 
admit Puerto Rico as a state; or three, make Puerto Rico 
independent.
    The primary question regarding options is whether the 
Constitution allows a commonwealth status that could be altered 
only by mutual consent. Since 1991, the Justice Department has 
consistently taken the position that the Constitution does not. 
The Task Force report reaches that conclusion as well.
    The report is, of course, not a legal brief, but it does 
outline the reasoning and includes as appendices two extended 
analyses by the Clinton Justice Department. Thus, the new 
commonwealth option, as the Task Force understands it, is not 
consistent with the Constitution.
    Any promises that the United States might make regarding 
Puerto Rico's status as a commonwealth would not and could not 
be binding on a future Congress. Puerto Rico may remain in its 
current status indefinitely, but it would remain subject to 
Congress' authority under the Constitution to regulate U.S. 
territories.
    The report provides additional details on the other two 
permissible options, statehood and independence. Additional 
copies of the report have been provided to the Committee for 
your convenience.
    With regard to process, the Task Force sought to ascertain 
the will of the people of Puerto Rico in a way that, in the 
words of the report, ``provides clear guidance for future 
action by Congress.'' The keys to providing clear guidance are 
first, to speak unambiguously about the Constitutional options, 
and second, to structure the process so that popular majorities 
are likely.
    The Task Force, therefore, recommends a two-step process. 
The first step is simply to determine whether the people of 
Puerto Rico wish to remain as they are. We recommend that 
Congress provide for a federally sanctioned plebiscite on this 
question.
    If the vote is to remain as a territory, then the second 
step would be to have periodic plebiscites to inform Congress 
of any change in views. If the first vote is to change Puerto 
Rico's status, then the second step would be another plebiscite 
in which the people would choose between statehood and 
independence.
    Two points about this recommended process merit brief 
explanation. First, consistent with our Presidential mandate, 
it does not seek to prejudice the outcome even though it is 
structured to produce a clear outcome. Puerto Ricans have 
before voted by a majority to remain as a commonwealth. They 
may do so again.
    Second, the process does not preclude action by Puerto Rico 
itself to express its views. At the first step, the Task Force 
recommends a plebiscite ``to occur on a date certain.'' If 
Congress wished to ensure that some action occurred but not 
preclude local initiative, it could allow a sufficient period 
before that date certain.
    Thank you for the opportunity to share the views of the 
Task Force. I have submitted my written statement for the 
record, and I look forward to taking your questions.
    [The prepared statement of Mr. Marshall follows:]

  Statement of C. Kevin Marshall, Deputy Assistant Attorney General, 
          Office of Legal Counsel, U.S. Department of Justice

    Thank you, Mr. Chairman and Ranking Member Rahall, for inviting me 
to discuss the work and report of the President's Task Force on Puerto 
Rico's Status. President Clinton established the Task Force in December 
2000, and President Bush has continued it through amendments of 
President Clinton's Executive Order. The Task Force consists of 
designees of each member of the President's Cabinet, and the Deputy 
Assistant to the President and Director for Intergovernmental Affairs, 
Ruben Barrales. I am a Deputy Assistant Attorney General in the Justice 
Department's Office of Legal Counsel. As the Attorney General's 
designee on the Task Force, I serve as its Co-Chair, along with Mr. 
Barrales.
    The status of Puerto Rico, and the options regarding that status, 
have been issues for many years. In 1992, for example, President George 
H.W. Bush issued a Memorandum that recognized Puerto Rico's popularly 
approved Commonwealth structure as ``provid[ing] for self-government in 
respect of internal affairs and administration,'' described Puerto Rico 
as ``a territory,'' and directed the Executive Branch to treat Puerto 
Rico as much as legally possible ``as if it were a State.'' He also 
called for periodically ascertaining ``the will of its people regarding 
their political status'' through referenda.
    President Clinton, in his order establishing the Task Force, made 
it the policy of the Executive Branch ``to help answer the questions 
that the people of Puerto Rico have asked for years regarding the 
options for the islands' future status and the process of realizing an 
option.'' He charged the Task Force with seeking to implement that 
policy. We are required to ``consider and develop positions on 
proposals, without preference among the options, for the Commonwealth's 
future status.'' Our recommendations are limited, however, to options 
``that are not incompatible with the Constitution and basic laws and 
policies of the United States.''
    On the same day that he issued his Executive Order, President 
Clinton also issued a Memorandum for the Heads of Executive Departments 
and Agencies regarding the Resolution of Puerto Rico's status. That 
memorandum added that ``Puerto Rico's ultimate status has not been 
determined'' and noted that the three major political parties in Puerto 
Rico were each ``based on different visions'' for that status. Although 
Puerto Rico held a plebiscite in 1998, none of the proposed status 
options received a majority. Indeed, ``None of the Above'' prevailed, 
because of objection to the ballot definition of the commonwealth 
option.
    Some in Puerto Rico have proposed a ``New Commonwealth'' status, 
under which Puerto Rico would become an autonomous, non-territorial, 
non-State entity in permanent union with the United States under a 
covenant that could not be altered without the ``mutual consent'' of 
Puerto Rico and the federal Government. In October 2000, a few months 
before President Clinton established the Task Force, this Committee 
held a hearing on a bill (H.R. 4751) incorporating a version of the 
``New Commonwealth'' proposal. William Treanor, who held the same 
position in the Office of Legal Counsel that I now hold, testified that 
this proposal was not constitutional.
    Thus, the Task Force's duties were to determine the 
constitutionally permissible options for Puerto Rico's status and to 
provide recommendations for a process for realizing an option. We had 
no duty or authority to take sides among the permissible options.
    The Task Force considered all status options objectively, without 
prejudice. We also attempted to develop a process for realizing one of 
the options. We sought input from all interested parties. The Members 
met with anyone who requested a meeting. I myself had several meetings 
with representatives of various positions, and also received and 
benefited from extensive written materials.
    The Task Force issued its report last December and concluded that 
there were three general options under the Constitution for Puerto 
Rico's status: (1) continue its current status as a largely self-
governing territory of the United States; (2) admit Puerto Rico as a 
State, on an equal footing with the existing 50 States; or (3) make 
Puerto Rico independent of the United States.
    As indicated in my discussion of the 1998 plebiscite and the 
origins of the Task Force, the primary question regarding options was 
whether the Constitution currently allows a ``Commonwealth'' status 
that could be altered only by ``mutual consent,'' such that Puerto Rico 
could block Congress from altering its status. Since 1991, the Justice 
Department has, under administrations of both parties, consistently 
taken the position that the Constitution does not allow such an 
arrangement. The Task Force report reiterates that position, noting 
that the Justice Department conducted a thorough review of the question 
in connection with the work of the Task Force. The report is, of 
course, not a legal brief. But it does outline the reasoning, and it 
includes as appendices two extended analyses by the Clinton Justice 
Department. The second of these, a January 2001 letter to the Senate 
Committee on Energy and Natural Resources, also was sent to this 
Committee on the same date. The report also cites additional materials 
such as Mr. Treanor's testimony and the 1991 testimony of the Attorney 
General.
    The effect of this legal conclusion is that the ``New 
Commonwealth'' option, as we understand it, is not consistent with the 
Constitution. Any promises that the United States might make regarding 
Puerto Rico's status as a commonwealth would not be binding. Puerto 
Rico would remain subject to Congress's authority under the 
Constitution ``to dispose of and make all needful Rules and Regulations 
respecting the Territory...belonging to the United States.'' Puerto 
Rico receives a number of benefits from this status, such as favorable 
tax treatment. And Puerto Rico may remain in its current Commonwealth, 
or territorial, status indefinitely, but always subject to Congress's 
ultimate authority to alter the terms of that status, as the 
Constitution provides that Congress may do with any U.S. territory.
    The other two options, which are explained in the report, merit 
only brief mention here. If Puerto Rico were admitted as a State, it 
would be fully subject to the U.S. Constitution, including the Tax 
Uniformity Clause. Puerto Rico's favorable tax treatment would 
generally no longer be allowed. Puerto Rico also would be entitled to 
vote for presidential electors, Senators, and full voting Members of 
Congress. Puerto Rico's population would determine the size of its 
congressional delegation.
    As for the third option of independence, there are several possible 
ways of structuring it, so long as it is made clear that Puerto Rico is 
no longer under United States sovereignty. When the United States made 
the Philippines independent in 1946, the two nations entered into a 
Treaty of General Relations. Congress might also provide for a closer 
relationship along the lines of the ``freely associated states'' of 
Micronesia, the Marshall Islands, and Palau.
    With regard to process, the Task Force focused on ascertaining the 
will of the people of Puerto Rico. In particular, we sought to 
ascertain that will in a way that, as the report puts it, ``provides 
clear guidance for future action by Congress.'' The keys to providing 
clear guidance are, first, to speak unambiguously about the options the 
Constitution allows and, second, to structure the process so that 
popular majorities are likely. The inconclusive results of the 1998 
plebiscite, as well as an earlier one in 1993, did not strike us as 
providing much guidance to Congress.
    We, therefore, have recommended a two-step process. The first step 
is simply to determine whether the people of Puerto Rico wish to remain 
as they are. We recommend that Congress provide for a federally 
sanctioned plebiscite in which the choice will be whether to continue 
territorial status. If the vote is to remain as a territory, then the 
second step, one suggested by the first President Bush's 1992 
memorandum, would be to have periodic plebiscites to inform Congress of 
any change in the will of the people. If the first vote is to change 
Puerto Rico's status, then the second step would be for Congress to 
provide for another plebiscite in which the people would choose between 
statehood and independence, and then to begin a transition toward the 
selected option. Ultimate authority, of course, remains with Congress.
    Two points about this recommended process merit brief explanation. 
First, consistent with our presidential mandate, it does not seek to 
prejudice the outcome, even though it is structured to produce a clear 
outcome. At least once before, Puerto Ricans have voted by a majority 
to retain their current Commonwealth status. They may do so again. But 
it is critical to be clear about that status. Second, our recommended 
process does not preclude action by Puerto Rico itself to express its 
views to Congress. At the first step, we recommend that Congress 
provide for the plebiscite ``to occur on a date certain.'' We did not, 
of course, specify that date. But if Congress wished to ensure that 
some action occurred but not preclude the people of Puerto Rico from 
taking the initiative, it could allow a sufficient period for local 
action before that ``date certain.'' If such action occurred and 
produced a clear result, there might be no need to proceed with the 
federal plebiscite.
    The Task Force knows well the importance of the status question to 
the loyal citizens of Puerto Rico and to the nation as a whole. We 
appreciate the Committee's commitment to this matter and the 
opportunity to share our views.
                                 ______
                                 
    The Chairman. Thank you, Mr. Marshall. Can you describe for 
me the consultation process that went into the formulation of 
this report? Would you say that you considered the viewpoints 
of all of Puerto Rico's political parties and leaders?
    Mr. Marshall. I believe we did. We received written 
materials from several positions on the commonwealth. We met 
with many people. I myself met with many people, both from the 
island and lawyers representing various positions on the 
island.
    The Chairman. Near the end of your testimony, you had an 
interesting comment. You implied that no Federal plebiscite may 
be necessary. Does this mean that we should move legislation 
showing Puerto Rico that Congress would like action, for 
example, but then wait on final action if they initiate their 
own plebiscite process?
    Mr. Marshall. What the Task Force had in mind was there are 
people who argue that Puerto Rico itself should initiate any 
statement of the popular will on its status. In our view, 
Federal action is necessary, but it did not seem to us 
inconsistent with Federal action for any Federal legislation to 
allow a period and opportunity for that local action to occur.
    The Chairman. Considering your role on the Task Force and 
as an employee of Department of Justice, would you agree with 
the assertion that Puerto Rico remains subject to Federal 
powers under the Constitution's territory clause? Do any court 
cases lead you to a different conclusion than that?
    Mr. Marshall. The answer to your first question is yes, as 
the report expressly says. The answer to the second question is 
no.
    The Chairman. Thank you. I want to recognize Mr. Rahall.
    Mr. Rahall. Thank you, Mr. Chairman. Thank you, Mr. 
Marshall for your testimony. I do not have a question but 
rather a personal observation. As many in this room know, many 
years ago I got involved in the Tren Urbano transit project in 
Puerto Rico. At that time on the other committee on which I 
serve, I chaired the Surface Transportation Subcommittee and 
subsequently served as its Ranking Member. Throughout that 
time, I was a champion of the Tren Urbano project and saw the 
need for such.
    My good friend, the former Transportation Secretary, Carlos 
Pesquera, and I traveled every mile of the proposed line. The 
Honorable Pedro Rossello, sitting directly behind you, was 
Governor at that time, and I worked very closely with him as 
well on this project.
    I saw firsthand on many occasions the severe highway 
traffic congestion that literally freezes San Juan and the 
neighboring communities and cities, and as I looked across the 
nation, I could find no place else more needy of a modern 
transit system, including our own Los Angeles.
    Now what does this have to do with the current political 
status and debate? Everything, because as I fought for this 
project, for its authorization and funding, I did encounter 
resistance. Puerto Rico is not a state came the resistance. Why 
should we spend all this money for Tren Urbano? I am here on 
bread and butter issues today quite honestly, not theory, not 
on idealism, but pure bread and butter issues.
    If Puerto Rico were a state, I have no doubt that the Tren 
Urbano project would have been completed many years ago. I am 
convinced of that, and the high cost on the economy of traffic 
congestion and the cost on the quality of life in San Juan and 
its environs would have been avoided. And if Puerto Rico chose 
another course, perhaps it could apply for some type of foreign 
aid, but the status quo cannot exist any longer. People need to 
understand that there are tangible benefits to making a 
decision on status now.
    Colonialism must end. This is the 21st century, and indeed 
the United States must set the example. So let the people 
decide in a free and open election. That is, of course, 
envisioned by the President's Task Force and the legislation 
introduced by the gentleman from Puerto Rico. I yield back.
    The Chairman. Mr. Duncan.

STATEMENT OF THE HON. JOHN J. DUNCAN, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Duncan. Well, first of all, let me say that I agree 
with Mr. Rahall, and I want to thank the people of Puerto Rico 
for their patriotism and their friendship and their many, many 
contributions to the United States. I want to thank Chairman 
Pombo for this opportunity to better examine important issues 
surrounding the self-determination process for Puerto Rico and 
to hear from our very distinguished witnesses.
    I have a lengthy statement that I wish to place in the 
record. Let me just say the most important thing is that we are 
trying to do everything possible to ensure fairness in the 
process with which we move forward.
    I certainly enjoyed the friendship and the close working 
relationship with Governor Acevedo-Vila when he was Resident 
Commissioner, and I also have enjoyed working with Resident 
Commissioner Fortuno. He serves on a subcommittee that I chair, 
and he is a really outstanding and, I think, one of the most 
popular Members of this Congress, and I look forward to working 
with him as we move forward on this issue. I understand that 
Governor Acevedo-Vila could not be here with us today due to a 
financial or fiscal crisis in Puerto Rico, and I hope there is 
an opportunity to hear in the future from the Governor.
    I was a member of this committee when we examined the 
Puerto Rican political status in 1998. At that time, the 
Congress brought a bill to the House Floor for consideration, a 
bill very similar to the Administration's proposal and my 
colleagues' proposal, H.R. 4867. On final passage of that bill 
in 1998, 177 Republicans voted against the bill.
    I remain concerned about legislation that would put into 
place a process that could undermine the commonwealth status of 
today and impose upon Puerto Ricans really not a completely 
fair process. Commonwealth status is the only status to have 
won a referendum in Puerto Rico. This compact agreement that 
led to the commonwealth government and Constitution was in 1952 
supported by more than 80 percent of Puerto Rican voters, who 
expressed their right to self-determination.
    I believe that any future consideration by Congress of 
statehood for Puerto Rico or for that matter any other 
political jurisdiction must enjoy at minimum a super majority 
of support by the citizens of that jurisdiction. The voters in 
both Alaska and Hawaii supported statehood by more than 80 
percent before being admitted to the union. Statehood for 
Puerto Rico has never before won a local referendum. In fact I 
think it consistently receives about 45 or 46 percent.
    The Administration's report suggests an approach which set 
into place a first ballot vote where statehood and independence 
supporters would be teamed against Puerto Ricans who support 
commonwealth. Certainly it does not seem fair to me to set up a 
process that, for instance, could end up in 49 percent voting 
in favor of commonwealth, 10 percent voting in favor of 
independence, and then 40 percent or so voting in favor of 
statehood, and then leaving after that the only choice then 
being between statehood and independence. That does not seem to 
fair to me.
    In fact, what seems the fairest to me would be if you are 
going to limit the voters to just two choices after the first 
three are voted on, then certainly the choice that receives the 
most votes, the most votes, the highest percentage of votes in 
the first election should be on the ballot if you are going to 
limit it to just two choices after that.
    So I have some concerns about this, some problems with it. 
The position that I am taking was, as I said, supported by 
almost 180 Republicans the last time we voted on this, and I 
think that we need to listen very closely to everyone and hear 
all the choices and concerns and recommendations and 
suggestions. We should certainly look at this before we leap 
into anything on this and try to set up the fairest process 
possible. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Duncan follows:]

 Statement of The Honorable John Duncan, a Representative in Congress 
                      from the State of Tennessee

    I want to thank Chairman Pombo for this opportunity to better 
examine important issues surrounding the self determination process for 
Puerto Rico and to hear from some distinguished witnesses here today 
opinions about a controversial report on Puerto Rico's political 
status.
    Let me first make clear that my position regarding self 
determination for Puerto Rico is rooted in the belief that we ensure 
fairness in any process moving forward.
    Just as I enjoyed working with Governor Acevedo-Vila when he was 
Resident Commissioner, I enjoy working with Resident Commissioner 
Fortuno on issues important to the United States and to Puerto Rico.
    I understand that Governor Acevedo could not be here today due to a 
fiscal crisis in Puerto Rico. I hope there is an opportunity in the 
future to hear from the Governor.
    I was a Member of this Committee when we examined the Puerto Rico 
political status in 1998.
    At that time, the Congress brought a bill to the House Floor for 
consideration. That bill was very similar to the Administration's 
proposal and my Colleague's proposal, H.R. 4867. On final passage, 177 
Republicans voted against this bill.
    I remain concerned about legislation that would put into place a 
process that both undermines the Commonwealth status of today and 
imposes upon Puerto Ricans an unfair, recurring self determination 
process that would conclude only after a status other than Commonwealth 
is chosen.
    Commonwealth status is the only status to have won a referendum in 
Puerto Rico.
    This compact agreement that lead to the Commonwealth Government and 
Constitution, was in 1952 supported by more than 80% of Puerto Rican 
voters who expressed their right to self determination.
    I firmly believe any future consideration by Congress of statehood 
for Puerto Rico, or for that matter any other political jurisdiction, 
must first enjoy at minimum a super majority of support by the citizens 
of that jurisdiction.
    Voters in both Alaska and Hawaii supported statehood by more than 
80% before being admitted to the Union. Statehood for Puerto Rico has 
never before won a local referendum. Consistent votes against statehood 
in recent plebiscites clearly show that a majority of Puerto Ricans 
oppose statehood.
    The Administration's report suggested approach would set in place a 
first ballot vote where statehood and independence supporters would be 
teamed against Puerto Ricans who support Commonwealth.
    My opposition to H.R. 4867, my support for democracy, and my 
appreciation of how important this issue is for Puerto Rico and for the 
United States led me to introduce H.R. 4963, the Puerto Rico Self 
Determination Act of 2006.
    H.R. 4963 simply recognizes Puerto Rico's right to self-
determination and would ensure that status deliberations for Puerto 
Rico initiate locally through a constitutional convention.
    I look forward to this hearing today, and to working with Governor 
Acevedo-Vila and Resident Commissioner Fortuno further on issues 
important to the Commonwealth of Puerto Rico.
    I have additional relevant information that I request be included 
in the hearing record.
    Thank you.
                                 ______
                                 
    The Chairman. Thank you. Mr. Faleomavaega.

  STATEMENT OF THE HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN 
                  CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. I certainly want 
to commend you and Mr. Rahall for calling this hearing. I think 
it is most appropriate and certainly want to personally welcome 
our colleagues, who although are not members of the Committee, 
but certainly more than welcome to join us here, more 
especially because their ancestry happens to be from Puerto 
Rico.
    I also would like to offer my personal welcome to our 
former colleagues, whom I have had the privilege of working 
with over the years, and I cannot say more: Our former 
colleague, now Governor Acevedo, who unfortunately is not able 
to join us here this morning; also Governor Rossello, who is 
here; and my good friend, Governor Colon, whom I have known 
years before in my younger days; and my good friend, Governor 
Barcelo, who has also served formerly as a member of this 
committee and Resident Commissioner of Puerto Rico for being 
here.
    Mr. Chairman, I think there is no question that we all have 
our personal preferences in terms of the different political 
statuses that we have discussed over the years for Puerto Rico, 
and we have had several plebiscites, both I presume sponsored 
by the Federal government, but uniquely also at times, there 
were plebiscites held under the guidance of the Puerto Rican 
government and the leaders themselves.
    I recall at one time when the plebiscite was held, there 
was a percentage of about 48 percent in favor of commonwealth, 
46 in favor of statehood, and I believe 4 percent in favor of 
independence. And to this day, I think these three basic 
political organizations are still very much active.
    I think if there is anything that we ought to do is to work 
on the procedure, that it will reflect and provide a mechanism 
where the people of Puerto Rico are given an absolute say in 
the process so that there is no sense of manipulation, if you 
will, or some way procedurally so that it will tend to favor 
one option, whether it be statehood, commonwealth or 
independence.
    I think this is probably the heart of the issue here before 
us. I noticed, and I wanted to ask Mr. Marshall, there are 
currently two proposed bills now before the Congress, H.R. 
4963, the chief sponsor, the good gentleman from Tennessee, Mr. 
Duncan, and I myself also as a cosponsor of this legislation, 
and also H.R. 4867, my good friend and colleague, Mr. Fortuno. 
And I wanted to ask Mr. Marshall if he has had a chance to 
review both of these proposed legislations.
    Mr. Marshall. I am aware of both of those bills.
    Mr. Faleomavaega. What is your position on them?
    Mr. Marshall. My understanding is those bills were recently 
introduced, both of them in March, and I do not believe the 
Administration has taken a position on those bills.
    Mr. Faleomavaega. My apologies. There is a conflict in my 
coming here a little late. Am I to understand that the position 
of the Administration, basically they want absolute fairness in 
the process if there is to be a plebiscite, whether it be 
sponsored locally or as well as by the Federal government?
    Mr. Marshall. The position of the Administration would be 
that set out in the Executive Order. Beyond that, I am not in a 
position to state a position of the Administration.
    Mr. Faleomavaega. So there is no position of the 
Administration at this point in time?
    Mr. Marshall. I am here speaking on behalf of the Task 
Force.
    Mr. Faleomavaega. All right. I will come back to you later 
on that. Thank you, Mr. Chairman.
    The Chairman. I think as, Mr. Faleomavaega, we move forward 
with this issue, I think we all look forward to having the 
Administration comment on both bills. The hearing today is on 
the Task Force report, but I am sure that as this whole process 
moves forward that we will hear from the Administration on both 
those bills.
    The Chairman. Mr. Fortuno.
    Mr. Fortuno. Thank you, Mr. Chairman. Mr. Marshall, I just 
want to make clear asking you this. There have been some 
questions asked of the fairness of the process. Indeed the Task 
Force met with every single political party, all three 
political parties in Puerto Rico, is that correct?
    Mr. Marshall. I believe that is correct.
    Mr. Fortuno. And did you receive, not just you, but others 
in the Administration, such as the Attorney General, extensive 
input from all parties, including the Governor and his 
representatives in Washington, including what is so-called the 
Cooper memorandum that you have? Did you receive that document?
    Mr. Marshall. I received at least one memorandum from Mr. 
Cooper.
    Mr. Fortuno. Did you have a chance to look at it?
    Mr. Marshall. Yes, I and others read it quite thoroughly.
    Mr. Fortuno. And after analyzing the memorandum, you still 
came to the conclusion that is shown in the report?
    Mr. Marshall. Yes. I also met with Mr. Cooper on at least 
two occasions.
    Mr. Fortuno. So there were extensive discussions with the 
Governor and his representatives on this?
    Mr. Marshall. My co-chair met with the Governor. I did not 
myself have direct discussions with the Governor.
    Mr. Fortuno. You have included as part of the report the 
January 18, 2001, Justice Department opinion issued to the 
Chairman of, on this side, the Senate Committee on Energy and 
Natural Resources, The Honorable Frank Murkowski. And actually 
in that opinion, are you familiar with the opinion?
    Mr. Marshall. Yes.
    Mr. Fortuno. In that opinion actually, page 5, discuss a 
new commonwealth, there are some statements specifically 
stating that the Constitution, the U.S. Constitution, 
recognizes only a limited number of options for the governance 
of an area. ``Puerto Rico could Constitutionally become a'', 
reading from the third paragraph, ``become a sovereign nation 
or it could remain subject to the United States' sovereignty if 
we want to solve this issue once and for all.''
    The terms of the Constitution do not contemplate an option 
other than sovereign independence, statehood or territorial 
status. Is that still the position that you and the Justice 
Department hold?
    Mr. Marshall. Yes. And in fact, the case that is cited in 
that paragraph is cited in our report for the same proposition.
    Mr. Fortuno. Were you made aware when you were working on 
the report of what is called the enhanced commonwealth or 
development of a new commonwealth under which Puerto Rico would 
be a nation in a permanently binding relationship with the 
United States under which the commonwealth could determine the 
application of Federal laws and Federal court jurisdiction and 
enter into foreign trade, tax and other agreements, but the 
U.S. would still have to continue to grant citizenship to the 
residents of the island and accord aid to Puerto Ricans and a 
totally free entry of products shipped from Puerto Rico to the 
U.S., and on top of that, grant a new annual subsidy to aid our 
government? Are you familiar with that proposal?
    Mr. Marshall. I was familiar with what we called a new 
commonwealth proposal in our report, and we describe it, not 
with all the details you have listed. I was also aware of some 
variations on that. Whether I was aware of that precise one, I 
do not recall.
    Mr. Fortuno. After analyzing that proposal, is it your 
opinion that this proposal is a possible status option?
    Mr. Marshall. The proposal we described in the report as 
new commonwealth is not in our view a viable status option 
under the Constitution as it is now. To the extent what you 
have described is analogous to that, the same conclusion would 
probably apply.
    Mr. Fortuno. So essentially what you are saying, that we 
would have to amend the U.S. Constitution in order to be able 
to obtain what has been proposed?
    Mr. Marshall. Yes, and the report says that.
    Mr. Fortuno. Do you think there is a chance that it will be 
amended, our Constitution, the U.S. Constitution, any time 
soon?
    Mr. Marshall. I was not hired by the Attorney General for 
my prophetic abilities, so I cannot answer that question.
    Mr. Fortuno. Thank you very much.
    The Chairman. Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. I have read with 
great interest some of the information that has been presented 
to me not only because of my being Hispanic but also because I 
am chair of the caucus, the Hispanic Caucus. I have been privy 
to some of the information, and I have been in Puerto Rico a 
few times, but I was greatly distressed that I was 
misrepresented at one time after a short hall meeting with an 
individual from Puerto Rico.
    That said, I just wanted to tell you that I agree with the 
comments of some of my colleagues, Mr. Faleomavaega and Mr. 
Duncan, in regard to allowing the Puerto Rico people to speak. 
And I would certainly ask, Mr. Marshall, if in your 
deliberation in your seeking counsel from all the individuals 
that you did, did you speak to any of the working class, the 
people of Puerto Rico, to see how they felt?
    Mr. Marshall. I myself did not. I know that other members 
of the Task Force traveled to Puerto Rico. I do not know 
exactly who they talked to.
    Mrs. Napolitano. In other words, there was no effort or 
attempt to actually ask the people who we are supposedly making 
decisions for?
    Mr. Marshall. What I was trying to say in my previous 
answer was that I do not know the answer to that.
    Mrs. Napolitano. Thank you. I still hold that I think the 
people need to determine and not Congress and not certainly the 
political parties, whoever they may be.
    I would like to yield to my colleague, Nydia Velazquez, the 
rest of my time.

 STATEMENT OF THE HON. NYDIA M. VELAZQUEZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Velazquez. Thank you. Mr. Marshall, can you explain to 
us why has the President not endorsed the findings of this 
report?
    Mr. Marshall. The Task Force had a limited mandate, which 
was to report to the President and provide advice and 
recommendations to him and to Congress. That is what we have 
done. That is why we are here.
    As the President required, every Cabinet-level department 
was represented on the Task Force. This report is, therefore, 
an interagency recommendation to him as well as to the 
Congress, but the Executive Order that creates the Task Force 
does not contemplate approval, disapproval or any public 
declaration by the President.
    The President has received the report as, of course, has 
the Congress. No Presidential action is required in order for 
Congress to proceed, and we hope that our report provides 
beneficial information for you and for the people of Puerto 
Rico as well as the Administration.
    Ms. Velazquez. So clearly, sir, there are complicated 
issues involving Constitutional, political and socioeconomic 
matters that require in-depth analysis. Previous reports like 
the one that I have in front of me have spanned volumes, yet 
the body of your report is only 10 pages. How can you come 
before this committee and tell us we should make decisions that 
will impact the lives of millions of people based on 10 pages?
    You are here, and you are testifying representing the Task 
Force, and your answer to Mrs. Napolitano is that you believe 
that some meetings took place in Puerto Rico. My question to 
you is: Did you, the Task Force, travel to Puerto Rico, and in 
a public, open way conduct public hearings for all the 
political parties, for all the people in Puerto Rico, to be 
able to participate? Where is the fairness, open process that 
we are fighting for in Iraq? Can you explain that to me?
    Mr. Marshall. I am sorry, Congresswoman. There were several 
questions in there. Could you please repeat the first question?
    Ms. Velazquez. Well, my question to you is this is an 
important issue for the people of Puerto Rico, and believe me, 
as a Member of Congress of Puerto Rican descent, I would love 
to see seven Puerto Ricans coming from Puerto Rico to join in 
the House of Representatives. Why? But that is a decision that 
the people of Puerto Rico has to make, and we cannot issue a 
report that is just basically supporting one status option, and 
that is statehood.
    Mr. Chairman, I ask unanimous consent that the previous 
Presidential commission report that have members appointed by 
the President of the United States, the President of the U.S. 
Senate, the Speaker of the U.S. House of Representatives, and 
the Governor of Puerto Rico, a list that included 
representatives of the main political parties at that time be 
incorporated into the record.
    The Chairman. Without objection. The gentlelady's time has 
expired.
    Ms. Velazquez. Thank you.
    The Chairman. Mr. Flake.
    Mr. Flake. Chairman, I would like to yield two minutes to 
the gentleman from Indiana.

STATEMENT OF THE HON. DAN BURTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Burton. First of all, I thank you, Chairman Pombo, for 
allowing us nonmembers to be here today. I appreciate it, and I 
appreciate you yielding to me. In 1998, we did hold hearings in 
Puerto Rico. I was there. I was one of the people that held the 
hearings. Don Young, who was Chairman of Resources at the time, 
and myself, we sponsored legislation dealing with this issue, 
and we held numerous hearings in Puerto Rico, and we had 
everybody that wanted to testify. So this is not the first time 
that this has been discussed.
    And I want to say something about my good friend, John 
Duncan. The reason 160 some Republicans voted against it--and 
my Democrat friends will get a kick out of this--is because we 
did not think we could elect any Republicans down there. And 
they said, why would we want to make a state that is going to 
give the House of Representatives to the Democrats forever?
    And so that is why an awful lot of the Republicans in the 
House of Representatives voted against that legislation. That 
is a fact. It had nothing to do with whether or not there was 
merit for statehood or not. Now we have a Republican here I 
want to tell you, so there is possibility down there that we 
can elect some Republicans.
    And so those of us that were for the legislation very 
similar to what Representative Fortuno is talking about felt 
like this was the best way for the people of Puerto Rico to 
really have their voices heard, to get this thing clearly 
defined so that they could make a decision on whether or not 
they wanted to be a state or they did not want to be a state.
    And we thought the mechanism that we talked about in 1998 
was the right one. I think that the recommendation of the Task 
Force and your legislation, Representative Fortuno, is the 
right way to go. I still feel that.
    I have a statement for the record, Mr. Chairman, I would 
like to insert. I will not take any more of your time, but I 
sincerely hope that we get this resolved. If and when Puerto 
Rico becomes a state, I hope we elect good representatives, 
mostly Republican. Thank you very much.
    [The prepared statement of Mr. Burton follows:]

  Statement of The Honorable Dan Burton, a Representative in Congress 
                       from the State of Indiana

    Puerto Rico has been a U.S. territory for 108 years, and is the 
longest held U.S. territory. This means that for 108 years, we have 
been debating what to do about Puerto Rico; whether it should continue 
to be a U.S. territory, or whether we should encourage the people of 
Puerto Rico to move towards something more permanent, be it statehood 
or independence. It is astounding to imagine all that what we could 
have accomplished had we spent these past 108 years focusing on how to 
make life better for the Puerto Rican people.
    Congressman Fortuno's bill, the Puerto Rican Democracy Act of 2006, 
is based on the President's Task Force on Puerto Rico's Status which 
was released last December, and puts into words what Congress should 
have done long ago. It is time for Congress to put these words into 
action.
    In simple terms, this bill provides the four million people of 
Puerto Rico with a chance to determine their own fate, through a two-
part plebiscite. During the first, the Puerto Rican people will vote to 
either preserve the status quo and remain as a U.S. territory, or 
whether they wish to pursue a Constitutionally viable path toward 
permanent non-territorial status with the U.S. Should they decide to go 
forth with the latter option, the second plebiscite would present them 
with the choice of electing separate sovereignty, either through 
independence, free association, or to become the 51st state of the U.S.
    Some of my colleagues have different ideas about how to solve the 
ongoing issue of Puerto Rico's status. One bill that's been introduced, 
the Puerto Rico Self-Determination Act of 2006, sets forth steps toward 
Puerto Rican self-determination through a constitutional convention, 
where the people--through their political parties and establishment--
would work to decide what kind of permanent status they wish to move 
towards.
    The problem with this bill is that it presumes the Puerto Rican 
people wish to abandon their territorial status, which many previous 
plebiscites indicate is not what the Puerto Ricans want.
    Congressman Fortuno's bill leaves that option open. It says, if the 
Puerto Rican people wish to maintain territorial status they may, but 
we will continue to poll the people of Puerto Rico in years to come, to 
make sure that is still what they want. This bill doesn't force them 
into anything they do not want, or something they may regret in 10 or 
15 years time. This is why I support this bill.
    Congress shouldn't dictate to the Puerto Rican people what is best 
for them, the people themselves must decide that. Congress doesn't face 
the same realities day in and day out that the people of Puerto Rico 
face; realities like serving in the United States military, without 
being able to elect its Commander-in-Chief. To date, at least 50 people 
from Puerto Rico have given their lives for the global war on terror 
and American freedom, but didn't have the opportunity to vote for their 
President.
    Our role in Puerto Rico is to be sure the Puerto Rican people are 
able to determine exactly what it is they want to do with their great 
island. It is our responsibility to ensure the self-determination 
process is free and fair. We need to provide the Puerto Rican people 
the same chance for the full democracy we advocate to the rest of the 
world, but first we need to make sure they want it.
                                 ______
                                 
    Mr. Flake. Thank you.
    The Chairman. Mr. Flake is recognized for the remainder of 
his time.
    Mr. Flake. Thank you, Mr. Chairman. I want to commend Mr. 
Fortuno for working so hard on this issue. There are few people 
in Congress who work harder on any issue than he has worked on 
this one, and I want to commend him for that. I am proud to 
cosponsor the legislation.
    Let me just ask, Mr. Marshall, the Governor in Puerto Rico 
has indicated that the Task Force actually eliminates 
commonwealth status as an option, but yet does not the Task 
Force report actually say that the residents can vote to 
continue with commonwealth status?
    Mr. Marshall. That is correct.
    Mr. Flake. So commonwealth status is not eliminated as an 
option?
    Mr. Marshall. That is correct.
    Mr. Flake. And the Task Force recommendation or the report 
states that?
    Mr. Marshall. Correct.
    Mr. Flake. OK. Thank you. I yield back.
    The Chairman. Thank you. Ms. Christensen.

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Ms. Christensen. Thank you, Mr. Chairman and Ranking Member 
for holding this meeting and to you and my colleagues for 
allowing me to go out of turn because I am going to have to 
leave, but I want to just say good morning and welcome to the 
witness at the table and all of the distinguished witnesses 
behind you. The list of today's testifiers reads like a Who's 
Who in the annals of recent Puerto Rico history.
    I also want to say that as a close neighbor of a fellow 
offshore possession of the United States, your status debate 
and process is more than just an interesting issue to me. It is 
very important, and it is very relevant to our own in the U.S. 
Virgin Islands, and whatever course you take, even the process 
you adopt, will affect all of the rest of us.
    That being said, I have some questions as to why we are 
even here. As I understand it, Puerto Rico, like the rest of 
us, has the ability to conduct a referendum, a convention or 
any process that we decide on. I would also think that having 
Congress dictate what the process should be would go against 
the grain of most Puerto Ricans, especially since it carries no 
guarantee that the Congress will automatically accept that 
outcome.
    I know there is a sense among some that what exists in 
Puerto Rico is not a democracy, and I disagree with that. I 
have thought about it. I disagree. Just because Puerto Rico is 
not a state does not mean that democracy does not exist, and 
the people in that democracy do have the right to decide, they 
have the right to petition this Congress, and to date, they 
have decided to remain in their current status.
    It often seems as one looks at it, reads about it, listens 
to it that this is more of a partisan fight than a popular 
debate, and it needs to be a popular debate. And it is for that 
reason that I have decided to support H.R. 4963, the Puerto 
Rico Self-Determination Act of 2006, which opens the process up 
entirely for the people of Puerto Rico to decide the course and 
the ultimate status of the desire.
    A decision like this one that evolves has to evolve. It can 
take a long time. It really cannot be forced, and I think the 
Task Force report and the bill that comes out of that attempts 
to force a quicker response to this important issue that really 
is going to take some time.
    I really regret that I cannot stay for the hearing. I have 
to set up my Health Braintrust session far in advance of today 
to be able to get a large enough room and to invite people from 
around the country to come, but I guarantee I will read every 
word of every testimony, and I will continue to follow the 
debate and the process, as will the local television stations 
and newspaper, and I invite, you know, continued dialog with 
both sides.
    I just want to mention another issue that I feel is more 
urgent which can also impact my district and I think, you know, 
the Committee also needs to be concerned about, and that is the 
fiscal impasse in Puerto Rico, and I hope that it can come out 
of any partisan debate politics that may be influencing it and 
focus simply on the best analyses, recommendations and what is 
best for the people that all of us and you work for.
    I am sure that there is one thing that all sides agree, and 
that is your commitment to La Isla de Boricua and the people of 
Puerto Rico, and in the end, as long as the people decide, 
whatever they decide, they will be the winners. Again, I really 
regret that I cannot stay, but I have followed this issue very, 
very closely. I will continue to follow it, and I will continue 
to listen to both sides, but as of right now, I really have to 
come down on the side of H.R. 4963. Thank you.
    The Chairman. Thank you. Mr. Gibbons.

STATEMENT OF THE HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you very much, Mr. Chairman, and to each 
and every one of our panel witnesses that are going to be here 
today, welcome. It is a pleasure to have you before us. I have 
served on this committee for 10 years now, and I was here back 
in 1998 when we considered this question with Mr. Young, who 
was the Chairman, and Mr. Chairman, thank you for your 
continued interest in this process.
    I join with my colleague, Mr. Duncan, who expressed some 
concerns, and I share in his comments as well about the 
fairness of the process. As I look at this report, it appears 
that the report recommends a two-step process, and that vote 
process would put votes for the two extreme options it appears 
of statehood and independence competing together against the 
votes for a commonwealth.
    If the combined vote for statehood and independence defeats 
commonwealth, we would then have a runoff between statehood and 
independence. I would only ask you if this sounds like a fair 
process, a process which excludes the option that has the most 
support of the people in Puerto Rico, and yet it would appear 
to have the other two options ganging up on the commonwealth 
side. Do you see any challenges to that process?
    Mr. Marshall. I have already heard some of those 
challenges, so I guess the answer to your last question would 
be yes. With regard to what option now has the most support, I 
honestly do not know the answer, because one persistent 
question has been how the commonwealth option or status is 
defined. The report did think that it had come up with a fair 
process, as I have mentioned. In at least one of the prior 
referenda, commonwealth did receive a solid majority. There is 
no reason to think it could not do so again if that were what 
the people thought.
    Mr. Gibbons. Let me ask a question. As a member of the Task 
Force, actually as one of the co-chairmen I think you said you 
were, right?
    Mr. Marshall. Yes.
    Mr. Gibbons. Did the Task Force members who represented the 
various departments prepare an analysis of how their 
departments interact with the commonwealth during this process?
    Mr. Marshall. I do not think I can go into our written 
internal product, but I do know that each of the 
representatives was aware of that.
    Mr. Gibbons. And did they examine the implications of 
Puerto Rico changing its status, either in terms of the budget 
or other policy implications?
    Mr. Marshall. We considered those things, yes.
    Mr. Gibbons. Well, if there were no hearings, apparently 
what you indicated earlier in Puerto Rico for your committee, 
why did it take five years to write a nine-page report with 
three recommendations?
    Mr. Marshall. I do not know the full answer to that 
question. I have been on the Task Force for a year, and I think 
we moved fairly expeditiously.
    Mr. Gibbons. Well, let me ask a question. What was the 
budget for the committee or the Task Force?
    Mr. Marshall. I do not think we had a budget.
    Mr. Gibbons. Unlimited budget? Come on now. You are in the 
government. You have a budget on everything.
    Mr. Marshall. My answer was not that we had an unlimited 
budget.
    Mr. Gibbons. You did not have a budget, or you just do not 
know what the budget was?
    Mr. Marshall. I am not aware of a budget for our work. We 
were all detailed from our departments.
    Mr. Gibbons. I guess my question then is, in your opinion, 
as an intelligent individual who is obviously an attorney, why 
not have an up or down, yes or no vote on independence, a yes 
or no vote on statehood, or a yes or no vote on commonwealth? 
Because you made this recommendation, this two-step process 
recommendation. I want to just sort of get your ideas on why 
not just have separate independent votes, and whoever wins wins 
or whichever.
    Mr. Marshall. I am not here to testify to my own personal 
opinion, intelligent or otherwise. I can say that the report, 
as I have explained today, seeks to set up a process that will 
produce a clear outcome that will provide clear direction to 
Congress, and we think we have done that.
    Mr. Gibbons. OK. Well, again, I join with my colleague from 
Tennessee in expressing his concerns about the fairness of this 
process. I certainly want the people of Puerto Rico to be able 
to express their own will, to be able to express their own 
concerns and their own decisions in this process. And if we 
artificially construct a process which denies them of that 
inevitable right and outcome, then I do think there is very 
deep concern about the process which was constructed in this 
report.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. I would like to 
yield the time that I have to my friend, Congressman Gutierrez.
    Mr. Gutierrez. Thank you very much. I want to first say to 
the Chairman, Mr. Pombo, and to the Ranking Member, thank you 
so much for allowing me to participate, and I would like to 
express a special thanks to the Resident Commissioner of Puerto 
Rico, Luis Fortuno, for allowing me and many of my colleagues 
to participate in this process.
    I think it speaks volumes about his intention to have a 
fair and open process by allowing us to participate. I say that 
in the vein that while we disagree, he is still allowing us to 
participate, and I want to thank him personally here this 
morning.
    I would like to ask you, Mr. Marshall, Puerto Rico was not, 
I believe, as indicated on page 9 of your report, relinquished 
by Spain. That is the verb you use. In 1898, the U.S. wrested 
control of Puerto Rico from Spain through armed force. Have you 
read the history of Spanish-American War?
    Mr. Marshall. Yes.
    Mr. Gutierrez. OK. So we did send General Miles there of 
Wounded Knee massacre fame to lead the troops? Do you know 
that?
    Mr. Marshall. I do not know. I am not going to answer 
whether or not that is correct.
    Mr. Gutierrez. Then I think before you coauthor a report 
about Puerto Rico, you should understand the basic elements of 
Puerto Rican history. We were not relinquished. The Spanish-
American War, we were war booty as a result of the Spanish-
American War. So therefore, Puerto Rico was a colony of the 
United States beginning in 1898.
    Mr. Marshall. The word ``relinquish'' is referring to the 
act by which Spain handed sovereignty to the U.S. We are not 
attempting to make a commentary on the war or Puerto Rico's 
previous status as a colony of Spain.
    Mr. Gutierrez. OK. Do you know that the U.S. demanded that 
Puerto Rico be part of war repatriations or booty from Spain as 
a condition for peace?
    Mr. Marshall. Yes.
    Mr. Gutierrez. OK. So in other words, it was not wrested? 
It was really taken. And the reason I bring that issue up is 
because you see Puerto Rico was already a nation in 1898 with 
its own culture, its own history, its own language. From a 
judicial perspective, Puerto Rico was an autonomous province of 
Spain with a very high level of degree of self-government.
    And I bring that to your attention because this historical 
background, just to bring to the attention of the Committee, 
that Puerto Rico was indeed a nation assisted by the 
inalienable right to self-determination and independence, the 
inalienable right to self-determination and independence, and 
that the colonial case of Puerto Rico is not just a matter for 
the U.S. Congress.
    If I heard you correctly and if I read the report 
correctly, you stated that the Congress could unilaterally act 
in its relationship with Puerto Rico and change the conditions 
of the current relationship between the people of Puerto Rico 
and the people of the United States, is that correct, Mr. 
Marshall?
    Mr. Marshall. That is correct.
    Mr. Gutierrez. OK. As a matter of fact, your report goes to 
the extreme to state that you could unilaterally grant 
independence for Puerto Rico or transfer Puerto Rico's 
territory to another entity, is that correct?
    Mr. Marshall. I am not sure whether that second statement 
is expressed in the report, but it is correct that we say that 
Congress has all the authority with regard to Puerto Rico that 
it would have with regard to any territory.
    Mr. Gutierrez. OK. So here is my question. Then this should 
not be just an issue for the Congress of the United States, 
should it, given that we went to the United Nations? Do you 
recall when the government of the United States under President 
Eisenhower with Ambassador Cabot Lodge went to the United 
Nations in 1953 and obtained an agreement by which we, the 
United States, no longer had to report to the committee on 
decolonization because Puerto Rico had achieved a degree of 
self-determination?
    Mr. Marshall. I cannot say that I personally recall that, 
but I am aware of that.
    Mr. Gutierrez. OK. Since you cannot personally recall that, 
are you aware of that historical fact?
    Mr. Marshall. Yes.
    Mr. Gutierrez. OK. If that is so and you are saying today 
that you can unilaterally change the condition as a matter of 
fact, then indeed Puerto Rico continues to be a colony of the 
United States.
    Mr. Marshall. What I believe happened in 1953 was that 
after Congress approved the popularly approved Puerto Rican 
Constitution, the Governor of Puerto Rico asked the United 
States to ask of the United Nations that the United States no 
longer file a report with regard to Puerto Rico because Puerto 
Rico had become self-governing. The President did do that. He 
filed a request, and we ceased filing the reports.
    In that request, we did not state that Puerto Rico's status 
and system could not be changed. I am aware of a prior 
statement by our Ambassador to the United Nations that suggests 
that, but that was not in our official request to the United 
Nations.
    The Chairman. The gentleman from Illinois' time has 
expired.
    Mr. Gutierrez. Thank you very much.
    The Chairman. The gentleman from Alaska, former Chairman of 
the Committee, Mr. Young.
    Mr. Young. Thank you, Mr. Chairman. I want to thank the 
great Luis Fortuno for bringing this bill to the Floor and 
representing Puerto Rico. I also want to recognize my good 
friend, Carlos, the horse out in the audience that has worked 
with me very hard on this issue for a long time. This is not 
new to me, and poor you, Kevin Marshall. I hope this does not 
turn out as a hostile meeting. At least there was a report. 
There has been little action since the last time out of this 
committee when we reported the bill. That did get to the Floor, 
and we won by one vote. And I had hoped it had gone over, and 
it would have been an accomplishment because this is long 
overdue.
    At that time, we were celebrating the hopefulness of having 
the opportunity for the Puerto Rican people to decide what they 
wished to be once and for all, 100-year anniversary. You were 
supposed to be a state before Hawaii. I want people to 
understand that, but somehow Hawaii got in front of you, and I 
do not quite understand because we were Alaska, and we became 
actually the next to the last state entered into the union, but 
that is the way it was supposed to be.
    I can tell you that I am a little concerned because I have 
said publicly I do not believe commonwealth will work. It was 
ironic when I went to Puerto Rico and had hearings--and we did 
have hearings in Puerto Rico. We had two hearings in Puerto 
Rico, had everybody participate in them. The independent party, 
the commonwealth, the statehood party, everybody participated, 
and I never enjoyed as much activity of anywhere in my life or 
the participation and the sincerity and the passion on both 
sides of the issue.
    I can remember going down the street in a cavalcade of 
automobiles, and I had I believe 55,000 people on one side of 
the street cheering for me, and the other side, there was 
55,000 booing me. Patrick Kennedy, you were with me. And I just 
have said all along that the constant inactivity of not 
acquiring a permanent status, as long as the commonwealth 
exists in Puerto Rico--I mean, I may go to that road. I mean, 
think about it.
    You get a lot of the things that every other state get, but 
you do not have the responsibility, which I think is important 
to be part of our society within the United States, and believe 
me, you are part of the United States. The service that you 
have rendered to the United States, the veterans that have been 
participating in every war that I can believe we have been 
involved in, other than the Spanish-American War, and you were 
involved in that, too, has been on the side of the United 
States and with great patriotism and great pride.
    So this hearing is about more than anything and other than 
the report is about where we are headed as a Congress, as a 
nation and as a commonwealth and where you are going to end up 
at. And I am going to do everything to make sure that the 
Resident Commissioner, the gentleman who represents that area, 
as I have done every time before to work with him, work with 
the Governor.
    I am sorry the Governor is not here, by the way. I will say 
that right up front. He is the Governor of the state. There was 
prior notice that this meeting would be held, and I am just a 
little bit disappointed that he was not here. This is a good 
time to be in Washington, D.C.
    I plan on going to Puerto Rico with the help of the 
Chairman during this period of time to go down and again have a 
visit and to listen and understand, and hopefully we will be 
able to achieve I think a solution to this uncertainty that 
exists right now in Puerto Rico.
    I respect you. I respect the people from Puerto Rico. I am 
deeply moved because we were the next to the last territory to 
become a state, and I know what commonwealth is all about. It 
will not work.
    Mr. Kennedy, I yield to you.
    Mr. Kennedy. Ten seconds, Mr. Chairman. I think you are a 
perfect example of what political power as a state is all 
about. I do not think you would want to return to a 
commonwealth, especially after all the earmarks that you and 
Mr. Stevens managed to appropriate to Alaska, which makes it 
particularly the number one state in the country in terms of 
the amount of Federal money it gets back, and Puerto Rico as a 
commonwealth is now among practically the lowest in terms of 
entitlements because it is not a state. And, Mr. Chairman, I 
think it is proof positive about why Puerto Rico's future will 
better be off if it is a state.
    Mr. Young. I thank the gentleman for those comments, and I 
take great pride in that. You know, I will say that my good 
friend, Luis Fortuno, has been very successful in making sure 
that Puerto Rico gets quite a few more earmarks than they used 
to get because they know that I understand the problems down 
there. The highway problems, the bridge problems, communication 
problems, I understand them because I have been there.
    Mr. Chairman, let me say one thing. For all of those in 
this committee, earmarks are good.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. Mr. 
Cardoza. You have no questions right now, Mr. Cardoza? You are 
going to claim your time and yield it?
    Mr. Cardoza. I will yield to Ms. Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman. Let me take this 
opportunity, because I was taken aback when Congresswoman 
Napolitano yielded to me. I was not expecting that. It was not 
programmed. But I want to take this opportunity to thank the 
Chairman and the Ranking Member, and also I want to take the 
opportunity to really recognize our friendship with the 
Resident Commissioner from Puerto Rico. Thank you very much for 
not opposing us to participate in this important hearing.
    You know, I come from Puerto Rico. I grew up in Puerto 
Rico. I have nine brothers and sisters in Puerto Rico and like 
50 nephews and nieces, so I have a vested interest in this 
issue.
    But to answer both to Mr. Don Young and Mr. Kennedy, I 
appreciate your position about providing more resources to 
Puerto Rico, but what is best for Puerto Rico? Only the Puerto 
Rican people should answer that question. It is not and it 
should not be my position as a Member of Congress to decide 
what is the best political option for Puerto Rico. That is not 
self-determination.
    Mr. Marshall, your report recommends a series of endless 
votes, and my question is: How Democratic is a process where 
you repeatedly make people vote until you get the outcome that 
is to your liking?
    Mr. Marshall. I do not think that is a fair 
characterization of the report with respect. The first step, as 
we said, is to ask Puerto Ricans whether they are happy with 
the status quo. I do not think it would be an enhancement of 
democracy if we simply ask them once and stopped.
    Ms. Velazquez. And you go again and again and again until 
the commonwealth is defeated, and then you will have the 
options of statehood and independence. But you know if you read 
history and you know because you met with the stakeholders from 
Puerto Rico that the independence option and the different 
plebiscites that have taken place in Puerto Rico, the 
independence option always get no more than 5 percent. So at 
the end of the day, it will be statehood.
    Mr. Marshall. I am sorry. I am not sure what your question 
was.
    Ms. Velazquez. At the end of the day, the result will be 
statehood, the statehood option, because historically they are 
going to be fighting between the statehood and the independence 
for the commonwealth votes, and when you see that most in every 
place I conducted in Puerto Rico, the independence option does 
not get more than 5 percent. So what would be the end result? 
Statehood.
    My second question. Please explain how valid a self-
determination process can be if it was originated by a few 
bureaucrats without any open hearings in Puerto Rico to listen 
to the people's opinions? Did you conduct any public hearings 
in Puerto Rico?
    Mr. Marshall. I did not conduct any public hearings.
    Ms. Velazquez. I am asking again because I asked you 
previously, and you did not answer.
    Mr. Marshall. You asked several questions, and I asked 
which was the precise one, and that was not what you listed.
    Ms. Velazquez. Yes. OK.
    Mr. Marshall. I did not hold any public hearings in Puerto 
Rico.
    Ms. Velazquez. And you do not think that such an important 
process should conduct a public hearing in Puerto Rico to 
listen to the people that are going to be affected by the 
outcome of this process?
    Mr. Marshall. I think that the Task Force faithfully 
carried out the duties it was given by President Clinton and 
President Bush.
    Ms. Velazquez. And in that mandate that was given by 
President Clinton and President Bush, did it say that they did 
not have to conduct public hearings in Puerto Rico?
    Mr. Marshall. It did not address that question.
    Ms. Velazquez. I would like to request for the hearing 
record that the Task Force submit all documents used in the 
development of the report with a corresponding list of all 
individuals who contributed, along with their professional 
credentials and expertise, and I ask unanimous consent, Mr. 
Chairman.
    The Chairman. I can ask unanimous consent, but I would 
object to it. I do not believe that at this time that we have 
access to all of that information, but I will continue to work 
with Mr. Marshall to see what information is available that we 
can include as part of the hearing record.
    Ms. Velazquez. Thank you, Mr. Chairman. Mr. Marshall, would 
you be willing to share with our staff the documents that were 
used for this final report? We are fighting for openness and 
democracy in Iraq, so we could do the same here.
    The Chairman. The gentleman from California's time has 
expired, but I will allow Mr. Marshall to answer the question.
    Mr. Marshall. I am not in a position to answer that 
question. I assume that many, if not all, of the documents to 
which you are referring would be protected by privilege.
    The Chairman. I recognize Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman, and thank you to the 
Resident Commissioner for your leadership on this issue. Could 
you, Mr. Marshall, answer me this question rather quickly? 
Could you please explain the difference for us between the 
previous votes that have been taken in regard to the status of 
Puerto Rico versus a congressionally authorized plebiscite, as 
recommended by your report?
    Mr. Marshall. The details of the various votes are in the 
report. The previous votes have all been initiated within 
Puerto Rico by the previous votes. Those votes have, with some 
exceptions, not produced majorities, and there has in at least 
some of those votes been serious controversy over what exactly 
the commonwealth option is.
    Mr. Dent. OK. Another question I have is it is my 
understanding that the Governor of Puerto Rico has claimed that 
the Task Force report stands for the proposition that the U.S. 
may cede Puerto Rico to another nation, rescind U.S. 
citizenship of those born on the island, and renege on its 
legal interpretation of commonwealth before the U.N. in 1953, 
is that correct?
    Mr. Marshall. I have already addressed the United Nations 
question from Congressman Gutierrez. With regard to 
citizenship, the report addresses that question. There is 
international law and custom on that question. And with regard 
to ceding Puerto Rico, as I have previously answered, our view 
is that Puerto Rico is subject to congressional authority as a 
territory, and that would include all the authorities that 
Congress has regarding its territories.
    Mr. Dent. And finally, the Governor of Puerto Rico has said 
that he thought the Task Force was dormant before its report 
and suggested that his views were not considered. Did the Task 
Force consult with the Governor, and did it and others in the 
Administration, such as the Attorney General, receive extensive 
input from the Governor and his representatives, and did you 
seriously consider it?
    Mr. Marshall. The answer to all three of those questions is 
yes.
    Mr. Dent. OK. And again, the Governor has claimed the Task 
Force does favor statehood as Puerto Rico's future status. Does 
the Task Force favor statehood in your view, or did it 
objectively analyze Puerto Rico's status proposals and options?
    Mr. Marshall. I believe the answer is the latter. Our 
mandate from the President barred us from having prejudice with 
regard to any of the Constitutional options.
    Mr. Dent. Thank you. I have no further questions. I yield 
back the balance of my time.
    The Chairman. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman, and thank you, Mr. 
Fortuno, for your leadership on this. You represent Puerto Rico 
very well. I am sure you wish you could represent it fully like 
the rest of us, and I wish you would be able to come to the 
Floor, and when we decide whether to send Puerto Ricans over to 
Iraq to fight for this country, that they would have the same 
right that Puerto Ricans in the mainland have when voting for 
Members of Congress.
    I appreciate what Ms. Velazquez and Mr. Gutierrez said 
about their family in Puerto Rico, but if those family members 
were here in the United States, they would have the right to 
vote for a Member of Congress. But they are in Puerto Rico, and 
as American citizens, they are disenfranchised.
    If my colleagues from Puerto Rico wanted to run for 
Congress in Puerto Rico as American citizens, they would not 
have that right currently under the given status that we have. 
We just celebrated last year the 40th anniversary of the Voting 
Rights Act. It was a very important victory for voting rights 
in this country to enfranchise people who were disenfranchised 
up until that point. I think it is ironic that we are 
celebrating the 40th anniversary of the Voting Rights Act, and 
yet we are denying 4 million people of their and seven 
Congresspeople their right to vote.
    I think that the point I made with Alaska is a very simple 
point, and that is if the people of Puerto Rico had a vote 
here, they would have, in the vernacular, yank in this place. 
They would have power. They would have an opportunity not to 
depend on the great beneficence of Mr. Young. They would have 
their own power. They would not have to rely on the goodwill of 
those of us who would like to see parity for health care 
funding and for education funding for the people of Puerto 
Rico. They would have their own power.
    They would not have to go with their hat out looking for 
goodwill. They would have political power, and I guarantee you 
Puerto Rico's economy would improve markedly, as we have seen 
every other territory that has become a part of the United 
States, seen its economy and its quality of life improve 
dramatically.
    I think the arguments for commonwealth at the time that 
commonwealth was adopted were very appropriate. It was a step 
forward to have commonwealth, but we are talking not about 
history and what happened 50 years ago.
    Today we are talking about the future of Puerto Rico and 
what is going to happen in the next 50 years. I do not think it 
is really germane to be rehashing conversations that were made 
60 years ago and neglect the fact that what we are really 
talking about here is the future of Puerto Rico.
    I want to acknowledge our former colleague, Romero. Thank 
you very much for being here, and certainly Pedro Rossello and 
Governor Hernandez Colon for your leadership. I know all of you 
are working very hard and care deeply about Puerto Rico, and I 
think all of us respect the fact that you are doing the best 
that you can to represent the viewpoints of people in Puerto 
Rico. I just wish that those same views were adequately 
represented here on Capitol Hill. I thank the Chairman for 
including me in the hearing, and again, thank you for letting 
us speak.
    The Chairman. Mr. Diaz-Balart.

STATEMENT OF THE HON. LINCOLN DIAZ-BALART, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Diaz-Balart. Mr. Chairman, thank you very much for your 
courtesy and your committee for allowing us who are not members 
of this committee to visit you today and to speak on this very 
important issue.
    I have to go to the Floor, but I wanted to come by because 
I feel very strongly about this issue and on the record state 
once again, number one, my support for the report of the 
President's Task Force on the status of Puerto Rico.
    I join Mr. Kennedy in commending Luis Fortuno for his 
leadership. He has done an extraordinary job as a member of 
this body in advocating for the rights of the people of Puerto 
Rico and in educating the membership of this body with regard 
to the very critical issue that is before this committee today. 
I wanted to make certain that I not fail to commend and 
congratulate Luis Fortuno for his extraordinary leadership.
    I do not have a position with regard to how the Puerto 
Ricans should vote. Personally my personal opinion is that from 
my vantage point, it would not be appropriate. I think that the 
people of Puerto Rico have a right to self-determination. I am 
a supporter of the right of self-determination for all peoples, 
including the people of Puerto Rico.
    I think that the President's report, the roadmap 
established by, suggested by the President's report and drafted 
by Mr. Fortuno and presented to us in the form of his 
legislation is the appropriate roadmap for the people of Puerto 
Rico to have the opportunity to settle their status, which has 
been a provisional status all of these decades, to settle their 
status once and for all.
    This plan, the Fortuno legislation, would permit the people 
of Puerto Rico to vote for the current status if they should 
wish to do so, but it also would give the people of Puerto Rico 
the opportunity to decide upon a permanent, nonterritorial 
status. It is, in my view, an appropriate roadmap.
    As Mr. Fortuno is the first one to say, it is not 
necessarily perfect, but it is one that we in this Congress 
should support because it satisfies the goal that needs to be 
satisfied, and that is the people of Puerto Rico will have the 
option either to retain the current status or to once and for 
all settle their status with a permanent nonterritorial 
solution.
    I wanted to once again utilize this opportunity to support 
the roadmap that has been suggested by the President's Task 
Force and to express once again my support for the Fortuno 
legislation that I am honored to be a cosponsor of, and, Mr. 
Chairman, as I leave now to head to the Floor, I thank you once 
again for your generosity and your courtesy.
    The Chairman. Thank you. Mr. Serrano.

  STATEMENT OF THE HON. JOSE E. SERRANO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Serrano. Thank you, Mr. Chairman. First of all, I want 
to once again thank you and the Ranking Member for allowing us 
to participate in this hearing and to thank my friend, and it 
is one thing that Luis and Nydia and I agree on, our special 
friendship established very quickly with the gentleman from 
Puerto Rico, Luis Fortuno, and for your input in making sure 
that we are a part of this hearing.
    I also want to thank you for allowing in the bill that you 
put together, on which I am a prime cosponsor with you, my 
amendment that would allow those of us born in Puerto Rico but 
who reside outside to vote in any vote that takes place, any 
referendum that is held.
    I have often said that I may be the leader of a group that 
only has one member, me, and that is a group that focuses not 
on what Puerto Rico's political future should be but what it 
should not be. I am totally committed with every ounce of 
energy in my body and my being to doing away with the colonial 
status of Puerto Rico. I believe as a Puerto Rican born on the 
island that it is wrong for my birthplace to be for 108 years a 
colony of the United States, but I also believe as an American 
Congressman that it is wrong for my country and my Congress to 
hold a colony 108 years later from the time that it took 
control of the territory.
    So I come from this perspective of what is good for my 
Puerto Rican community and also what is good for the country in 
which I have grown up in and where I have had all my children 
and where my parents are buried and whose Congress I am a 
member of. The only solution in my opinion is a permanent 
status that is noncolonial in nature.
    Now some of the critics of this bill say that the bill 
leans toward statehood. I suspect that any time that you 
present the commonwealth for what it is, a territorial colonial 
status, that immediately allows people to say that the bill 
leans to statehood. Also, some folks have said if you have 
votes, it will lead eventually to statehood. That makes an 
assumption I am not ready to make yet, which is that every 
person who now supports the commonwealth would vote for 
statehood before voting for independence.
    I do not know that those folks not given a choice to vote 
for the commonwealth would vote for statehood. They may opt to 
vote for independence. It is a difficult situation to deal with 
is what the final result will be.
    I am also not troubled by the size of the report, 10 pages. 
The Gettysburg address was the back of an envelope. The impact 
was monumental. The Bill of Rights were 10 simple sentences, 
and perhaps world democracy centered, no matter what you think 
of our country, on those 10 sentences that did not have to go 
into great explanation. I am not worried about the size of the 
report.
    I continue to be worried about the fact that my country is 
issuing these reports 108 years after it should have issued the 
first report. That is the problem. The big question here is for 
the commonwealth supporters to ask themselves, what is the next 
step? Is the next step to continue the colonial status, or did 
the people who created the commonwealth envision a next step? 
Is permanent union the next step toward statehood, or was 
commonwealth only a placeholder for independence?
    Either way, it is clear to me that commonwealth was never 
intended to be around. Now even those who support commonwealth 
truly do not support it, because if they did they would not be 
against the initial vote of our bill that says keep the 
commonwealth or make a change.
    They want to keep the commonwealth, but not the 
commonwealth that exists now. Some write a letter to Santa 
Claus, a wish list asking for things, that Congress would have 
to negotiate. Statehood is a clear petition from people. That 
has been done before. We know what statehood brings into play.
    Independence is a clear petition. It has been done by this 
country with the Philippines and other territories, and it has 
been done throughout the world. But an enhanced commonwealth is 
the one that troubles me, because I do not know what that means 
except that I do think I know what it means, but the 
commonwealth supporters do not want that as an option. It means 
free association with the United States. That should be the 
next drivable step for commonwealth if it is not statehood or 
independence, and so I support this bill for these reasons.
    I will close with this statement. I think that the mistake 
we Puerto Ricans have made for 108 years--and I do not blame 
anyone for it, I think those were the circumstances created by 
the folks holding the colony whose Congress I am a member of--
is to get us to be in support of something rather than united 
against a colony.
    Had we united early on against the colony, this would have 
been resolved a long time ago. But I believe this bill can 
resolve it, and if you vote the commonwealth in our first vote, 
just vote for no change and the commonwealth will continue. 
Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. Mr. Weller.

    STATEMENT OF THE HON. JERRY WELLER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Weller. Thank you, Mr. Chairman, and first let me begin 
by just saying thank you for the courtesy and the opportunity 
that you and the Ranking Member have granted a number of us to 
attend and participate in today's hearing. It is an honor to 
sit at your dais, Mr. Chairman, and I appreciate the 
opportunity to be with you.
    I also want to commend my friend and colleague, Luis 
Fortuno, for your leadership on behalf of Puerto Rico. I see a 
number of friends in the audience, Governor Rossello, Governor 
Romero, Mayor Santini, and others who are in the audience 
today, folks that I have gotten to know over the years and 
consider friends.
    Like my friend, Mr. Serrano, I believe after 108 years of 
second-class citizenship, United States citizens who reside on 
the island of Puerto Rico deserve the opportunity to choose 
their destiny, and I also believe after fighting in our wars, 
fighting our freedoms, in fact it is my understanding that 
today that if you consider all the states in the union, that 
per capita there are more Puerto Ricans fighting in Iraq and 
Afghanistan than 45 states. Puerto Rico ranks in the top four 
or five in the representation of those who are fighting in the 
war against terrorism.
    I believe that the United States citizens residing in 
Puerto Rico deserve the right to vote for their commander-in-
chief. I believe they deserve the right to full citizenship. Of 
course that is a choice they should make, and that is why I am 
a cosponsor of the Resident Commissioner, Luis Fortuno's, 
legislation.
    I for one am disappointed that the Governor chose not to be 
here today. This is an extremely important hearing regarding 
the future of Puerto Rico, and I am disappointed that the 
Governor chose not to be here, and frankly I had some questions 
for him that I wanted to ask.
    Mr. Marshall, maybe I should direct this question to you. 
The Governor has proposed what he calls a development of a new 
commonwealth under which Puerto Rico would be a nation in a 
permanently binding relationship with the United States, under 
which the commonwealth would determine the application of 
Federal laws and Federal court jurisdiction and enter into 
foreign trade, tax and other agreements, and the United States 
would continue to grant U.S. citizenship.
    All current aid to Puerto Rico would continue, and totally 
free entry to products shipped from Puerto Rico would continue, 
and grant an additional new annual subsidy to this new 
government that the Governor proposes be created.
    I am troubled by this proposal. Essentially under this 
proposal, the Governor would be called Mr. President. The 
Governor would have the powers to appoint Ambassadors and 
establish diplomatic relationships with other nations.
    The Dominican Republic Central American Free Trade 
Agreement, of such benefit to Puerto Rico and other parts of 
the United States, could be renegotiated from the standpoint of 
Puerto Rico, and again, while having such great autonomy, 
Puerto Rico would continue to receive generous subsidies from 
taxpayers living elsewhere in the United States. I am troubled 
by this proposal, and I am wondering, Mr. Marshall, can this 
proposal that has been advanced by the Governor, do you 
consider that a possible status option?
    Mr. Marshall. Congressman, in your description, the key 
phrase I think was ``a permanent binding relationship with the 
United States.'' To the extent the proposal includes that, the 
view of the Task Force is that the Constitution does not allow 
such a relationship apart from statehood.
    Mr. Weller. Are there any other U.S. territories, any other 
parts of the United States that currently have a similar 
arrangement as proposed by the Governor? The State of Illinois, 
for example, my home state, could declare itself a nation 
within a binding relationship of the United States and have 
diplomatic relations with others?
    Mr. Marshall. I am not aware of any other relationships 
like the one you described.
    Mr. Weller. Let me clarify. I know this question has come 
up, and I just want to ask that you clarify this for us. 
Appendix E on the Task Force report regarding whether or not 
citizenship can be taken away, can you clarify that again for 
those of us here on whether or not under your Task Force report 
under Appendix E U.S. citizenship can be taken away from those 
residing on the island of Puerto Rico?
    Mr. Marshall. The report itself simply identifies the issue 
on citizenship and makes some very narrow statements about what 
would need to be addressed and what could be done. The document 
at Appendix E, at pages 11 to 12--I think that is correct, I 
may have the wrong pages--identifies a potential Constitutional 
question that would need to be resolved in the details of 
working out citizenship.
    It also notes that the Justice Department in 1991 had a 
somewhat different view from what the Justice Department had in 
2000. It was beyond the scope of the report to resolve that 
legal question.
    Mr. Weller. There are some who have suggested that this 
Task Force report is biased in favor of statehood. Do you 
agree?
    Mr. Marshall. No, I do not.
    Mr. Weller. Could you explain why?
    Mr. Marshall. First, our mandate from the President was 
twofold, to identify the Constitutionally permissible options 
and second, come up with a process to realize an option without 
prejudice toward the options. We have faithfully attempted to 
carry that out. I think we have succeeded.
    As I also mentioned, there is no reason to think that a 
majority vote in favor of the current status is an 
impossibility or even particularly unlikely. I cannot claim to 
predict what will happen, but I do not think it is fair to 
claim that the process we have set up forejudges the result.
    Mr. Weller. Thank you. Mr. Chairman, you have been very 
generous. Thank you for the courtesy and the opportunity to 
participate in today's hearing. Thank you.
    Ms. McMorris. [Presiding.] Very good. Mr. Inslee.
    Mr. Inslee. Thank you. I appreciate it. I just want to 
express a thought of appreciation for the Puerto Ricans serving 
in our military forces. I am told somewhere between 15,000 to 
20,000 Puerto Ricans are serving the United States of America I 
believe in Iraq, and I just want to express an appreciation for 
their contribution, and join a lot of my colleagues who have 
said that our obligation to enhance the Democratic principles 
of people in Puerto Rico is very deep obligation given at least 
for a lot of reasons, including those people's service.
    Mr. Marshall, I wonder could you give me sort of a lay 
description of the relationship as far as Congress would 
concern and the executive branch of people in Puerto Rico and 
people living in Washington, D.C.? Could you just sort of 
describe their relative congressional situation, Presidential 
situation?
    Mr. Marshall. With regard to the political powers of Puerto 
Ricans?
    Mr. Inslee. Yes. Relative to those people who reside in the 
District of Columbia.
    Mr. Marshall. The persons in the District of Columbia have 
the right to vote for electors for President under a 
Constitutional amendment, and they also elect a delegate to the 
House. Residents of Puerto Rico elected Congressman Fortuno. 
They do not have a right to vote for electors for President, 
and I believe that neither in the District of Columbia nor in 
Puerto Rico do the residents get to vote for Senators.
    Mr. Inslee. Actually I guess as far as congressionally for 
selection of a Member of the U.S. Congress and selection of the 
President of the United States, Puerto Ricans are actually sort 
of in the same boat with people who reside in the District of 
Columbia, is that pretty much the situation?
    Mr. Marshall. I believe they are. I will not claim to know 
the specifics, but I believe in general they are in the same 
boat, as you say, with regard to the House of Representatives. 
Residents of the District of Columbia actually have greater 
rights with regard to election of the President. As I said, 
even though the District of Columbia is not a state, that right 
was granted through a Constitutional amendment.
    Mr. Inslee. I guess I point that out a little bit saying 
that we need to enhance I believe some Democratic principles in 
Puerto Rico, but there is another place which is the District 
of Columbia as well. I just kind of want to make that point. 
What would you say were the most contentious issues during your 
Task Force? What were the most contentious issues that you felt 
were most difficult to resolve here?
    Mr. Marshall. As I mentioned in my statement, Congressman, 
the most difficult legal question was, of course, whether the 
Constitution presently permits what we called the new 
commonwealth option, and that was the question on which I 
received the most input from advocates of the various positions 
on Puerto Rico, both in writing and in meetings.
    Mr. Inslee. Very well. Thank you very much.
    Ms. McMorris. Thank you very much. We appreciate you being 
here today.
    Mr. Marshall. Thank you.
    Ms. McMorris. At this time, we are going to go to panel II, 
which consists of a group of individuals elected to or chosen 
to represent the three primary political parties in Puerto 
Rico. Their views of the Task Force report should be helpful 
for the Members. Now that you are seated, I need to ask you to 
stand so we can administer the oath.
    [Witnesses sworn.]
    Ms. McMorris. The Chairman now recognizes Mr. Carlos 
Dalmau, the Executive Director of the Popular Democratic Party 
Status Committee. He will be speaking on behalf of the 
president of the party who is also the current Governor of 
Puerto Rico. Many Members here today served with Mr. Vila when 
he was here in Congress, but unfortunately the Governor could 
not attend our hearing. Mr. Dalmau will remember that under the 
Committee Rules he must limit his oral statement to five 
minutes, but that his entire statement will appear in the 
record. Mr. Dalmau.

        STATEMENT OF CARLOS DALMAU, EXECUTIVE DIRECTOR 
        OF THE POPULAR DEMOCRATIC PARTY STATUS COMMITTEE

    Mr. Dalmau. Thank you, Madame Chairman and the Committee. 
My name is Carlos Dalmau. I am the executive director of the 
Popular Democratic Party Committee on Status. As you know, the 
Governor was not able to attend this hearing because he is 
leading the effort to deal with a fiscal crisis that threatens 
to shut down the Puerto Rican government. This crisis is very 
similar to the 1995 Federal shutdown that you I am sure 
remember, but I am sure that the Governor would like to be here 
very much.
    Even during these difficult times, I welcome the 
opportunity to share my views with the Committee on this very 
important issue for the people of Puerto Rico. The topic today 
is the Task Force report. Let me focus first on the legal 
aspect of the report. The report dedicates only four-and-a-half 
pages to the legal analysis of the Puerto Rico status 
conundrum. I think that the drafters of the report were so 
eager to get to the conclusions of the report that they did not 
discuss or consider 200 years of case law and scholarship.
    I am submitting along with my testimony a thorough 
memorandum by Charles Cooper. The Cooper memo illustrates how 
many issues were ignored by the report, how many issues were 
not confronted by the report, and Mr. Marshall's testimony 
today did not add anything to the substance of the report, but 
beyond the lack of analysis of this 14-page report, there are 
four conclusions that are particularly disturbing for the 
people of Puerto Rico.
    Let me share them briefly with you. First, that Congress 
can directly legislate and change the island's governmental 
structure today. They can basically abolish the legislature and 
fire the Governor that was elected by the people. That is one 
of the conclusions of this report.
    Second, that the Federal government may cede Puerto Rico to 
another nation, and maybe you can trade us to China or 
Pakistan. This is the kind of reckless conclusion that 
basically calls into question the seriousness of this entire 
exercise.
    The third point is that the U.S. citizens born in Puerto 
Rico, it does not matter if they move into the mainland, can be 
deprived of their American citizenship. So, the fourth point 
being that the Constitution prohibits the U.S. Government from 
entering into a relationship with the people of Puerto Rico 
that is based on mutual consent, and as you will see from the 
record, the Cooper memorandum explains in great detail how 
wrong legally and policy wise this position is.
    This report does not provide a true self-determination 
process. Four months have passed since this report was issued. 
The President has not said a word, and the silence of the 
President speaks volumes. So, you may ask what is the next 
step? There are two bills in Congress today, one that embraces 
the report, and we can call that the statehood bill. We have 
another bill, cosponsored by Congresswoman Velazquez and 
Congressman Duncan, that provides for a true self-determination 
process through a Puerto Rican Constitutional convention.
    The problem with the statehood bill is that it lays out a 
process that would unfairly stack the deck in favor of 
statehood. It basically is an attempt to undermine the 
commonwealth, proposing a two-stage process. First, you vote 
against the commonwealth as defined by the report thus 
eliminating the commonwealth option by uniting the forces of 
independence and statehood.
    It is very simple, but fundamentally antidemocratic. Puerto 
Ricans deserve better. It is time for a better and new 
approach. The Duncan-Velazquez bill is the right approach. 
Madame Chairman and members of the Committee, the people of 
Puerto Rico have been struggling on this issue for a long time. 
All the people that are witnessed from the island have been 
here many, many times. I am a member of a new generation of 
people in Puerto Rico that want to try a new approach, and I 
can see that democracy triumphs in Puerto Rico if we let the 
people of Puerto Rico decide. Thank you very much.
    [The prepared statement of Mr. Dalmau follows:]

          Statement of Carlos G. Dalmau, Executive Director, 
              Popular Democratic Party Committee on Status

    Mr. Chairman and Members of the Committee. My name is Carlos G. 
Dalmau. I am Executive Director of the Popular Democratic Party 
Committee on Status. As you know, Governor Acevedo-Vila could not 
attend this hearing today, because he is leading the effort to solve an 
imminent fiscal crisis that might result in a government shutdown.
    The situation is similar to the 1995 Federal Government shutdown 
which I am sure you remember well. But for Puerto Rico this is a first 
and the impact, I dare say, is proportionately more devastating for our 
economy and for the lives of thousands of public workers.
    Even during these difficult times, I welcome the opportunity to 
present my views on behalf of the Popular Democratic Party. I worked in 
Congress for 3 years and I am truly glad to be back. I appreciate the 
interest that this Committee has shown in dealing with such an 
important issue for all Puerto Ricans.
    I sincerely hope that this hearing is only the beginning of a broad 
and inclusive process, not limited to the political parties. The status 
of Puerto Rico is such a fundamental issue for us that I urge you to be 
as inclusive as possible. And more importantly, I hope that these 
efforts result in a true Self-Determination process. I am sure that the 
Governor will be very active during this process.
    The topic of this hearing is the Report issued by the President's 
Task Force on December 22, 2005. First, let me focus on some of the 
legal conclusions of the report that are most questionable.
    Volumes have been written on the legal and constitutional aspects 
of the status of Puerto Rico. The scholarly debate is rich, complex and 
extensive. However, the Report under the title of Legal Analysis, 
dedicates only 4 and a half pages to analyze the whole legal conundrum 
of Puerto Rico's status. If this was a college paper, it would get a 
grade of D--and that from a lenient professor.
    It seems that the drafters of the Report were so eager to get to 
the conclusions that they forgot to support them and to discuss the 
applicable law altogether.
    I am submitting along with my testimony a thorough memorandum by 
Charles Cooper, a former head of the Office of Legal Counsel at the 
Department of Justice, and also a bibliography of related scholarship 
so they can be made part of the record. The Cooper memorandum had been 
submitted to the members of the Task Force several months before the 
report was issued. In light of the weight of authorities cited in this 
memo, it is perplexing that the Task Force Report does not even attempt 
to mount a legal defense of its conclusions. Some of these conclusions 
pretend to be supported by a 14 page Department of Justice memorandum 
on Guam, which as you will see is completely discredited by the 
thorough legal analysis in the Cooper memorandum.
    Beyond the lack of depth and real analysis, there are 4 conclusions 
that are particularly disturbing.
    First, that Congress can directly legislate and change the island's 
governmental structure unilaterally. The logical consequence of this 
report is that this Congress can abolish the Puerto Rico legislature, 
fire the Governor and appoint an Emperor. That is the only logical 
consequence of this formalistic--all or nothing--view of the 
territorial clause of the Constitution that the report puts forth.
    Second, the Federal Government may relinquish U.S. sovereignty by 
ceding Puerto Rico to another nation. Maybe you can trade us to the 
Chinese for some currency value concessions. It is embarrassing that in 
this day and age, Federal officials will put such a conclusion on 
paper. It really calls into question the seriousness of this entire 
exercise.
    Third, that U.S. citizens born in Puerto Rico may be deprived of 
their citizenship at any time because of the statutory nature of it. I 
would like to see how the U.S. Courts will rule on an attempt to 
deprive Puerto Ricans in Florida and New York of their U.S. 
citizenship.
    The analysis or lack thereof of the issue of citizenship is 
painful. The drafters of the Report adopt without discussion the legal 
position advocated by some that Congress can revoke the U.S. 
Citizenship of the people of Puerto Rico because we are allegedly 
merely statutory citizens. They do this ignoring case law and legal 
scholarship that sustain the contrary position.
    This report, at a time in which we are discussing immigration in 
America and the rights of foreign workers in this country is 
outrageous. This report issued in times of war when our brothers and 
sisters are sent into harms way in Iraq is a shame.
    Fourth, that the Constitution somehow prohibits the U.S. Government 
from entering into a relationship with Puerto Rico based on mutual 
consent. The Cooper memorandum explains in great detail just how 
ludicrous and legally wrong is the mantra repeated in the Report that 
the Congress may not bind itself to a relationship based on mutual 
consent. This conclusion ignores over 200 years of precedent. It is our 
position that the United States Constitution permits the United States 
and the people of a territory to enter into a bilateral and binding 
political relationship. The authors of the Report attempt to 
unjustifiably limit the options available to the people of Puerto Rico 
in order to create an artificial majority for statehood.
    All of these conclusions, if adopted by the United States, would 
have tremendous political and legal repercussions.
    The Report also casts grave doubt as to the value of the 
commitments made by the United States to the world. As former U.N. 
Ambassador Jeane Kirkpatrick stated in a recent New York Times OpEd 
``quite unbelievably, the Task Force raised questions about Puerto 
Rico's status that reminded us of what we heard from the Cuban 
delegation and its communist allies'' 25 years ago.
    This Report does not provide the basis for any legitimate process 
of self-determination. Four months after the publication of the Report, 
President Bush has not said a word about it. The President is silent 
and with good reasons.
    I respect the fact that many Puerto Ricans have legitimate reasons 
to favor full independence or statehood. I am willing to debate in any 
public forum why I think the Autonomous alternative of the Commonwealth 
is the best choice today for Puerto Rico. I am willing to let the 
people decide their future status through a truly democratic process. 
But no Puerto Rican should be forced to accept the premises and 
conclusions of this report no matter what political advantage they may 
think they can get out of it. No American citizen should accept the 
implications of this report. Pro-statehood citizens should not favor 
statehood because they are threatened or scared by a purposefully 
biased Report. Puerto Ricans should not be scared into voting for 
statehood because otherwise they may be ceded to Pakistan.
    What is the next step? There are two status bills in Congress 
today, pending your consideration. One of them embraces the Task Force 
Report and its recommendations. The other one, the ``Puerto Rico Self-
Determination Bill'' co-sponsored by Congressman Duncan and 
Congresswoman Velazquez, provides for a true self-determination process 
through a Puerto Rican Constitutional Convention.
    The problem with the report and the Fortuno bill is that they lay 
out a twisted process for a referendum that would unfairly stack the 
deck in favor of statehood.
    What this report does is an outrageous mathematical exercise. In 
order to ignore the Commonwealth option, the proposed two-stage process 
adds all the possible votes against Commonwealth, to knock that option 
out in the first round.
    In every plebiscite held in Puerto Rico, Commonwealth has won. 
Statehood has never won.
    The report tries to change that by creating an artificial majority. 
The math is simple. If you add the second place--statehood--to the 
third place--independence--then you can fabricate an artificial 
majority against the real majority, the Commonwealth.
    It is very simple, although perverse and antidemocratic. Puerto 
Ricans deserve better. It is time for a new and better approach. An 
approach that is fair to everyone. Supporters of autonomy, statehood or 
independence, all Puerto Ricans deserve a fair, inclusive and 
democratic process with all of the three options represented.
    With this in mind, the Governor and the Popular Democratic Party 
support the bipartisan bill sponsored by Congressman Duncan and 
Congresswoman Velazquez, H.R. 4963 ``The Puerto Rico Self-Determination 
Act of 2006''--as well as its Senate companion, S. 2304, introduced by 
Senators Kennedy, Lott, Burr and Menendez.
    The Duncan-Velazquez bill is the right approach. The bill offers 
Congressional recognition of the right of Puerto Ricans to hold a 
constitutional convention as the democratic mechanism to solve this 
issue. And it commits the Congress to respond to the proposals of this 
convention. This new approach learns from the mistakes of the past and 
follows the example set by America's founding fathers allowing us to 
fully exercise our democratic rights in an open and inclusive process.
    The time to resolve Puerto Rico's status is now. I urge you affirm 
Puerto Rico's dignity and political rights. I invite you to reject a 
legislation that derives from the Task Force Report. I invite you to 
endorse the legislation that would establish the constitutional 
convention as the new and most democratic approach to solve this issue.
    Everyone else testifying before this Committee today has been here, 
on this same issue, many times before. They are part of a generation 
that has spent its entire life on this issue. I acknowledge their 
historic contributions to this process, but as a member of a new 
generation I do not want to be here in 30 years dealing with the same 
issue. We have taken a hard look at the lessons from those prior 
experiences. One reason why the constitutional convention holds a 
particular appeal to people of my generation is that it is the only 
approach where Puerto Ricans are responsible for our own future. Work 
with us, not against us.
Conclusion
    Congress has yet another chance to make it right. Puerto Ricans 
deserve more than this Report and the bill introduced by Commissioner 
Fortuno. Mr. Chairman and distinguished Members I urge you to go beyond 
this report. I urge you to support the Duncan-Velazquez Self-
Determination bill. Let us really provide a process of self-
determination in Puerto Rico that is fair and inclusive.
    The issue is status and it needs to be addressed. In this process 
Puerto Ricans are entitled to be told the whole truth. But as you know 
the truth is a fragile thing in politics. And in this Task Force Report 
the truth has been twisted to make a trap for fools. Puerto Ricans will 
not be deceived again. We deserve much more.
    The Popular Democratic Party is ready. We are ready to write a new 
chapter based on dignity, democracy and mutual respect. Puerto Ricans 
are ready, we are not afraid. It is about time that we conclude what 
was started in 1952. Congress has a choice to make. Let us move forward 
towards a new beginning in US-Puerto Rico relations.
                                 ______
                                 
    [The response to questions submitted for the record by Mr. 
Dalmau follows:]

    Response to questions submitted for the record by Carlos Dalmau

Questions by Congressman Rahall
Question 1
    This question takes the words of Luis Munoz Marin completely out of 
context. Munoz Marin's comment was not intended to be a legal 
conclusion; it was simply a remark to underscore the mutual nature of 
the relationship. Munoz Marin was referring to an extreme set of 
circumstances in which Puerto Rico acted against the compact or against 
the United States. For instance, if the majority of Puerto Ricans voted 
for independence and declared war on the United States, that would 
clearly be a case in which Congress must not be bound by the compact 
and could legislate to change the relationship.
Question 2
    Because Congress has never authorized a federally mandated 
plebiscite for Puerto Rico, the options that have been presented to the 
voters can always be argued that contain some elements that the 
Congress might not support. In the case of statehood, in all of their 
campaigns in 1967, 1993 and 1998 they prominently featured the 
following themes: (i) as a State, Puerto Rico will be able to continue 
participating in international Olympic competitions, competing even 
against Team USA; (ii) as a State, everything will continue in Spanish; 
and (iii) as a State Puerto Ricans will end up not paying any taxes, 
and will instead receive more welfare funds. It is highly unlikely that 
a state of Puerto Rico would be permitted to enter the Union under 
those premises, but that was how it was presented. The fact that the 
Commonwealth proposal included changes to that option, does not 
diminish from its victories.
    What is most salient of the 1998 vote is that when 50.2% of the 
population voted for None of the Above they were voting to reject all 
other options for changes in political status, thus that majority 
preferred to remain as a Commonwealth as it exists today. The option 
that you mention that received almost no votes was a farce drafted by 
statehood supporters which sought to portray Commonwealth in the most 
negative fashion possible.
Question 3
    Yes, I completely disagree with the statement by Congressmen Young 
and Miller regarding Congressional retention of full plenary powers.
    With regards to the statement by Resident Commissioner Fernos, I 
believe that the simple language of Public Law 600 makes it clear that 
as a compact, its provisions cannot be unilaterally repealed. But as 
explained in detail in the Cooper Memorandum, the full legislative 
history of Public Law 600, not one quote taken out of context, gives 
greater support to the mutual consent elements of the compact. These 
elements were subsequently repeated to the world in the Cessation 
Memorandum to the United States, both in the official written document 
and in the statements by the U.S. delegation.
    In 1971 the future Chief Justice of the Supreme Court William 
Rehnquist put it clearly in the OLC Memo mentioned before:
        ``One Congress could bind subsequent ones where is creates 
        interests in the nature of vested rights, e.g., where it makes 
        a grant or brings about a change in status. Thus we concluded 
        in the early 1960's that a statute agreeing that the United 
        States would not unilaterally change the status of Puerto Rico 
        would bind subsequent Congresses.''
    Our position follows this longstanding principle. The powers of 
self-government vested to the people of Puerto Rico under the compact 
under which commonwealth was established cannot be revoked by Congress. 
These vested powers are irrevocable.
Question 4
    I firmly believe that the relationship established in 1952 can be 
improved and must be further clarified in good faith by the parties. 
Imperfect as it may be, I believe it was based on mutual consent and 
may not be unilaterally abrogated. I recognize that there is a debate 
about this issue, though not necessarily a good faith debate, so I 
prefer that we move away from a historical discussion of what happened 
in 1952 and establish that for the future we can have a bilateral 
relationship.
    The U.S. Constitution gives Congress ample authority and latitude 
to establish a relationship of mutual consent with Puerto Rico. 
Unfortunately the Task Force Report dismisses this position, but it 
does so without any legal analysis. I have supplied the Committee with 
the Memorandum by Charles Cooper that makes abundantly clear 
Congressional power to enter into such relationships.
    The death penalty issue really has nothing to do with this 
controversy. Many States prohibit the death penalty, but the fact that 
Congress has authorized the death penalty for certain Federal crimes, 
does not diminish the sovereignty of the States, nor does it diminish 
that of the Commonwealth.
    The bilateral nature of the relationship does not require for 
Puerto Rico to become an independent sovereign nation. The term 
sovereign is not an all or nothing proposition. As explained in 
response to one of the questions by Congressman Young, there is a 
growing consensus that in the 21st Century sovereignty has been 
transformed from the monolithic concept prevailing in the 19th Century 
to a flexible concept as we see it applied today all over the world.
    The founding fathers, ahead of their time in so many areas, 
understood the concept of sovereignty from a pragmatic perspective. The 
Federal Union of States itself recognizes a dual sovereignty that 
cannot be unilaterally broken. There is absolutely nothing in the U.S. 
Constitution that prohibits an analogous dual sovereignty relationship 
with a non-State jurisdiction. This is conclusively shown in the Cooper 
memorandum in contrast to the Task Force report and its attachments 
which a void of any serious legal analysis.
Question 5
    Yes, some kind of exemption from the Jones Act requirements for the 
use of U.S. crewed, built and owned vessels would be one of the issues 
that would be part of the discussion of laws that should not apply to 
Puerto Rico, but that would be part of the overall agreement upfront, 
so I cannot agree with the characterization that it is a law that the 
Commonwealth would unilaterally ``nullify.''
Question 6
    As I indicated in an answer to a question by Congressman Young, if 
Congress were to enact H.R. 4963 I am confident that the Puerto Rico 
Legislative Assembly would support the Constitutional Convention. Its 
initial opposition to the Convention was based on the fact that during 
the campaign the NPP promised a plebiscite and such proposal is part of 
their party platform. However, if Congress supports the Convention and 
establishes a fair process, the NPP will be free to embrace the 
Congressional position without the political cost of not keeping their 
campaign pledge.
Questions by Congressman Young
Questions 7 through 15
    Questions 7 through 15 which appear to have been submitted by 
Congressman Don Young are in large part premised on an incorrect 
foundation. There is no such thing as the ``Governor's New Commonwealth 
proposal.'' What these questions seem to reference is a resolution 
approved by the Popular Democratic Party in 1998 for the purpose 
presenting to the Puerto Rican voters a proposal to develop 
Commonwealth that could be included in the 1998 plebiscite that was 
held in Puerto Rico. The Puerto Rico Legislative Assembly did not allow 
for the inclusion of any such proposal.
    What the Governor is proposing today, and has been proposing since 
his first day in office, is that the first step should be for Puerto 
Ricans to elect a Constitutional Convention and such convention would 
have the option of drafting a proposal to the Congress for a new or 
amended compact. Whether the 1998 resolution will be the basis of such 
a proposal is unknown at this point and it will ultimately depend on 
the position of the delegates elected by the people to the Convention. 
Thus, there is no new Commonwealth proposal on the table at this point. 
Since that resolution was adopted in 1998, the Congress has not 
immersed itself in a process that would call for the discussion and 
viability of such a proposal. So while it is difficult to answer 
questions that are fundamentally based on an erroneous premise, I will 
answer them as best I can.
Question 7
    Since the referenced New Commonwealth proposal has never been 
submitted by the Popular Democratic Party for Congressional 
consideration, there would be no reason for Congressional or federal 
officials to opine as to its viability. The problem with the Task Force 
Report is that we do not even get the chance to discuss the specifics 
of an enhanced commonwealth because it concludes that the Commonwealth 
cannot exist under the Constitution.
Question 8
    The amount of the referenced block grant is one of the many issues 
that would be discussed and negotiated as part of a good faith process 
if there is a good faith process. To decrease the levels of economic 
dependency is one of the goals that the PDP has established for the 
future. Whatever the final cost, it would certainly be significantly 
less than the added cost to the Federal treasury of making Puerto Rico 
a state.
    No. I do not believe that the socio-economic incentives referred to 
tax credits.
    No. If read carefully, the proposal is designed to make Puerto Rico 
less financially dependent from the Federal treasury, which contrasts 
with the case of statehood, where Puerto Rico would become much more 
financially dependent.
Question 9
    The establishment of a mechanism so that Federal laws do not 
automatically apply to Puerto Rico was something that was given serious 
consideration by Congress when it discussed status legislation from 
1989 and 1991. This can be accomplished in various ways, so I cannot 
agree with one Member's opinion that there is ``no chance'' that 
something of this nature can be agreed to. As the legislative record 
reflects it is a matter of statesmanship and political will.
Question 10
    Even assuming that this question is based on the 1998 resolution, 
the premise of the question is incorrect since the resolution does not 
speak about the Commonwealth on its own limiting the jurisdiction of 
the federal courts. This leads me to believe that individuals who do 
not favor Commonwealth have been giving Members of Congress 
purposefully incorrect information.
Question 11
    This question references a ``State Department witness'' who made 
certain representations as to the views of the State Department. I am 
unaware of any State Department witnesses making any statements 
regarding Puerto Rico during 2006. I am aware that the House Resources 
Committee held a hearing on October 4, 2000 on H.R. 4751, a bill 
introduced by Congressman Doolittle. That hearing and bill raises a 
number of questions. Without answers to those questions, it is very 
difficult to answer Question 18. Why did Congressman Doolittle 
introduce this legislation? Who asked him to do so? The Popular 
Democratic Party did not. H.R. 4751 took the 1998 PDP resolution and 
presented it in a distorted fashion. Why did the Committee hold a 
hearing on October 4, 2000, only one month before the elections in 
Puerto Rico?
    With regards to testimony by a State Department witness at such 
2000 hearing, his testimony is not even available on the House 
Resources Committee web site archives, so it is difficult to respond to 
it directly, so I will take the characterization of such testimony in 
this question as valid for the purpose of providing an answer.
    Some views expressed in the past regarding the participation by 
Puerto Rico in international organizations and a greater role 
internationally by Puerto Rico suffer from what I believe to be a 
myopic view of the world and U.S. foreign policy today. I believe the 
U.S. has much to gain by having Puerto Rico exercise a greater role 
internationally. While it might be true that in the past there has not 
been the ideal coordination between the Commonwealth Government and the 
State Department, I believe that if we establish better channels of 
communication and strengthen our mutual trust, the U.S. Government will 
feel comfortable that Puerto Rico can be an asset to the U.S. in its 
international relations.
    In fact, for many years it was a very active asset, reaching its 
zenith during the formation of the Alliance for Progress, whose first 
director was Teodoro Moscoso, a Puerto Rican who left the Commonwealth 
Government to joint the U.S. State Department. So I do think that a 
greater international role for Puerto Rico is viable and desirable for 
both the United States and Puerto Rico. Let me just mention two works 
on the subject: W. Michael Reisman, Puerto Rico and the International 
Process: New Roles in Association (1975) and the classic book by Carl 
J. Friedrick, Puerto Rico, Middle Road to Freedom (1959).
    Since the Committee made clear that the Governor was invited to 
testify in his capacity as President of the Popular Democratic Party 
and I testified on his behalf in my capacity as Chairman of the PDP's 
Status Commission, I do not think it would be appropriate for me to 
respond to questions regarding comments by Commonwealth Government 
officials.
    With regards to trade agreements, it should be noted that while the 
U.S. Virgin Islands does not negotiate its own trade agreements, it is 
outside of the U.S. Customs Union so there is indeed room for 
flexibility in the area of international trade.
    The last question under Question 18 is premised on an outdated 
vision of sovereignty as a zero sum game, where one entity's gain must 
be another entity's loss. The prevailing view in the 21st Century is 
that sovereignty is a flexible concept. Every nation agrees to cede 
some element of what could have been an absolute sovereignty, simply as 
a matter of coexisting on the same planet. The Federal Union of States 
itself recognizes a dual sovereignty that cannot be unilaterally 
broken. There is absolutely nothing in the U.S. Constitution that 
prohibits an analogous dual sovereignty relationship with a non-State 
jurisdiction.
Question 12
    This question shows one of the fallacies that is being repeated by 
opponents of the Constitutional Convention. This notion that the two 
step vote outlined in the Task Force Report is ``more democratic'' than 
the Constitutional Convention is simply not true. If you arbitrarily 
limit the options available to the people in a direct vote as 
recommended in the Task Force Report, the process becomes totally anti-
democratic. The Constitutional Convention is well recognized around the 
world as a valid democratic mechanism, but it has its deepest roots in 
U.S. history since it was the mechanism used for the adoption of the 
U.S. Constitution. The Constitutional Convention will have before it a 
full range of options and the voters will have the last word on 
approval. So I do not agree that a status choice among artificially 
limited options is ``more democratic.''
    Clearly we envision that the choice made by the Convention has to 
be mutually acceptable and to that end it would be useful to establish 
a mechanism where the Convention can consult with the Executive Branch, 
so that at the very least the proposal can be presented to the Congress 
with the support of both the Convention and the Federal Executive. In 
such consultation process, a certain level of negotiation is 
inevitable, but the negotiation should take place at such time and not 
beforehand. We believe that if legislation like H.R. 4963 is adopted, 
the President has the power to appoint a consultation committee, or 
some other entity that can interact with the Convention.
    If Congress were to enact H.R. 4963, I am confident that the Puerto 
Rico Legislative Assembly would support the Constitutional Convention. 
The NPP legislators that previously opposed the Convention would be 
hard pressed to oppose it if the Congress has supported it.
    With regards to what took place between 2001 and 2004, I believe 
that Chairman Young has been given false or at least incomplete 
information. The cornerstone of the status proposal made by the PDP to 
the Puerto Rican voters in the 2000 election was the creation of a 
Committee of Unity and Consensus where all three political parties in 
Puerto Rico would first have to agree on the process that needed to be 
followed to resolve the status issue. Governor Sila M. Calderon 
attempted to organize such a Committee but the New Progressive Party 
boycotted the same and refused to participate. Since that was the 
commitment that the PDP had made to the voters in the 2000 elections, 
it would have been contrary to such commitment for Governor Acevedo to 
have at that time proposed Federal legislation for the development of 
the Commonwealth or for the election of a Constitutional Convention. In 
the 2004 elections, Governor Acevedo ran on a platform in support of 
the Constitutional Convention, and he has held true to that commitment 
with his support for H.R. 4963.
Question 13
    The concept of association entails a wide spectrum of alternatives. 
The problem with the Task Force report is that in order to give 
statehood an edge over the commonwealth it has arbitrarily limited the 
concept of association. The Report ignores the applicable case law and 
the scholarly debate on the subject. Our view is that the Report's 
formalistic position is the result of political calculations and not of 
sound legal analysis.
    The Report does not provide the basis for any legitimate process of 
self-determination. The PDP opposes the process recommended by the Task 
Force because it tries to create an artificial majority for statehood. 
As I explained in my testimony, in order to defeat Commonwealth, the 
proposed two-stage process adds all the possible votes against 
Commonwealth, to knock that option out in the first round. The process 
is obviously unfair and anti-democratic.
Question 14
    This question is based on a completely false reading of both the 
Memorandum by the Government of the United States to the United Nations 
and the weight and context of the explanations of this Memorandum given 
by the authorized representatives of the United States before the 
United Nations. The Memorandum stated that there had been a ``change in 
the constitutional position and status of Puerto Rico.'' The Task Force 
report now states that there was no change. The Memorandum highlights 
the differences between Puerto Rico and Hawaii, Alaska, Guam and the 
U.S. Virgin Islands in that Puerto Rico elected ``their government 
through universal, secret and equal suffrage, in free and periodic 
elections'' and which are assured freedom from undemocratic practices 
by the Constitution itself.'' If the theory of the Task Force Report 
were true, the U.S. Government could reverse the outcome of elections 
in Puerto Rico, thus the representations to the United Nations in the 
official Memorandum would be false.
    The dichotomy between the official Memorandum and the statements of 
``a couple of members of the U.N. delegation'' on which this question 
is premised and that was espoused by Mr. Marshall in his testimony is 
simply untrue. Accordingly, I request that a full copy of the 
Memorandum by the Government of the United States to the United Nations 
and the comments by its official representatives be included in the 
official record of these hearings because it is clear that there is an 
effort to mischaracterize these documents and statements. They clearly 
indicate a ``change in the constitutional position of Puerto Rico.''
    While I agree that the position taken by the Report is not new, it 
is however, relatively recent, since the Justice Department changed its 
position in 1991. While the Report might speak to the need for mutual 
action, it hangs the Sword of Damocles above such mutuality by 
threatening it with the potential for unilateral action, including in 
its most repugnant form unilateral cession to another country, a 
position which Mr. Marshall inexplicably tried to deny in his 
testimony. So there can be no mutual process if the threat of possible 
unilateral action is always present. Of course, since we are confident 
that the Courts will indeed uphold the bilateral nature of the 
relationship we view these threats as mere sable rattling. 
Unfortunately it is the kind of sable rattling that can have an impact 
on voters, which is one of the reasons we believe the Report is 
designed to create an artificial majority in favor of statehood.
Question 15
    I believe the best answer to your question was provided by the then 
future Chief Justice of the Supreme Court William Rehnquist in the 1971 
OLC Memo:
        ``One Congress could bind subsequent ones where is creates 
        interests in the nature of vested rights, e.g., where it makes 
        a grant or brings about a change in status. Thus we concluded 
        in the early 1960's that a statute agreeing that the United 
        States would not unilaterally change the status of Puerto Rico 
        would bind subsequent Congresses.''
    Our position follows this longstanding principle. The powers of 
self-government vested to the people of Puerto Rico under the compact 
under which commonwealth was established cannot be revoked by Congress. 
These vested powers are irrevocable.
                                 ______
                                 
    Ms. McMorris. Thank you. The Chair now recognizes Senator 
Pedro Rossello who also serves as the President of the New 
Progressive Party.

        STATEMENT OF SENATOR PEDRO ROSSELLO, PRESIDENT, 
     NEW PROGRESSIVE PARTY, SENATOR, SENATE OF PUERTO RICO

    Senator Rossello. Thank you, Madame Chairman. Good day to 
you and to each of the other members of the House Committee on 
Resources and in particular to Puerto Rico's sole Member of 
Congress, Luis Fortuno. For the record, my name is Pedro 
Rossello. I am President of the New Progressive Party of Puerto 
Rico. I have been a member of the Puerto Rico Senate for the 
past 14 months, and I was Governor of Puerto Rico from 1993 to 
2001.
    Speaking officially on behalf of the New Progressive Party 
as well as in my personal capacity, I emphatically support the 
recommendations contained in the December 22, 2005, report by 
the President's Task Force on Puerto Rico's Status. In 
accordance with the Chair's instructions, my brief spoken 
remarks will summarize the contents of written testimony that I 
have submitted to the Committee.
    The Task Force is predicated upon decades of experience 
compiled by experts representing all three branches of 
government and both the nation's principle political parties. 
The report is succinct, but it is likewise thorough and 
forthright and fair. The President's Task Force has accurately 
and articulately addressed a very old and very sensitive item 
of unfinished business on the agenda of American democracy.
    Today, as in the past, some of the most pressing issues 
that confront you, as America's leaders, are issues that relate 
to civil and human rights. You are currently grappling with the 
issue of tyranny and terror as we the people of the United 
States strive to expand the boundaries of freedom and democracy 
abroad.
    On the home front, you are currently endeavoring to solve, 
in a manner that is both compassionate and just, the problems 
spawned by the presence of more than 10 million undocumented 
immigrants. Madame Chairman, you and your committee colleagues 
together with our nation's other elected officials have before 
you what can only be described as a very full plate of urgent 
responsibilities.
    In these decidedly trying times it must be recognized as an 
act of statesmanship that both the Federal government's 
political branches are openly acknowledging the importance of 
the Puerto Rico conundrum, and important it is. Puerto Rico's 
destiny cannot be reduced to or dismissed as a problem 
involving some 4 million American citizens who chronically 
squabble among themselves on a Caribbean island located 1,000 
miles off the coast of Florida. No. This issue goes straight to 
the heart of what the United States of America is all about.
    Let us keep firmly in mind that the union of American 
states had its genesis in a revolutionary reaction to colonial 
injustices perpetrated by the British Empire. Our nation's 
founders were true political pioneers in boldly undertaking the 
novel experiment that was Republican government within a 
democratic framework.
    Each of you is well aware that with a single specific 
exception of the nation's capitol the Constitution countenances 
the existence of two types and only two types of political 
jurisdictions under U.S. sovereignty. One is states and the 
other is territories. From the very outset, predecessors of 
this committee were tasked with ensuring that American 
territories were managed in accordance to the dictates of the 
Constitution.
    For more than 100 years the nation's doctrine for 
overseeing territories was embodied in the Northwest Ordinance 
of 1787. Then abruptly there occurred a paradigm shift. The 
nation underwent a metamorphosis. What had always been a 
republic was suddenly transformed into an empire.
    As the 20th century dawned, the United States was on the 
verge of becoming a world power. There were those who openly 
espoused the notion that America should claim for itself the 
same kinds of colonial prerogatives that European empires had 
long been exercising with respect to their own overseas 
possessions. This development was steeped in irony. America had 
come full circle.
    Today your committee and this Congress stand at a 
crossroads. All across the globe perennially subjugated people 
are at long last breathing free or at least advancing hopefully 
in that direction. The United States is applauding and 
promoting this inspiring trend yet at the same time the very 
law of our own land sanctions geographical discrimination 
against certain communities of American citizens dwelling on 
American soil.
    Herein lies a truly national conundrum, the unfinished 
business of American democracy. The Puerto Rico issue obliges 
our nation's leaders to take a stand. The question that the 
Puerto Rico issue poses to our nation's leaders are these: 
shall America return triumphantly to its roots as a Republic or 
will it embarrassingly perpetuate the trappings of empire in 
which it has cloaked itself since 1898?
    Is America devoutly committed to civic equality or is it 
determined indefinitely to exercise colonial hegemony over 
nearly four million of its own citizens? That is why I welcomed 
the Chairman's invitation to testify here today, because the 
buck stops here, right here in the halls of Congress.
    The responsibility in this instance is inescapable. The 
Constitution so decrees in the second paragraph of Article 4, 
section 3 and no less unequivocal is a complimentary 
stipulation contained in the document that formally terminated 
the Spanish-American War. Article IX of the 1898 Treaty of 
Paris establishes that, and I quote, ``The civil rights and 
political status of the native inhabitants of the territories 
hereby ceded to the United States shall be determined by the 
Congress.'' In other words, what we have before us is in no way 
merely a local or regional issue.
    Ms. McMorris. We are over time so I would just ask you to 
summarize very quickly, and then perhaps you can get to the 
rest during the question and answer period.
    Senator Rossello. I will conclude then by summarizing that 
we have before us an unquestionable situation that demands 
attention at a national issue. In conclusion, therefore, I 
hereby reiterate my strong support for the findings and 
recommendations of the President's Task Force report on Puerto 
Rico.
    [The prepared statement of Senator Rossello follows:]

 Statement of The Honorable Pedro Rossello, President, New Progressive 
  Party of Puerto Rico, 1991-1999; 2003- and Governor of Puerto Rico, 
         1993-2001, Member of the Senate of Puerto Rico, 2005-

    Chairman Pombo, good day to you and to each of the other members of 
the House Committee on Resources.
    For the record, my name is Pedro Rossello. I am President of the 
New Progressive Party of Puerto Rico. I have been a member of the 
Puerto Rico Senate for the past 14 months, and I was Governor of Puerto 
Rico from 1993 until 2001.
    Speaking officially, on behalf of the New Progressive Party, as 
well as in my personal capacity, I emphatically support the 
recommendations contained in the document that is the topic of this 
hearing: namely, the Report that was released on December 22, 2005 by 
The President's Task Force on Puerto Rico's Status.
    The Task Force Report is predicated upon decades of experience:
    <bullet>  Republican experience and Democratic experience;
    <bullet>  Executive Branch experience, Congressional experience and 
Judicial Branch experience.
    The Report is succinct, but it is thorough and it is forthright and 
it is fair.
    The President's Task Force has accurately and articulately 
addressed a very old and very sensitive item of unfinished business on 
the agenda of American democracy.
    ``We the People of the United States' have overcome an 
extraordinary number of difficult obstacles in our never-ending quest 
to ``form a more perfect union.''
    Little by little, over the span of more than two centuries, we have 
succeeded in empowering nearly all of our citizens with that most 
fundamental of democratic rights, the right to vote.
    As we have done so, we have simultaneously sought to sow the seeds 
of democracy throughout much of the world.
    At Gettysburg in 1863, with respect to the preservation and 
perfection of the Union, Abraham Lincoln proclaimed:
    ``It is for us the living...to be dedicated here to the unfinished 
work which they who fought here have thus far so nobly advanced.''
    In 1918, during his own era's Great War, Woodrow Wilson uttered the 
following words to a joint session of Congress:
    ``The principles to be applied are these: ...peoples and provinces 
are not to be bartered about from sovereignty to sovereignty as if they 
were mere chattels and pawns in a game....''
    Lincoln's focal point was freedom on the home front; Wilson's was 
freedom abroad. But the principles being embraced were identical.
    Today, just as in the past, some of the most pressing issues that 
confront you--as America's leaders--are those that relate to civil and 
human rights.
    <bullet>  You are currently grappling with the issue of tyranny and 
terror--in Iraq, as in Afghanistan, and elsewhere. ``We the People of 
the United States'' are paying a heavy price, and bearing a painful 
burden, as we strive to expand the boundaries of individual freedom and 
democracy abroad.
    <bullet>  On the home front, you are currently weighing the fate of 
more than 10,000,000 human beings who have come to America illegally. 
``We the People of the United States'' are assiduously struggling to 
come to grips with that situation. As ``a nation of immigrants,'' we 
are collectively endeavoring to solve this difficult problem in a 
manner that is both compassionate and just.
    Those are weighty issues. These are tumultuous times.
    Mister Chairman, as Members of Congress, you and your Committee 
colleagues--together with our Nation's other elected leaders--have 
before you what can only be described as ``a very full plate'' of 
urgent responsibilities. I recognize this.
    In these decidedly trying times, I deem it to be an act of 
statesmanship that both of the Federal Government's political branches 
are openly acknowledging the importance of the Puerto Rico conundrum.
    And important it is. Puerto Rico's destiny cannot be reduced to--or 
dismissed as--a problem involving some 4,000,000 American citizens, 
chronically squabbling among themselves on a Caribbean island located 
1,000 miles off the coast of Florida. No, this issue--this portion of 
American democracy's unfinished business--goes straight to the heart of 
what the United States of America is all about.
    Let us keep firmly in mind that the union of American states had 
its genesis in a revolutionary reaction to colonial injustices 
perpetrated by the British Empire. Let us never forget that our 
Nation's founders were truly political pioneers in boldly undertaking 
the novel experiment that was republican government within a democratic 
framework.
    It was to this novel experiment that Lincoln alluded at Gettysburg 
when he steadfastly resolved ``that this nation, under God, shall have 
a new birth of freedom--and that government of the people, by the 
people, for the people, shall not perish from the earth.''
    Each of you is well aware that, with the single specific exception 
of the Nation's Capital, the Constitution countenances the existence of 
two types--and only two types--of political jurisdiction under U.S. 
sovereignty: one is states; the other is territories.
    From the very outset, predecessors of this committee were tasked 
with ensuring that American territories were managed in accordance with 
the dictates of the Constitution.
    For more than 100 years, the Nation's doctrine for overseeing 
territories was embodied in the Northwest Ordinance of 1787.
    Beginning with the Louisiana Purchase of 1803 and ending with the 
annexation of Hawaii in 1898, the United States consistently applied 
the progressive principles of the Northwest Ordinance to each of the 
inhabitants of the vast quantity of new terrain that the Nation 
acquired throughout the 19th century.
    Then, abruptly, there occurred a paradigm shift.
    The Nation underwent a metamorphosis.
    What had always been a republic was suddenly transformed into an 
empire.
    As the 20th century dawned, the United States was on the verge of 
becoming a world power. There were those who openly espoused the notion 
that America should claim for itself the same kinds of colonial 
prerogatives that European empires had long been exercising with 
respect to their own overseas possessions.
    This development was steeped in irony. America had come full 
circle.
    Propelled by an unquenchable thirst for justice, the peoples of 13 
colonies endured immense hardship and terrible sacrifice in order free 
themselves from the stifling bonds of imperialism. Together, they 
``brought forth on this continent a new nation.''
    Then, a dozen decades later, that very same ``new nation'' found 
itself assuming the mantle of empire.
    In order to rationalize this jarring transformation, the Nation 
discarded its traditional doctrine for the administration of 
territories. The humane principles which underscored that doctrine were 
turned upside down. Emerging in their place would be a wholly 
contradictory regime of attitudes and policies.
    As a consequence of the Spanish-American War, literally hundreds of 
far-flung islands fell under the domain of the Stars and Stripes.
    It was this freshly acquired territory that prompted the paradigm 
shift.
    From 1898 onward, with the acquiescence of a bitterly divided 
Supreme Court, the Executive and Legislative Branches of the Federal 
Government began to practice a kind of apartheid: for the inhabitants 
of these former Spanish colonies, inoperative would be the Northwest 
Ordinance philosophy to the effect that territorial status should 
logically be a prelude to U.S. statehood. Instead, it was decided, 
Congress would rule indefinitely over those possessions--and the 
extension to them of the Constitution's full panoply of individual 
rights would indefinitely be denied. That same approach has been 
applied to every territory acquired after 1898. It is a paradigm that 
U.S. Appeals Court Judge Juan Torruella has eloquently condemned as 
``the doctrine of separate and unequal.''
    So it is that the Spanish-American War converted the Northwest 
Ordinance into a ``dead letter.'' Thenceforward, its altruistic 
provisions--which had served the Nation so well for so long--became 
permanently null and void. The Founders' novel experiment was 
abandoned. The republic vanished. Established in its place was another 
in humankind's endless succession of colonial empires.
    Eventually, statehood would be granted to every single territory 
that was acquired while the Northwest Ordinance philosophy remained in 
effect. By contrast, statehood has never even been offered to any 
territory acquired after the termination of the Spanish-American War. 
This stark dichotomy is no coincidence.
    Today, your Committee and this Congress stand at a crossroads.
    All across the globe, perennially subjugated peoples are at long 
last breathing free or at least are advancing hopefully in that 
direction.
    The United States is applauding and promoting this inspiring trend.
    Yet, at the same time, the very law of our own land sanctions 
geographical discrimination against certain communities of American 
citizens dwelling on American soil.
    Herein lies a real conundrum--truly a national conundrum--in 
America's ongoing quest to form a more perfect union.
    Herein lies, beyond all doubt, the unfinished business of American 
democracy.
    The Puerto Rico issue obliges our Nation's leaders to take a stand.
    The questions that the Puerto Rico issue poses to our Nation's 
leaders are these:
    <bullet>  Shall America return triumphantly to its roots as a 
republic, or will it embarrassingly perpetuate the trappings of empire 
in which it has cloaked itself since 1898?
    <bullet>  Is America devoutly committed to civic equality, or is it 
determined indefinitely to exercise colonial hegemony over nearly 
4,000,000 of its own citizens?
    As the President's Task Force makes clear, it is ultimately to the 
Congress that these questions must be directed; in its entirety, the 
first paragraph of the ``Recommendations'' section of the Report reads 
as follows:
    ``The Task Force recognizes that the authority under the U.S. 
Constitution to establish a permanent non-territorial status for the 
Commonwealth of Puerto Rico rests with Congress.''
    That is why I welcomed the Chairman's invitation to testify today: 
because the ``buck'' stops right here--in the halls of Congress; the 
responsibility, in this instance, is inescapable.
    <bullet>  The Constitution so decrees--in the second paragraph of 
Article IV, Section 3--by stipulating that ``The Congress shall have 
power to dispose of and make all needful rules and regulations 
respecting the territory or other property belonging to the United 
States.''
    <bullet>  And no less unequivocal is a complementary stipulation 
contained in the document that formally terminated the Spanish-American 
War, and--in the process--bestowed sovereignty over Puerto Rico upon 
the United States. Article IX of the 1898 Treaty of Paris establishes 
that ``The civil rights and political status of the native inhabitants 
of the territories hereby ceded to the United States shall be 
determined by the Congress.''
    In summary, the Report of The President's Task Force on Puerto 
Rico's Status earnestly and effectively targets a dilemma that for far 
too long has been denied the ``front burner'' attention that it needs 
and deserves. Moreover, the Report targets a dilemma that arises out of 
the very essence of the bedrock principles of American democracy.
    In other words, what we have before us is in no way merely a local 
or regional issue. Rather, what we have before us is unquestionably a 
situation that demands attention as a national issue.
    And this brings me to one of the many virtues of the Report: its 
even-handedness.
    The Task Force underscored the need to come to terms with this item 
of unfinished business; yet it wisely and admirably refrained from 
taking sides in Puerto Rico's--and the Nation's--``destiny debate.'' To 
the extent that the Report has generated controversy, it has done so 
only because the Task Force diligently discharged its duty.
    Among the parties most directly affected by the Report, the only 
individuals professing great dissatisfaction with it are persons who 
refuse to accept reality; that is, persons who insist upon ignoring the 
irrefutable fact that--as a territory--Puerto Rico does not possess 
now, never has possessed, and never will possess anything that 
authentically constitutes sovereignty.
    As the Task Force Report explains in no uncertain terms, the sole 
alternatives to territorial status for Puerto Rico are separate 
sovereignty--as a discrete ``country''--and shared sovereignty as a 
fully integrated component of the U.S.A.
    Because the Report carefully and conscientiously sets forth the 
unvarnished truth about Puerto Rico's past and present status, the 
document has understandably elicited fervent denunciation from persons 
who are either unwilling or unable to accept that truth.
    In contrast to the naysayers, Mister Chairman, I have not the 
slightest doubt that the American citizens of Puerto Rico--together 
with the members of this Committee and our fellow citizens from 
throughout the Nation--are fully capable of contending with the truth.
    In conclusion, therefore, I hereby reiterate my strong support for 
the findings and recommendations of The President's Task Force on 
Puerto Rico's Status.
    I urge that Congress adopt those recommendations by enacting 
legislation to implement them.
    By initiating the deliberative process proposed by the Task Force, 
the Congress will have patriotically shouldered its constitutional 
obligation; and regardless of the outcome of that process, the American 
people will once again have manifested their commitment to achieving an 
ever more perfect union.
    Earlier, I quoted Abraham Lincoln and Woodrow Wilson on the 
principles that have made America both unique and great.
    Now I leave you with an excerpt from the Second Inaugural Address 
of one additional President.
    Just 15 months ago, on January 20, 2005, I am sure that most of the 
men and women here assembled were listening intently as The Honorable 
George W. Bush delivered this inspiring message:
    ``America has need of idealism and courage, because we have 
essential work at home--the unfinished work of American freedom. In a 
world moving toward liberty, we are determined to show the meaning and 
promise of liberty.''
    Mister Chairman and members of the Resources Committee:
    Illuminated and enlightened by Liberty's flame, let us all 
collaborate; with regard to Puerto Rico, let us all collaborate on 
successfully completing the unfinished work of American freedom.
    Thank you very much.
                                 ______
                                 
    Ms. McMorris. Thank you for your testimony. Our next 
panelist is Mr. Ruben Berrios, who is President of the Puerto 
Rican Independence Party. You know I did take Spanish, but you 
can all tell I did not do very well. Go ahead.

      STATEMENT OF RUBEN BERRIOS, PRESIDENT, PUERTO RICAN 
   INDEPENDENCE PARTY, FORMER SENATOR, SENATE OF PUERTO RICO

    Mr. Berrios. Madame Chairman and members of the Committee, 
notwithstanding the merits of the report of the President's 
Task Force, if past is prologue the inclusion of the statehood 
option in any bill foreshadows its demise. One has to question 
whether Congress willing to construct a wall along its southern 
border is likely to authorize a referendum to allow a Latin 
American nation to become a state.
    The President's Task Force report is an important step. For 
the first time, the White House report admits that we 
independentistas are right as we have denounced for half a 
century the commonwealth is just a different name for the 
unincorporated territory. In the 1950s, because of that hoax, 
there was a revolution in Puerto Rico that cost lives and 
bloodshed in Puerto Rico, the Blair House and in this very 
Congress.
    The White House report furthermore proposes an initial 
referendum in which the Puerto Rican people will be asked 
whether or not it wishes to continue under a territorial 
relationship. If the vote favors territorial status, it 
recommends periodic referenda. Naturally those in Puerto Rico 
who in the name of free speech and democracy exalt political 
servitude as a right reject the White House proposal.
    It is like the battered spouse syndrome. Humiliate me, but 
please do not leave me. Consent does not legitimize 
colonialism. Finally, it is necessary to underscore the reason 
why the White House report discards territorial commonwealth as 
a permanent option. The true though unnamed reason is simple. 
Commonwealth is an open door to statehood, and it must be shut 
because statehood for Puerto Rico, besides being detrimental to 
the island, is unacceptable to the United States.
    The fundamental problem facing the U.S. with regard to 
Puerto Rico is not a minority civil rights issue. Puerto Ricans 
have a majority in our own country. The core problem is 
multinationalism. Is the U.S. willing to accept a distinct 
Latin American nation of the Caribbean as a state of the union? 
I think the answer is self-evident. There is no reason why the 
U.S. should gratuitously tread into the dangerous waters of 
multinationalism that other nations today experience.
    The United States is not and does not aspire to become a 
multinational state. As time goes by, the problem posed by 
Puerto Rico will get more complicated. The past half century 
demonstrates commonwealth will only breed more statehooders. 
Puerto Rico's current problem is a time bomb.
    I propose a simple decolonization plan. First, 
congressional legislation should authorize a vote. U.S. 
territory yes or no. The people of Puerto Rico would finally 
have the opportunity to reject colonial status. After all, 
territorial commonwealth is the problem, and cannot be the 
solution.
    Second, any notion of a second referendum that includes 
statehood should be discarded. If the U.S. is not willing to 
consider territorial commonwealth as a legitimate option, it 
should not flirt with the statehood option it is not willing to 
grant, and third, once territorial commonwealth is rejected by 
the people, as I am certain it will be, a time table should be 
agreed upon for the Puerto Rican people to convene a real 
constituent assembly that will, of course, exclude a 
territorial formula in any way, shape or form.
    The constituent convention we propose is an instrument for 
decolonization in the exercise of our inalienable right to 
self-determination and independence, not as the case with the 
Governor's proposal as subterfuge to perpetuate exacting 
subordination. The ballot options will be independence, free 
association as defined by the U.N. and statehood.
    I have no doubt when you begin to tell the truth regarding 
statehood, its requirements, expectations of its possibility 
and when you begin to rectify the historical policy contrary to 
our sovereignty, Puerto Ricans will naturally lead to 
sovereignty options.
    I cannot finish the presentation without discharging my 
obligation to denounce before this committee the assassination 
by the FBI on September 23 of last year of independence 
militant Filiberto Ojeda, and to demand an end to the impunity 
of officials responsible for this outrage. Congress has a duty 
to dispose of the territory of Puerto Rico, and the people of 
Puerto Rico have a right to convene a constituent assembly to 
freely determine its future and put an end to colonialism. The 
time is now.
    [The prepared statement of Mr. Berrios follows:]

            Statement of Ruben Berrios-Martinez, President, 
                 Partido Independentista Puertorriqueno

                   (Puerto Rican Independence Party)

    Mr. Chairman and Members of the Committee:
    I appear before you on behalf of the Puerto Rican Independence 
Party, a national liberation movement that sustains the inalienable 
right of the Puerto Rican people to its independence, under any 
political status. It is necessary to confront and resolve the problem 
of Puerto Rico's political relationship with the United States.
    Notwithstanding the President's Task Force Report on Puerto Rico's 
Status, if past is prologue, I am afraid that the inclusion of the 
``statehood'' option in any bill foreshadows its legislative demise. 
The historical experience provided by the 1989 Johnston bills and the 
1998 Young bill is the best evidence of what I have just said. 
Moreover, when you consider the failure of these legislative attempts 
long before the recent immigration issues came to the fore, a great 
deal of imagination is not necessary to predict what could happen now. 
If Congress is willing to build a wall along its southern border, would 
it seriously entertain the notion of incorporating a territory made up 
of 4 million Latin Americans as a state of the Union? Why would this 
Congress authorize a referendum offering a Latin American nation of the 
Caribbean a statehood option it is unwilling to grant?
    This has not happened up to now, and it will not happen in the 
foreseeable future. Accordingly, I propose that, before going any 
further, any bill--based on the White House Task Force Report--omit any 
provisions relating to the second referendum it proposes between 
Statehood and Independence.
    Any such bill should be limited to authorize a referendum: U.S. 
Territory, Yes or No. This is the only way to give it a chance to be 
approved in both houses of Congress. The version that has informally 
circulated around the Senate for some time already excludes the second 
referendum.
    Due to time constraints I will not comment on other aspects. 
Instead, I wish to clearly establish my position regarding a 
fundamental aspect of the White House Report.
    This is the first time that a White House Report publicly accepts 
what independentistas have consistently denounced at every step of the 
way over more than half a century: that ``commonwealth'' or the so-
called Estado Libre Asociado constitutes a monumental hoax; that Puerto 
Rico's current constitutional arrangement, by any other name is still 
the unincorporated territory it was before 1952.
    It is ironic that, in the 1950s, because of that hoax, there was a 
revolution in Puerto Rico that cost lives and bloodshed ``in Puerto 
Rico, in Blair House, and in this very Congress.*
    During the Cold War years, while the United States used Puerto Rico 
as a military outpost, the Executive branch publicly proclaimed the 
alleged virtues of an imaginary ``commonwealth.'' Now that it no longer 
serves U.S. security interests, it has become a cesspool of social 
decay and economic dependence ``and a breeding ground for statehooders. 
Now the White House has acknowledged before the world community what 
the Supreme Court and this very body in the previously mentioned 1998 
Young bill had already recognized: the territorial and transitory 
nature of Puerto Rico's existing political arrangement.
    Anyone who truly believes in democracy must, as a matter of 
principle and morality, reject a territorial or colonial system that 
inherently contradicts the very essence of democratic rule. However, 
the White House, for the sake of consistency with the American 
electoral tradition, now recommends that the people of Puerto Rico be 
asked whether or not it wishes to continue its present territorial 
arrangement. Nevertheless, the underlying purpose of having Congress 
``dispose of the territory'' shines through in the Report's 
recommendation of periodic referenda, if at first the people of Puerto 
Rico should opt to continue under a territorial arrangement.
    We cannot ignore ``as these hearings evidence'' that there are 
individuals who at this stage of the 21st century boldly proclaim a 
right to a colonial arrangement. This is like espousing a right to 
subservience or political slavery ``an inevitable consequence of five 
centuries of colonialism! They have not yet realized that in the 21st 
century colonialism has been proscribed as an international crime.
    Although the imagined ``commonwealth'' invented by Puerto Rico's 
contented colonials does not, indeed, ``fit'' in the U.S. constitution, 
as recognized by the White House Report, there is a more powerful, 
albeit silent, reason for the U.S. to discard any territorial form of 
``commonwealth'' as a permanent solution. That reason is that 
territorial commonwealth remains an open door to statehood, the bridge 
to annexation, an open invitation to a dependent people to consolidate 
its dependency through the political power of the presidential vote and 
its larger-than-most congressional representation.
    This is an offer hard to refuse ``for a subordinate Caribbean 
nation imbued with a mind set of economic dependence. No wonder 
statehood parties garnered around 15% of the votes in 1952 and now 
account for nearly 50%--not counting some unabashed supporters of 
territorial commonwealth in the governor's Popular Democratic Party who 
favor it as a statehood ``lay-away.''
    The problem with commonwealth is not just that it is a territory or 
colony. The problem is, again, that it constitutes a bridge towards 
statehood. Territorial commonwealth is a state without congressional 
representation that does not vote for the President. And statehood is 
undesirable not just because it would thwart Puerto Rico's economic and 
spiritual development, but also because it is unacceptable to the 
United States.
    The root problem of a Puerto Rican state for the U.S. is not an 
immigration problem, nor a multicultural or a ``minorities'' problem. 
These are problems that the United States has coped with in the past 
and will yet find a way of dealing with them in the future. Your 
problem is that you would become multinational. And the issue is 
whether your nation would be willing to accept a different nation, such 
as Puerto Rico, as a state of the Union.
    The answer is a self-evident truth. And I have explained it in 
greater detail elsewhere and reiterated it in a 1997 Foreign Affairs 
article previously made available to your staff, which I request be 
made part of the record.
    The United States--and particularly this Congress--must face the 
issue squarely. Puerto Rico's unresolved status is a time bomb for the 
U.S. Now is the time to confront this problem and solve it--now that 
you face an immigration problem, now that you must devise a new policy 
towards Latin America for the 21st century. This is a problem that can 
no longer be swept under the rug where the peril of its ramifications 
will accumulate. The problem should be resolved now, while rationality 
can prevail.
    The U.S. need not confront problems such as those that afflicted 
Yugoslavia or the Soviet Union; or those in which Spain is currently 
embroiled and which here, in the United States, would become even more 
complex due to the existence of an enormous Latin American minority 
within its borders. Moreover, after Puerto Rico, why not the Dominican 
Republic ``where petition for statehood already occurred in the late 
19th century? And why not Jamaica, where they already speak English?
    The U.S. does not aspire to become a multinational state. Its goal 
with respect to Latin America could very well be economic integration, 
but not political integration. The Puerto Rican people must be told the 
truth.
    I recognize that it might be too much to expect you at this point 
to explicitly establish the requirements necessary for Puerto Rico to 
become a state ``that boil down to assimilation, plain and simple. I 
propose a decolonization plan that would enable this Congress to 
fulfill its duty under the Territory Clause of the U.S. constitution 
and ``dispose'' of the territory of Puerto Rico.
    First, authorize a vote, U.S. territory Yes or No. After all, 
territorial commonwealth is the problem and cannot, therefore, be the 
solution. Second, for the sake of simplicity and to avoid past 
legislative pitfalls, eliminate any notion of a second referendum--if 
the U.S. is not willing to consider territorial commonwealth as a 
legitimate option, it should not flirt with a statehood option it is 
not willing to grant. And third, a time table should be agreed upon for 
the Puerto Rican people to convene a real constituent assembly that 
would, of course, exclude a territorial formula in any way, shape, or 
form.
    (The term ``constituent assembly'' is the only salvageable term in 
the bill submitted by petition by the current governor of Puerto Rico 
``and even that is a concept historically proposed by the independence 
sectors.)
    The constituent convention I propose is a real one, explicitly 
omitting any reference to Public Law 600 (1950) and any colonial or 
territorial option. The valid options it would consider would be 
independence, free association as defined by international law and the 
United Nations, and statehood.
    Although you could theoretically be confronted with a statehood 
petition if that option were to prevail in a constituent assembly, I 
have no doubt that when you begin to tell the truth regarding the real 
requirements and expectations for statehood; when you begin to rectify 
your historical policy towards Puerto Rican sovereignty and send the 
corresponding signals with equal clarity, Puerto Ricans will naturally 
lean towards the options of independence and free association.
    Finally, Latin America is ready for a new era of enlightened 
policies from its powerful Northern neighbor. The recent Montevideo 
Declaration of the Socialist International Committee for Latin America 
and the Caribbean (SICLAC) is indicative of the turn for the better 
that Hemispheric relations could take with the rational ``disposition 
of the territory'' of Puerto Rico in a manner similar to the one 
proposed. In the words of the Montevideo document:
        [SICLAC] welcomes, along with the PIP, the historic step 
        forward made by the formal acceptance on the part of the United 
        States government that Puerto Rico continues to be a 
        territorial possession subject to the full sovereign powers of 
        the U.S. Congress. This political conclusion was made in a 
        document issued by the White House on 22 December 2005...in 
        which it is also recommended that Congress approve legislation 
        which will allow the people of Puerto Rico to overcome their 
        current colonial situation.
    I cannot finish this presentation without discharging my obligation 
to denounce before this committee the assassination by the FBI on 
September 23 of last year, of independence militant, Filiberto Ojeda 
Rios; and to demand an end to the impunity of officials responsible for 
this outrage. This is not the time to slide backwards into violent 
confrontations of the past.
    This Congress has a duty to dispose of the territory, and the 
people of Puerto Rico have a right to convene a constituent assembly to 
freely determine its future and put an end to colonialism.
    The time is now.
                                 ______
                                 
    Ms. McMorris. Thank you very much. One question for all of 
the witnesses. Who should be able to vote in the referenda 
recommended by the Task Force, the current registered voters, 
those who registered before the vote, those living in the 
continental U.S.?
    Mr. Dalmau. Madame Chairman, it is the position of the 
Popular Democratic Party that the people of Puerto Rico, as a 
people, have been divided by reasons of geography, but we 
remain a people. So the people in the mainland are entitled to 
participate in this process and the different stages of the 
process. As of right now, the bill in Congress before your 
consideration has not entertained the possibility of the 
participation of the people on the mainland, but the Popular 
Democratic Party supports that position, and we are open to 
that position, and I know it is the position of many Members of 
Congress.
    Senator Rossello. Our position is contained in the Fortuno-
Serrano bill that has been submitted here in the House of 
Representative, which in essence allows all who are eligible 
under Puerto Rico law to vote as in any election, adding those 
that do not fulfill all the requirements in one respect which 
is residence in Puerto Rico. So all of those that are born in 
Puerto Rico, even though they reside stateside, would have the 
right to vote in the plebiscites or referenda that are 
authorized by Congress.
    Mr. Berrios. The position of the Independence Party is the 
following: First, we recognize that this is a delicate issue. 
We believe that all registered voters in Puerto Rico should 
vote even though we would prefer for Americans who are there in 
a transitory manner should not vote even though they have 
residency requirement of a couple of years. Americans who want 
to stay in Puerto Rico should vote in Puerto Rico.
    Regarding Puerto Ricans who are born in the United States, 
but do not have a residence in Puerto Rico, we think they 
should vote, but they should demonstrate an intention to go 
back to the island, and there are ways to determine that, but 
not people who are being born in Puerto Rico, have lived here 
all their life and have no intention of going back to Puerto 
Rico. That is our position.
    Ms. McMorris. Thank you. Mr. Faleomavaega.
    Mr. Faleomavaega. John Wayne would be all right, Madame 
Chairman.
    Ms. McMorris. That is the first time I have ever tried that 
one.
    Mr. Faleomavaega. That is all right.
    Ms. McMorris. Sorry. I will have to go home and practice.
    Mr. Faleomavaega. That is OK. Madame Chairman, I wanted to 
associate myself and the comments and the statements made 
earlier by my distinguished colleagues whose ancestry probably 
hails from Puerto Rico in terms of expressing my sense of 
appreciation and certainly my utmost respect for the honorable 
gentleman representing the good people of Puerto Rico, Mr. 
Fortuno, and for his openness and candidness also in trying to 
give as much to the public and even to the members of this 
committee and other Members of Congress the ability to freely 
express themselves, and to see that these options are still 
very much under consideration by all the people of Puerto Rico, 
and not just leaning toward one certain option, and I respect 
the gentleman for that.
    There are Members who have already concluded in their own 
minds what options they want to see Puerto Rico follow, but I 
do follow the admonition or the statements made earlier by my 
good friend from Florida, Mr. Lincoln Diaz-Balart, is that this 
ultimately has got to be a decision made by the people of 
Puerto Rico.
    I think procedurally this is where we find ourselves in 
trying to figure out what is the best mechanism to follow. I 
noted with interest, Mr. Dalmau, your statement that there was 
some criticism about the Task Force report. It did not seem to 
indicate some sense of appreciation of the fact that Puerto 
Rico or the people of Puerto Rico exercise their right of self-
determination opted for a commonwealth status for somewhat 50 
years now, and I think that should be respected.
    I wanted to ask, Mr. Dalmau, that it seems that the Task 
Force report gave an indication about the certain provision in 
the Federal Constitution, the U.S. Constitution, about the 
plenary clause where the Congress is given absolute authority 
to exercise whatever it wants on how to administer any U.S. 
territory. I think this is where we find ourselves in the gray 
area. How do you determine is Puerto Rico a U.S. territory as 
defined under the provisions of the Federal Constitution? That 
is where we find ourselves in a mix right here in trying to 
determine is it a colony? Is it a U.S. territory?
    I think we have also made a determination on that when we 
went before the United Nations to purposely delist Puerto Rico 
as a nonself-governing territory. Am I correct on this, Mr. 
Dalmau?
    Mr. Dalmau. Yes, that is correct. The position of the 
United States in front of the United Nations and the world was 
that with the approval of the Constitution of Puerto Rico by 
the people of Puerto Rico, Puerto Rico was invested with the 
attributes of sovereignty, and that investment cannot be 
revoked otherwise there was no reason to take Puerto Rico out 
of the list of territories under colonial regime.
    So, those representations made by the U.S. Government to 
the world have not been revoked by a 14-page report. What is 
striking about the report is that it ignores case law that is 
longstanding, that have not been revoked. The memorandum that I 
submitted for the record includes a thorough discussion of 
these issues, but here is the core of the problem. The issue of 
Puerto Rico is an issue of democracy. It should not be 
artificially constrained through formalistic readings of the 
Constitution.
    We should read the Constitution based on what the Supreme 
Court have said, but also with a forward looking outlook with a 
Democratic reading of the Constitution. So, we have two 
readings of the Constitution. We have a formalistic, backward 
looking reading. That is basically Congress can do anything it 
wants. It can give you away to Pakistan. There is a forward 
looking reading of the Constitution, supported by the Supreme 
Court, supported by the scholarship.
    Let me just quote, and this is a quote from the Supreme 
Court. It is said that as absurd in Carelo Torilo the purpose 
of Congress in 1950 and 1952 legislation was to afford to 
Puerto Rico the degree of autonomy and independence normally 
associated with states of the union. So at least, at least 
there is a basic modicum of sovereignty. So now, if we take 
that to the logical conclusion----
    Mr. Faleomavaega. Mr. Dalmau, I am sorry.
    Mr. Dalmau. I am sorry. I have spent my time. I apologize.
    Mr. Faleomavaega. I really feel bad because I wanted to 
raise some additional questions----
    Mr. Dalmau. It is really a complex issue.
    Mr. Faleomavaega.--to Mr. Rossello and also to Mr. Berrios, 
and I apologize for the time that my time is up. I am going to 
try hopefully maybe there may be another round, but I would 
suggest and ask unanimous consent that you submit that to be 
made a part of the record the Supreme Court decision that you 
have just cited.
    Mr. Dalmau. Thank you.
    Mr. Faleomavaega. I have to stop now because of my time. 
Thank you, Madame Chairman.
    Ms. McMorris. We should get to another round. I do have a 
few questions from Mr. Jones on this committee. He had to 
leave, but would like to include these questions in the record, 
and have the witnesses respond in writing. So, we are going to 
do that. We will get those questions to you. Mr. Fortuno.
    Mr. Fortuno. Thank you, Madame Chairman. I want to thank 
the three gentlemen for being here today, and for the 
discussion that we are having in this committee. I will however 
want to clarify a couple of things before I proceed. First of 
all, in this country what matters is principles not the length 
of documents. You may not like what is written in the report, 
but basically this country is based on the principles of 
democracy and freedom, and that is what we are trying to 
achieve here.
    Second, I should clarify that in the 1952 process Congress 
simply allowed the people of Puerto Rico to draft its own state 
Constitution for internal self-governance. No status options 
were presented to the voters. So, to say here that in that 
process that we had a possibility to choose, that has never 
happened. In 108 years, Congress has never provided for a 
process to hear the will of the people in Puerto Rico.
    You mentioned, Mr. Dalmau, in your statement that there 
were four questions that were not answered. I do not know about 
you, but I was here, and I heard answers from Mr. Marshall for 
all four. Specifically on the fourth one, which is you are 
stating I believe incorrectly that the U.S. Constitution 
prohibits the U.S. Government from entering into a relationship 
based on mutual consent as the one your party espouses, is not 
doable. It is, but it is not permanent.
    He said it over and over again. The Justice Department 
under three different Administrations have stated this clearly, 
and I believe that that should be made clear. However, I would 
like to devote some time to the specific proposal that this 
report actually dwelled on for a while, and that is the new 
commonwealth or developed or enhanced commonwealth. One of its 
proposals in Article 5 is that there will be a new annual block 
grant adjusted for inflation for social assistance and 
infrastructure and new socioeconomic development incentives. 
Roughly how much money are we talking about, and how would the 
U.S. Treasury pay for it?
    Mr. Dalmau. Thank you, Commissioner, for your question and 
your remarks. Let me just say that you somehow misstated my 
remarks in terms of the fact that there were questions that 
were not answered. Actually, the report answers the questions, 
but without any foundation, any reference to the applicable 
law. What I am saying is----
    Mr. Fortuno. Do you have a copy of the appendices to the 
report?
    Mr. Dalmau. What is that again?
    Mr. Fortuno. Do you have a copy of the appendices of the 
report?
    Mr. Dalmau. I do have a copy of that.
    Mr. Fortuno. That is part of the report, is it not?
    Mr. Dalmau. It is.
    Mr. Fortuno. Do they address some of these issues?
    Mr. Dalmau. I believe not. I believe they actually 
disregard these issues.
    Mr. Fortuno. I would disagree on that. If I may also ask 
you Article 8 of your party's enhanced commonwealth proposal 
will enable the commonwealth laws to limit the jurisdiction of 
the Federal courts. How could the Federal court operate if its 
enforcement of Federal law could be limited at the 
commonwealth's will? Could you explain that?
    Mr. Dalmau. Yes, absolutely. Let me just say for the 
benefit of other members that the problem with this report is 
that we do not even get to the negotiations of what kind of 
commonwealth you want, because it basically says you cannot 
have one, and that is the main problem of this report. It is 
using----
    Mr. Fortuno. If I may, I have a question.
    Mr. Dalmau. May I finish?
    Mr. Fortuno. Let me have answer to it.
    Mr. Dalmau. May I finish? I am sorry. Go ahead. I am sorry.
    Mr. Fortuno. How can you actually limit the jurisdiction of 
the Federal courts in Puerto Rico? Is that doable under our 
Constitutional scheme today?
    Mr. Dalmau. I have to come back to my previous point. It is 
that we do not get to that discussion, because really what the 
report does is they construe the Constitution in such an 
airtight way and formalistic way that you cannot really have 
any discussions as to what kind of relationship you want for 
the future. You are foreclosing that kind of conversation.
    Mr. Fortuno. If I may, your party has specifically stated a 
number of--and actually presented to the voters in previous 
votes--that there are all these things that are doable that 
actually the report is saying that it is not doable. The 
question is and it remains unanswered, and I would like an 
answer to both questions when we are done here in writing if I 
may: How can you achieve that under our present U.S. 
Constitutional framework?
    I just do not understand your concerns here. I believe the 
report has answered all your questions. I have one last answer. 
I am sorry the Governor is not here. The Governor served in 
this body for four years. The Governor from his own party. The 
Legislature was controlled by your own party. Yet not at one 
time in those two Congresses did Governor Acevedo-Vila propose 
from his station to develop commonwealth as you have espoused, 
and is actually even in your website. I am wondering why he 
never put that forth. If you could provide an answer to us, 
that would be very kind.
    Mr. Dalmau. Yes, I can respond to that. The position of the 
Popular Democratic Party during the past term was that we have 
been 40 years trying to solve this issue, and what happens is 
that you come to Congress like three tribes, and you listen to 
us very kindly, but nothing is done. So what the Popular 
Democratic Party proposes let us start the process in Puerto 
Rico. Let us agree on the points that we can agree, and then 
let us go to Congress. That never happened.
    Unfortunately, the partisan battle impeded that process. 
What we are saying now is give us a chance to have a 
Constitutional convention. When we come here, we know exactly 
what the people of Puerto Rico want.
    Mr. Fortuno. Is it not better to ask the voters directly 
what they want? Thank you very much, Madame Chair. I yield 
back.
    Ms. McMorris. Mr. Inslee.
    Mr. Inslee. Thank you. Just one comment. I know how 
difficult this issue is or can imagine how it is. I just want 
to share that you are not the only people that have 
difficulties deciding on how to structure a plebiscite. We are 
trying to replace a big viaduct in Seattle, Washington, right 
now, and we are having this huge battle about whether the first 
option should be just tear down the thing and you leave it or 
whether we should have the option first do you build a tunnel 
first and then you have another vote on whether you build an 
off ramp.
    I just want to let you know you are not the only folks that 
are struggling with these kind of Democratic issues about what 
is the best way to really figure out the will of the people. 
Let me ask you a more basic question, and I will probably be 
the only person even thinking in these terms, but is a 
plebiscite necessarily the best way to determine the national 
will or the local will when there might be gradations of 
commonwealth arrangements regarding treaties, if there was 
independence? Are there complications of this that make a 
plebiscite maybe not the best way?
    The reason I say that, I do not know how many states had a 
plebiscite when they decided to seek statehood to the United 
States. I do not know the answer to that question, but I do not 
think they all did. I guess that is a general question to the 
whole panel.
    Senator Rossello. If I may, Mr. Congressman, I know of no 
better method than consulting the people directly. The question 
that you pose is their confusion in terms of what the decision 
of the people might be or might be confronted with. I think 
this report establishes a first step that is very simple, very 
clear. There is no question about what a future status could 
be.
    The first question is do we want to remain as we are now? 
It is a known quantity. It is not speculative. It is a known 
quantity. It is under the Constitution. There are only two 
options that the Constitution entertains, except for the 
special case of the Washington, D.C. The Constitution says that 
you can either be a state or a territory. There is nothing 
else.
    Puerto Rico now is a territory under the Constitution. I do 
not think anybody can argue that. First, there is no clearer 
voice than going directly to the people. I am convinced of 
that. Second, there is no confusion. We are living under the 
territory. We know what that is. Then the question is very 
pertinent because it says: Do you want to continue as we are 
now as a so-called commonwealth or do you want a change? Do you 
want to consider options that are nonterritorial?
    I think there is no margin for confusion, none whatsoever, 
and I think the people have the capacity and no other process 
is superior to having the people----
    Mr. Inslee. By my question, I do not mean to say that I am 
opposed to a plebiscite at all. I just thought it was worth 
discussion. The question to you gentlemen, take a crack at this 
one, could you describe to us who do not know a lot about 
Puerto Rico frankly and can be educated and I will be educated 
by your representative after this hearing, sort of the 
political context of how the people break out as to those who 
would like statehood, those who would like independence, those 
who like the current situation?
    If you can describe in the broadest brush terms are there 
any economic, ethnic, is there any predispositions of the 
groups of Puerto Ricans, where they spread out on these issues?
    Mr. Berrios. Mr. Congressman, I would comment in that vein, 
but I would also like to comment on your previous question. 
What I have proposed here is a combination which takes care of 
your question, of your ambivalence regarding which is the best 
way. First of all, we ask the people whether they want to be a 
territory, whether they want to continue in political 
subordination or not.
    That is almost an offense to ask people that, but in Puerto 
Rico, we have many people like house slaves in the pre-Civil 
War times in the United States. House slaves wanted to remain 
slaves. So we have a number of people in Puerto Rico who out of 
dependence are in that line, so we give them a chance to say 
yes, we want to continue in political servitude. Straight out 
yes or no.
    If they say no, then we go to the problem you posed. We go 
to what we consider the way to solve all those transitory 
measures. What we call a constituent assembly. We elect by 
choosing between real permanent alternatives stated: Free 
association as described in the U.N. and independence. Then we 
go to a constituent assembly, and we pose those questions, and 
the majority takes a proposal to the United States, and we 
start speaking about it.
    After we agree, then we go back to the constituent 
assembly, until we reach a consensus. It is the combination 
which takes care of the problem you posed. I see total good 
faith in your questions. That is why I would dare to say what I 
am going to say. This is a novel problem for the United States. 
You have never had to face an issue where you deal with a 
different nation in the historical effective sociological point 
of view, Spanish, Caribbean, race, Latin American, all the 
issues together. You have never had to face that.
    You have small pockets of different people within great 
conglomerates of people who were assimilated into the American 
mainstream. Puerto Rico is the other way around. So you have to 
face a new type of issue. Therefore, it is a complicated issue.
    Here statehooders from Puerto Rico would like to remain 
Puerto Ricans for always. They do not want to become Americans. 
Commonwealthers do not want to become Americans either, and 
suffice it to say independent does neither. Thus the issue. 
That is why it is difficult, complicated. It is not like 
Alaska. It is not like Hawaii. It is not like Texas. It is like 
the Dominican Republic. Like Mexico. Like Jamaica. Jamaica 
speaks English. We do not even speak English. Seventy-two 
percent of our people do not speak English fluently or not 
fluently. They do not speak English to understand and carry on 
a conversation.
    That is why you asked your question because it is difficult 
to understand. You have to face this nation issue. If you face 
the Nation of Puerto Rico face-to-face, then you can come to 
gripes with the question and answer it correctly, but we need 
this process because there are many people in Puerto Rico who 
political servitude has affected their minds. It is 500 years 
of political servitude. So they want to continue being 
political servants.
    Mr. Inslee. Just one comment before we wrap up. That may be 
true what you are saying that not everyone wants to become 
American, but 90 percent of Puerto Ricans are watching American 
Idol. So you just have got to be able to carefully----
    Senator Rossello. Are watching what?
    Mr. Inslee. Thank you very much.
    Senator Rossello. Madame Chairman, all of us want to be 
friends with the United States. All of us.
    Mr. Dalmau. Madame Chairman, I would like to just have 
brief remarks on the same questions. I did not have a chance to 
respond to it, and it was addressed to the three of us.
    Ms. McMorris. OK.
    Mr. Dalmau. There are two fundamental issues when we talk 
about this report. One is substantive, and one is procedural. 
From a substantive point of view, I have to say that as the 
commonwealth was defined as a territory that you can give away, 
that you can basically deprive people of their citizenship, it 
will get zero votes. It is not true. I take issue with what the 
other witness just mentioned that people want to be ceded and 
do not want to have rights under this substantive status.
    The problem, our problem is the procedural problem. Because 
you do not have the majority of people supporting statehood or 
independence, let us kill commonwealth, and let us devise a 
process in which you have a first round in which you join all 
the forces and define commonwealth the worst possible way, but 
not for legal reasons, but for political reasons, and that is 
why we oppose this report.
    Mr. Inslee. Thank you.
    Senator Rossello. Mr. Chairman, if I may address that same 
question. You have seen the 108-year history of debate in this 
issue in just a few hours here. It is a history of continuous 
squabbling. It is a history that allows the Members of Congress 
to frame this issue as something that is not pertinent to what 
their role here in Congress is.
    What I want you to consider is that this is not an issue of 
three different political parties or three different 
ideological views. Squabbling throughout over a century. This 
goes to the definition of what the United States of America is. 
This goes to the nature of what the Nation is.
    If we do not take action, action that can only be taken 
under the Constitution and under the Treaty of Paris that 
specifically under that treaty gave the responsibility and the 
authority to Congress, if Congress does not act then we are 
admitting that the model, that the paradigm for the Nation is a 
paradigm of imperialism. It is an imperial nation that has 
colonies. Colonies are defined because they do not participate 
in the decisions in a Democratic way.
    The fundamental question here, with all due respect, is not 
that we get into agreement. We will never be in agreement. The 
fundamental question is what is Congress going to do? Are they 
going to assume the responsibility, their historical and 
Constitutional responsibility of defining the nature of the 
nation, not Puerto Rico, the nature of the United States?
    If the answer is we will maintain or continue the current 
policy, then you have chosen the U.S. which is supposedly the 
spokes nation for democracy. You have chosen the model of 
imperialism. That is the question. So, I just wanted to 
reemphasize do not dismiss this as three squabbling individuals 
or three squabbling groups here because that is the history of 
what has happened, but it is in your side of the court. It is 
your responsibility undeniable. You have to take action because 
the Constitution and the treaties that ceded Puerto Rico and 
the territories so determined.
    Mr. Inslee. Thank you. Just so you know, you have come to 
the home of the squabbling politicians.
    The Chairman. [Presiding.] Mr. Wicker.
    Mr. Wicker. Thank you very much, Mr. Chairman, and I very 
much appreciate your invitation to nonmembers of the Committee 
to come and be with you today. I will try to speed along. I 
would like to follow up with a question by Ms. McMorris, and 
ask the witnesses to respond on the record because I do not 
have time to get a response verbally.
    Her question was with regard to who would be eligible to 
vote in any plebiscite. I would just appreciate your responding 
to the record as far as the eligibility to vote in the four 
previous plebiscites that have been held on the status 
question.
    Then let me agree with what Mr. Faleomavaega said with 
regard to whatever process might be adopted not being slanted 
toward one certain option over another, and I believe he quoted 
Mr. Diaz-Balart in saying that ultimately the decision should 
be made by the people of Puerto Rico, and someone in this room 
during the time I have been here said the process should start 
in Puerto Rico which I think the Duncan bill provides for.
    Mr. Inslee mentioned that there may be gradations in what 
an assembly might do on this issue which I think is the beauty 
of taking that approach. It is obvious from listening to the 
three witnesses--and it is obvious from the time I have spent 
in Puerto Rico--that the parties cannot even agree on the 
definitions of the various choices that we have seen put 
forward.
    I do believe that it should be instructive to Members of 
the Congress, Mr. Chairman, that there have been four votes on 
this issue during the history of Puerto Rico, and on all four 
occasions, the commonwealth option has prevailed. I do think it 
is instructive at least to the members of this committee that 
the past two previous Governors of Puerto Rico have been 
members of the commonwealth party, which leans credibility to 
the four votes that it had before.
    My question deals with the fairness of the process that is 
recommended under the Fortuno bill, and Mr. Fortuno and I have 
agreed to cordially disagree on this issue and remain friends 
certainly. I have told staff, Mr. Chairman, that my question 
would involve using a prop, and so here is my prop. It shows 
the three options, and it asks the question: Fair vote?
    Basically on one extreme you have the choice of statehood. 
In the middle ground you have the commonwealth option, and then 
the other option, which is I think we would have to agree at 
the other extreme from statehood would be independence. Now, it 
would seem that if you are going to have a vote you would 
finally get the definitions straight somehow as to what each of 
the parties advocating that position felt with regard to those 
three options, and then you would have a vote.
    My objection to the legislation that is before you and my 
objection to the commissioned report is this: Instead of having 
a vote among the three options, we have this vote instead. We 
take statehood and independence, and we combine those two 
extremes into one option. The vote then is to occur between 
commonwealth and the statehood/independence option that has 
somehow been linked together.
    Under the proposal, if commonwealth wins as it has won on 
four separate occasions, then the people of Puerto Rico would 
be told, thank you for your vote. We hear your vote. However, 
in a few years we want you to go back and we want you to try 
again because you did not get it right. If, however, the 
statehood/independence lumped together option wins, then there 
will be a runoff between statehood and independence, excluding 
the option which has prevailed in the previous four votes. 
Excluding the option which has been advocated by the past two 
Governors elected by the people of Puerto Rico.
    It seems to me, Mr. Chairman and my colleagues, that this 
calls into question the fairness of the process that has been 
advocated by the commission. I understand from Mr. Berrios that 
he would advocate the first vote and the first vote only, and 
then if changing the status completely prevailed, there would 
be no second vote. Let me just ask all three of you to comment 
on the fairness of lumping two different options and two such 
widely different options together in one vote as opposed to 
voting on all the options in a plebiscite. That would be my 
only question, Mr. Chairman.
    The Chairman. The gentleman's time has expired, but I will 
allow the witnesses to answer the question.
    Mr. Wicker. I appreciate you accommodating.
    Mr. Berrios. Mr. Congressman, first of all I think you 
misread my statement. No. I will go for another vote in Puerto 
Rico to elect a constituent assembly to choose among three 
noncolonial, nonterritorial alternatives. I would also like to 
point out I think you forgot the American flag there which 
overpowers all the other issues. You know you should have had a 
big American flag on top of it, because we have asked this 
nation many times, statehooders, commonwealthers and 
independentistas for different changes, and the United States 
has always refused since the beginning of the 20th century to 
allow for our will to become a reality.
    So it is not true that we do not agree. We have agreed many 
times. The majority has agreed many times, and this Congress 
has refused. I think that is very important to point out here. 
What you deduce is a vote to destroy democracy, colonialism, 
territory is the contradictory item against democracy. You 
cannot choose voluntarily not to have democracy. Hitler used to 
have such votes, and when you want to include colonial 
territorial status what you in fact saying is the people should 
remain as a colony, as a territory. Therefore, should deny 
themselves democracy.
    What we are asking this Congress, what you are proposing to 
do is, what I am proposing to this Congress let us vote. Do we 
want a territory, a colony, yes or no? Because if you leave 
that up to the Puerto Rican legislature for example--many times 
in the past it has happened--what will happen is that they will 
describe commonwealth in a thousand different ways, and you 
will be telling the Puerto Rican people the truth. You are a 
territory of the United States of America.
    Once the people are faced with that issue, they will vote 
against it, and you have to face that issue, and the rest is 
just a way to procrastinate not to do anything, and to let 
Puerto Rico become more and more statehooders everyday, and 
that we have to stop. You either face the statehood issue, the 
decolonization issue, the independent issue now or you will 
face it in 50 years when it will be much harder to deal with 
it.
    Senator Rossello. Mr. Chairman, Mr. Wicker let me first 
clarify that you mentioned four plebiscites. The truth of the 
matter is there has only been three. You cannot qualify the 
approval of an internal Constitution which the people of Puerto 
Rico approved for internal government as a plebiscite on status 
because that was not brought before the people. There have been 
three, 1967, 1993, 1998.
    None of them were authorized by Congress. As a matter of 
fact, Congress has not authorized any in 108 years that Puerto 
Rico has been a U.S. territory. Those locally authorized 
plebiscites or referenda have given us a chance to learn, and 
one of the most powerful lessons that we have internalized is 
that if you allow the parties in Puerto Rico to define what the 
formula means then we end up with the same results that we have 
for each one of the three referenda. Nothing happens.
    The definitions that we have been discussing here proposed 
by the Popular Party have been brought before the people. You 
say that commonwealth prevailed. No changes happened. So, I 
think a powerful lesson has to be to realize that we can write 
whatever we want. As a matter of fact, I told my colleagues in 
the Popular Party that if it was a question of writing our own 
definitions then I would write a definition for statehood that 
would have not 2 senators but 4, not 6 congressmen but 12.
    That, as you know, is not consistent with either the 
Constitution or the U.S. policy. So, we need to have a 
definition, yes. We do not have to define statehood. We do not 
have to define independence. You have over 100 independent 
nations. You have 50 states.
    What has to be defined is not the current commonwealth, 
which is a territory well-established, but the pie in the sky 
option that has been given to the people of Puerto Rico in 
writing and nothing has happened because it is Constitutionally 
inadmissible. I think that when you look at fairness, I think 
the fairness question has to be answered in giving Puerto Rico 
real options, not pie in the sky, real options.
    The Chairman. Thank you.
    Mr. Dalmau. Mr. Chairman, regarding the territorial issue, 
I just have to say something. What we are facing here is 
legislation that is based on a 14-page report issued by a Task 
Force. That is what we are facing here. That document does not 
provide the basis for any true process of self-determination 
basically for two reasons. Because on the substance it only 
proclaims, it does not explain, it does not provide arguments 
from a Constitutional standpoint that really enlightens the 
debate.
    It is really reaching certain conclusions that as we know 
leads to a certain outcome, and then you have obviously the 
problem of policy issues that has been brought. The Popular 
Democratic Party welcomes the discussion on policy, once we 
have resolved the Constitutional issue. That is a threshold 
issue. When we talk about the particularities of each proposal, 
let us talk about it, but let us first determine and resolve 
that each party and each group has a right to participate fully 
and not with artificial constraints.
    Mr. Fortuno. Mr. Chairman?
    The Chairman. Mr. Fortuno, yes.
    Mr. Fortuno. If I may, I would like to introduce to the 
record, sir, because I know there is a lot of confusion here 
going on, last year all three parties agreed on legislation. I 
would like to introduce that legislation for the record. 
Unfortunately, the Governor vetoed the legislation, but it 
would have provided for a local process to then come here. That 
is part of the reason why we are here. So, I would like to 
introduce that legislation if I may, as part of the record.
    The Chairman. Without objection. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. Mr. Wicker, you know 
that our relationship is a very friendly one so what I am going 
to say is not in any way personal, but could you hold up your 
chart again? In Spanish slang we have a word called desparate. 
It usually means something that makes no sense.
    Sometimes some independence voters have voted with the 
commonwealth candidates to keep statehooders out of power, and 
for 108 years, statehooders and commonwealthers have believed 
in the permanent union with the U.S. What you never see is a 
hook up between statehooders and independence. How people 
continue to say that this somehow brings together independence 
and statehooders against commonwealth is really a desperate, 
and that little chart shows it right there.
    First of all, the commonwealth that you would like to 
propose, I do not know which one it is, is not even the 
commonwealth that the people who support commonwealth support, 
because all three parties in Puerto Rico reject the present 
commonwealth. The statehooders are clear. They want statehood. 
Independence have been clear since the beginning of time. The 
commonwealth want to be a state in an independent nation at the 
same time, but neither at the same time, and it gets very 
confusing.
    Where the commonwealth should go, and your chart would be 
truly complete, is if instead of commonwealth as showed free 
association as to the next step for the commonwealth, and then 
the options would be statehood, one extreme you are right, 
outright independence another extreme or an internationally 
recognized noncolonial status known as free association where 
we negotiate treaties, where we maintain citizenship if we 
choose to, where we keep the same post office or the same 
currency if we choose to, but at any moment we can break that 
relationship.
    The big issue here, and I am saying this as a brother to 
you, is that the commonwealth has not been explained to anyone. 
What the commonwealth is being presented as is a wish list of 
what it could be, but Congress first would have to say put that 
on the ballot because I am willing to consider giving you that, 
and Congress is not going to do that for a very simple reason.
    Incidentally, should after 108 years commonwealth gets 
whatever it wants? Absolutely. But you know something? There 
are 435 of us, and what is going to happen is Nydia would vote 
for a wish list of things for commonwealth. I would vote for 
it. Luis would vote it. Maybe you would. Even Luis Fortuno 
might. But another 400 members would say wait a minute. Why can 
I not get that for my district? Why can I not get that deal for 
my district? And it will never happen. The big question here--
and thank you for the chart--I was embarrassed to say----
    Mr. Wicker. I was happy to hold it the whole time.
    Mr. Serrano. Thank you so much.
    Mr. Wicker. If you would yield for 10 seconds, I would 
appreciate it.
    Mr. Serrano. Yes, sir.
    Mr. Wicker. Would not the kind of assembly envisioned by 
the Duncan bill allow Puerto Ricans to define the type of 
gradations that might elucidate someone from Mississippi.
    Mr. Serrano. That goes to what Mr. Berrios says, and that 
is--and I do not want to touch on this in a way that is 
insulting to anyone in this country or throughout the world--
you cannot equate, I will not equate slavery to colonialism.
    When President Lincoln sat down, he had a couple of 
options, do nothing or emancipate. He could not come back and 
say, you know I thought about it, and slavery is OK, and I am 
presenting it again as an option. I think it is legislatively 
immoral for my country to present to my birthplace a colonial 
option as an option for us.
    Now, there are some people there who have been at it so 
long that they think that is the only way. That is their 
problem. What do you, as a Member of Congress, what do I 
wearing that Member of Congress hat for this moment offer to a 
group of people? You cannot offer a colonial status. It is not 
proper in everything we are doing. You cannot go back to Iraq 
now and say, we liberated you, whether I agree with that or 
not, and here is what we are going to give you. We are going to 
give you another dictatorship for another 20 years, but that is 
different than the dictatorship you had before. You cannot do 
that. It is still a dictatorship.
    So the issue here is: Statehood is clear. Independence is 
clear. Commonwealth has to give us a nonterritorial, 
noncolonial status, and I will be the first one to sign onto 
that bill.
    One last point. In the bill that the commonwealth 
supporters present with my sister--and I am not being 
sarcastic. She is my sister, and I know I am her brother. I 
have no sisters. This is the only one I have ever had, and her 
mother's maiden name is Serrano. Go figure that out. But in 
that bill, there is no option for an associated republic. There 
is an option for independence, and that is right, for statehood 
and for commonwealth, but there is no noncolonial action.
    I will go on the record. Give me a bill supported by the 
commonwealth party that takes out all vestiges of colonialism, 
and I will go on that bill as quickly as I went on the Fortuno 
bill.
    The Chairman. The gentleman's time has expired. Ms. 
Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman. I would like to 
take this opportunity to ask unanimous consent to put into the 
record my written testimony.
    The Chairman. Without objection.
    [The prepared statement of Ms. Velazquez follows:]

  Statement of The Honorable Nydia M. Velazquez, a Representative in 
                  Congress from the State of New York

    Thank you, Chairman Pombo, for holding this important hearing 
today, which I am sure is drawing a lot of attention in Puerto Rico and 
throughout Latino communities across the country. As one of the four 
Puerto Rican Members of Congress, I am personally invested, as well as 
many from my community, regarding the status of Puerto Rico. I 
appreciate the opportunity to be here today and provide my view on the 
Administration's Report regarding the political and socio-economic 
future of Puerto Rico.
    Whenever the debate about the status of Puerto Rico occurs, it 
still amazes me that the same old issues keep resurfacing in this 
committee and in the halls of Congress. These actions defy reason.
    We continue to talk about Puerto Rico, its past, present and 
possible future. Still, even with the endless debate, we do not seem to 
learn from the lessons of the previous efforts on this matter.
    This is especially true if you examine these past ten years. We 
have discussed:
    <bullet>  What limits our Constitution may or may not have?
    <bullet>  Whether this body would pre-commit to a status decision 
for the people of Puerto Rico?
    <bullet>  Should this body define for Puerto Ricans their status 
options?
    <bullet>  How much would any status change cost?
    What seems to be missing from this debate is the acknowledgment 
from Congress that instead of telling Puerto Ricans what they want, we 
should let Puerto Ricans tell us what they want.
    To continue to pursue a backwards approach to resolve an extremely 
complex issue is not the right or proper approach. We are a society 
that stands for freedom, democracy and justice. We are a country that 
promotes and encourages people to exercise their rights through free 
and fair elections. This, after all, is truest expression of one's 
right to self determination.
    So, with this in mind, please excuse my pessimism but, here we go 
again Mr. Chairman. In today's hearing we will listen to yet another 
version of the same ten year old argument. Let's tell Puerto Ricans 
what they want before they are actually given the ability to determine 
what they want. Why does Congress repeatedly try to micromanage this 
issue?
    I am troubled and concerned with the content of this report, which 
is authored by a Presidential task force, but does not seem to be 
supported or even acknowledged by the President. Mr. Chairman, 
considering the amount of research that has been previously undertaken 
on this issue regarding--the economic, legal, social and political 
aspects--the shortness and superficiality of this document should give 
all of us reason to be concerned.
    In comparison to previous efforts that offered broader analysis and 
more thorough research on the complexity of the issue, this latest 
iteration falls considerably short. The US-Puerto Rico Commission on 
the Status of Puerto Rico of the 1960's or the 1980's hearings chaired 
by then U.S. Senator Bennett Johnston were examples of the type of 
approach that the President needed from this task force in order to 
have all the facts at hand.
    To get an idea on the difference of these approaches, just compare 
the output of the 60's effort and then compare it to this report. 
United States government was so committed to that initiative that the 
members of that Commission were appointed by the President of the 
United States, the President of the U.S. Senate, the Speaker of the 
U.S. House of Representatives and the political parties in Puerto Rico.
    The current report seems to ignore legal interpretations, totally 
dismiss any economic argument and appears to speculate on issues which 
seem to only serve to create anxiety or even fear. The findings of this 
report on matters such as citizenship are extremely troubling. They 
extend far beyond the Puerto Rican community.
    They could have huge legal ramifications for immigrants who have 
become citizens as well as U.S. citizens who are sons and daughters of 
foreign born nationals. Given the recent protests across the country to 
punitive immigration policy initiatives, this report sends the wrong 
type of message to our nation's immigrant community.
    I believe that paramount to this debate is fairness. In examining 
these issues once again, the highest priority should be given to what 
the people of Puerto Rico want and not to stack the deck to reach a 
predetermined outcome. Our efforts must not penalize nor favor one 
option over the other. We should allow Puerto Ricans to express their 
aspirations in a democratic manner.
    Mr. Chairman I appreciate the time you have granted me to share my 
thoughts on this important issue. This is, after all, a very sensitive 
and highly complicated issue that needs to be pondered seriously and 
competently. I look forward to working with you and the Members of the 
Resources Committee in providing the people of Puerto Rico a just and 
unbiased approach that guarantees a true expression of their self 
determination.
                                 ______
                                 
    Ms. Velazquez. Thank you. Jose, I know that you read 
English better than I do, but let me tell you that you have got 
to go back and read the language of this bill, of the Duncan-
Velazquez bill. We do not, we do not define any of the 
political options. That is what we provide is a mechanism for 
the people of Puerto Rico to create a Constitutional 
convention, and for them to define their options. We are not 
defining our options.
    You know we love to say--and on this one I agree with the 
Republicans--local people know better. Locality. Local 
governments know better. So the people in Puerto Rico they know 
better, and a proper way to Democratize this process is by 
providing the right to self-determination by providing a 
mechanism that would allow for everyone in Puerto Rico, all the 
political parties to define what option, and then to come here 
to Congress, but I would like to say and I know that some of 
the members here previously made a statement to say how 
disappointed they were that the Governor of Puerto Rico was not 
here.
    Let me tell you that I am more disappointed that the co-
chair of the President's Task Force representing the President 
is not here today because after all he is the co-chair 
representing the President, and to a question that I asked Mr. 
Marshall where I pointed out to him that this Task Force was 
basically making it possible for the statehood to be the 
formula. He said clearly that they do not support any political 
option for Puerto Rico.
    However, I would like to enter into the record a news 
article that came out in Puerto Rico on July 28, 2004, that 
says that a White House official expressed support for 
statehood for Puerto Rico, at an event Tuesday in which 
thousands commemorated the 147th anniversary of the birth of 
pro-statehood leader Jose San Sabosa. Juan Barrales, head of 
the White House office of intergovernmental affairs said that 
he would like to see 51 stars on the U.S. flag.
    That is immoral because it is the responsibility of the 
Task Force to be objective in their recommendations and in 
their research. I would love for him to see that he goes to 
Puerto Rico and conduct public hearings or he should not be in 
the business of promoting a political option for the people of 
Puerto Rico. Thank you, Mr. Chairman.
    The Chairman. Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman. I think Ms. Velazquez 
and I can agree on this point, and that is that this has become 
polarized politically. She accurately pointed out that some of 
the people on the commission favor statehood, and that puts 
them in the opposing camp of the estarisdas from the populares, 
but the fact is the estarisdas are looked upon as being 
Republicans, and populares as Democrats.
    I can assure you I am a Democrat, but what we are talking 
about here is really a definition, and if you say that you 
ought to let self-determination determine what we decide on, I 
can guarantee you as Mr. Serrano said if you put the question 
to my constituents in Rhode Island and said to them, they could 
have all the same entitlements as every other citizen in 
America, but they do not have to pay taxes, I can guarantee you 
my state would say that sounds pretty good to me, but that is 
not a Constitutional option. That is again under the idea of 
best of both worlds. I would love to have the best of both 
worlds, but that unfortunately is not a practical option.
    If it is a matter of well this person represents this side, 
I mean we can both play that game. I mean Mr. Dalmau has 
acknowledged Mr. Cooper's report, and Mr. Cooper was a 
consultant for the current Governor. I am not going to impugn 
Mr. Cooper's reputation just because he happens to work for the 
Governor, and he is paid by the Governor who is a populares.
    Mrs. Kirkpatrick worked on her Op-Ed with Ken Adelman, who 
is again a public relations counselor for the Governor. I am 
not going to impugn his integrity. This is not about tit for 
tat. You know, who is this, who is that. It is about us 
responding to a very simple question and that is: There are 
four million American citizens, and they are American citizens, 
whether they have the same vote on the island as they would on 
the mainland? The fact is, they would not.
    I would ask former Governor Rossello if he could talk a 
little bit more about how the politics and the polarization has 
colored the real question of Constitutionality.
    Senator Rossello. Thank you, Congressman Kennedy. I think 
you have seen here an inkling of how passionate this issue is 
with Puerto Ricans, and it is passionate maybe in the same 
sense that an issue that has been discussed here slavery was 
for many of the states at a different historical time.
    You will recall that during that debate on slavery some of 
the issues that are being brought up here were brought up. For 
example, the theory of nullification of Federal law by states. 
That was brought up by South Carolina. It is contained now in 
the Popular Party proposal. If we look in history, we see this 
game being played out, and one of the things that is obvious 
from the specific historical thread that pertains to Puerto 
Rico is that for 108 years we have been discussing this when we 
have to agree that inevitable action has to occur by the entity 
that has the authority and the power.
    It is not that I like it or it is not that I gave it to 
them or anybody in Puerto Rico gave it to them, but the 
Congress under the Constitution and specifically as is allowed 
in international law by the treaty that ceded Puerto Rico to 
the United States places a responsibility on Congress, and if 
there is one thing, one point that I want to make, is look at 
all the differences.
    Yes, understand the passion behind them, but do not shirk 
your responsibility. It is squarely placed on the Congress, and 
so unless we are willing to go 108 years again, I urge 
Congress, I urge this committee to act and to finish finally 
what has been going on too long because Puerto Rico has the 
dubious honor of being the territory that has been a territory 
for longer than any other territory in U.S. history, surpassing 
Oklahoma that was a territory for 104 years. Puerto Rico is now 
108 years a U.S. territory without a final decision and 
definition.
    The Chairman. Thank you. The gentleman's time has expired. 
I want to thank this panel for your testimony, and for 
answering questions. Obviously this has I think been very 
educational for the members of the Committee. I am going to 
dismiss this panel.
    Panel III is our final panel. We are fortunate to have with 
us today two highly esteemed leaders from Puerto Rico who know 
the history of this issue extremely well, and also some of the 
fundamental Constitutional debates that continue today. If I 
could have you just stand and raise your right hand.
    [Witnesses sworn.]
    The Chairman. Thank you very much. Let the record show that 
they both answered in the affirmative. I would now like to 
recognize Mr. Rafael Hernandez Colon who is the former Governor 
of Puerto Rico and past President of the PDP. Mr. Colon, if you 
are ready, you can begin your testimony. Stand for just a 
second. If we can have order in the Committee, I am having a 
difficult time hearing up here. Thank you. Mr. Colon.

STATEMENT OF RAFAEL HERNANDEZ COLON, FORMER GOVERNOR OF PUERTO 
      RICO, PAST PRESIDENT OF THE POPULAR DEMOCRATIC PARTY

    Mr. Colon. Mr. Chairman, distinguished members of the 
Committee, the report by the President's Task Force on Puerto 
Rico's Status denies self-determination to the people of Puerto 
Rico. The strategy consists of the meaning, the dignity and 
Constitutional integrity of commonwealth in the report by 
characterizing it as a territory under the plenary powers of 
Congress by which Congress can deprive Puerto Rico not only of 
its Constitution, but even of American citizenship.
    The compact through which we entered into the commonwealth 
relationship is debased by proclamation as a meaningless 
document which does not bind the Congress, and which it need 
not respect under the Constitution of the United States. Under 
this premise, the Task Force would provide for a federally 
sanctioned plebiscite in which the people of Puerto Rico will 
be asked to state whether they wish to remain a territory 
subject to the will of Congress or to pursue a Constitutionally 
viable path toward a permanent nonterritorial status with the 
United States.
    It is obvious that the Popular Democratic Party, which in 
1950 led the people of Puerto Rico to accept the congressional 
proposal in Public Law 600 to end colonialism through a compact 
under which we would have the same Constitutional sovereignty 
as the state of the union, and which would bind the Congress to 
exercise its powers over Puerto Rico under the terms of the 
Federal Relations Act. The Popular Democratic Party cannot 
participate and vote in such a referendum or plebiscite.
    It is obvious that the Popular Democratic Party cannot be a 
part of this when we consider that the party assisted the U.S. 
delegation in 1953 when it moved the U.N. to strike Puerto Rico 
from the roster of colonial peoples because it had achieved a 
noncolonial status through the legally binding compact of 
commonwealth. It is all the more obvious that the PPD, which 
has defended the Constitutional validity of commonwealth in 
every plebiscite or referendum held in Puerto Rico from 1950 to 
this day, that we cannot vote for a proposition which would 
deprive Puerto Ricans of all the political rights they acquired 
under the compact.
    The petty political maneuver of this report is crass and 
repelling. You simply cannot deprive half of the people of 
Puerto Rico of their right to vote by defining the proposition 
in the plebiscite for self-determination in such a way as to 
make voting for it a denial of the legal and Democratic 
principles under which commonwealth stands.
    The report is so partisan, biased, superficial and ill 
founded that it does a grave disservice to the United States 
and to Puerto Rico. In order to characterize Puerto Rico's 
economy under the plenary powers of Congress, it blatantly 
ignores Federal court decisions under local applications of 
Federal laws and the position of the U.S. on this matter before 
the United Nations in 1953.
    The White House Task Force characterizing the commonwealth 
as a territory under the plenary powers of Congress in effect 
says that the United States lied to the United Nations when it 
moved the general assembly to accept the cessation memorandum, 
and because Puerto Rico had achieved the status of an 
autonomous political entity.
    In the matter of definitions, and I believe they are very 
important, Mr. Chairman, and we have heard a lot of talk about 
here which stems from political positions as to what is a 
colony, and they referred to colonies and slaveries. With 
regards to this matter, we have one authority to which the 
United States it subscribed under a treaty with just the 
supreme law of this land, and that is the United Nations, and 
the United States submitted to the United Nations for 
determination that Puerto Rico had ceased to be a colony, and 
the U.N. so determined in 1953. As for definitions of 
colonialism, we stand with the definition of the United Nations 
in 1953 by the proposal of the United States.
    Now, if we are going to say that the United States lied 
then to the United Nations, then I have to say that in leaving 
the world as the only super power, the U.S. requires more than 
economic or military power. It also requires moral legitimacy. 
The report of the White House Task Force on Puerto Rico is a 
step down the slippery slope of the justification of policy 
through falsehoods. This report will live in infamy. Thank you, 
sir.
    [The prepared statement of Mr. Colon follows:]

          Statement of The Honorable Rafael Hernandez Colon, 
               Governor of Puerto Rico, 1973-76; 1985-92

    The Report by the President's Task Force on Puerto Rico's status 
denies self-determination to the people of Puerto Rico. The strategy 
consists of demeaning the dignity and constitutional integrity of 
commonwealth in the report by characterizing it as a territory under 
the plenary powers of Congress, by which Congress can deprive Puerto 
Rico not only of its Constitution but even of American citizenship. The 
compact through which we entered into the commonwealth relationship is 
debased by proclamation as a meaningless document which does not bind 
the Congress and which it need not respect under the Constitution of 
the United States.
    Under this premise the Task Force would provide for a Federally 
sanctioned plebiscite in which the people of Puerto Rico will be asked 
to state ``whether they wish to remain a territory subject to the will 
of Congress or to pursue a constitutionally viable path toward a 
permanent non territorial status with the United States''.
    It is obvious that the Popular Democratic Party which in 1950 lead 
the people of Puerto Rico to accept a Congressional proposal--Public 
Law 600--to end colonialism through a compact under which we would have 
the same constitutional sovereignty as a state of the union and which 
would bind the Congress to exercise its powers over Puerto Rico under 
the terms of the Federal Relations act, cannot participate in such a 
plebiscite.
    It is obvious that the PDP cannot be a part of this when we 
consider that the Party assisted the U.S. delegation in 1953 when it 
moved the U. N. to strike Puerto Rico from the roster of colonial 
peoples because it had achieved a non colonial status through the 
legally binding compact of Commonwealth.
    It is all the more obvious that PDP which has defended the 
constitutional validity of Commonwealth in every plebiscite or 
referendum held in Puerto Rico from 1950 to this day, cannot vote for a 
proposition which would deprive Puerto Ricans of all the political 
rights they acquired under the compact.
    The petty political maneuver of th is Report is crass and 
repelling. You simply cannot deprive half of the people of Puerto Rico 
of their right to vote by defining the proposition in the plebiscite 
for self-determination in such a way as to make voting for it a denial 
of the legal and democratic principles under which Commonwealth stands.
    Just to get a sense of the monstrosity of the proposition lets 
analyze the statement in the report that Congress under Commonwealth 
may ``determine the island's governmental structure by statute as it 
has done for Guam or the Virgin Islands''. In other words that Congress 
can repeal the Constitution enacted by the people of Puerto Rico and 
provide for our governance through a new organic act. For instance a 
new Foraker Act such as the one it approved in 1900 where we had no 
U.S. citizenship, the Governor and the principal cabinet officers were 
appointed by the President of the United States, where the Upper House 
was an Executive Council appointed by the President, and only the House 
of Representatives was elected by the people.
    Can we take this fear tactic seriously? Not only because it is 
politically implausible, but also because it is legally impermissible 
to undo the constituent act of Puerto Rican voters who framed our 
Constitution and because it would deprive our people of their right to 
elect their senators and their governor. From either point of view, 
such a proposition is absolutely ridiculous, absurd, and outrageous.
    The Supreme Court of the United States has affirmed in Rodriguez v. 
Popular Democratic Party, 417 U.S. 1(1982), that the voting rights 
which Puerto Ricans enjoy to elect their Governor, Senators, and 
Representatives are protected by the Constitution of the United States. 
What kind of advise did this Presidential Task Force have which allowed 
them to in effect affirm that Congress can take away our voting rights?
    The Report is so partisan, biased, superficial, and ill founded 
that it does a grave disservice to the United States and to Puerto 
Rico. In order to characterize Puerto Rico as a colony under the 
plenary powers of Congress, it blatantly ignores Federal Court 
decisions on the local application of federal laws and the position of 
the U.S. on this matter before the United Nations in 1953.
    Since the early days of the Republic, the Supreme Court of the 
United States has distinguished between the states and the territories 
in the application of federal laws. In the case of states, Congress 
cannot legislate directly on local matters because the states are 
sovereign political entities. With regards to the territories, Congress 
can legislate directly on local matters because they are not sovereign 
entities. They are political creatures of Congress governed under 
Organic Acts approved by Congress. The Task Force proclaims that Puerto 
Rico is a territory and therefore ``Congress could legislate directly 
on local matters''.
    So it was in Puerto Rico from 1900 to 1952. During that period we 
were first governed under the Foraker Act and as of 1917 under the 
Jones Act. We were not sovereign within the U.S. constitutional system. 
All of this changed when Congress entered into a compact with the 
people of Puerto Rico in 1952. Through this compact we, not the 
Congress, created the Commonwealth of Puerto Rico. The Commonwealth has 
been explicitly recognized as a sovereign entity like the states of the 
Union by the Supreme Court of the United States. In Examining Board of 
Engineers, Architects and Surveyors v. Flores de Otero, 486 U.S. 572, 
597 (1976) the Supreme Court of the United States said that, under the 
compact: ``Congress relinquished its control over the organization of 
the local affairs of the island and granted Puerto Rico a measure of 
autonomy comparable to that possessed by the states''.
    The laws of Congress do not apply locally in Puerto Rico because 
the Commonwealth is, within the U.S. constitutional system, a sovereign 
entity. There is a long line of federal cases extending back to 1953 
which the Task Force has blithely ignored. These federal cases starting 
with Mora v. Mejias, 206 F 2d. 377, 387 (1st. Cir. 1953) leading up to 
Romero v. United States, 38 F 3d. 1204, 1208 (Fed. Cir. 1994), have 
explicitly ruled that Puerto Rico is no longer a territory and the laws 
of Congress are no longer locally applicable in Puerto Rico since we 
have to be treated as a state.
    Puerto Rico's relationship by compact to the United States is a 
bilateral legally binding relationship protected by the U.S. 
Constitution. This proposition is wrongfully denied by the White House 
Report on the status of Puerto Rico.
    The binding nature of the compact must be determined by a 
functional and historical analysis of the territorial power vested in 
Congress. This analysis bears out that Congress can divest itself of 
the territorial power by enabling territories to enact their own 
Constitution and join the Union, by granting independence to the 
territory, or by incorporating the territory and thus triggering the 
constitutional limitations on its power. And the same by compact as was 
the case of the Northwest territories and the Ordinance enacted by the 
First Congress under the U.S. Constitution in 1789.
    The use of compacts was very frequent during the first century of 
American history. Compacts were made among the States and by the States 
with Congress. Indeed a congressional practice may be said to have 
developed qualifying admissions to statehood through compacts.
    The case of Green v. Biddle, 8 Wh. 1, 5 L. Ed. 547, decided in 1823 
is an excellent example of the use of compacts in early American 
history to regulate relations among sovereigns. When Virginia agreed to 
the formation of Kentucky from within her territory, a compact was 
entered between the inchoate State of Kentucky and Virginia regarding 
the applicability of Virginia law to interests in land in Kentucky. 
Kentucky passed an act inconsistent with the compact. It was challenged 
in the courts. To defend the action taken by Kentucky it was argued to 
the Supreme Court that the compact was invalid because it surrendered 
rights of sovereignty which were inalienable. This is the same argument 
used to challenge the validity of the Commonwealth compact.
    The Supreme Court said that this contention ``rests upon a 
principle, the correctness of which remains to be proved. It is 
practically opposed by the theory of all limited governments, and 
especially of those which constitute this Union. The powers of 
legislation granted to the Government of the United States, as well as 
to the several State governments, by their respective constitutions, 
are all limited. The article of the Constitution of the United States, 
involved in this very case, is one, amongst many others, of the 
restrictions alluded to. If it be answered that these limitations were 
imposed by the people in their sovereign character, it may be asked, 
was not the acceptance of the compact the act of the people of Kentucky 
in their sovereign character? If then, the principles contended for by 
Kentucky be a sound one, we can only say that it is one of a most 
alarming nature, but which, it is believed, cannot be seriously 
entertained by any American statesman or jurist''. 5 L. Ed. 569. In a 
similar fashion the contention that the compact with the people of 
Puerto Rico is not binding is one that cannot be seriously entertained.
    It also was argued to the Supreme Court that the compact did not 
come within the constitutional prohibition to impair the obligation of 
contracts. To this the Supreme Court answered: ``A slight effort to 
prove that a compact between two States is not a case within the 
meaning of the Constitution, which speaks of contracts, was made by the 
counsel for the tenant, but was not much pressed. If we attend to the 
definition of a contract, which is the agreement of two or more 
parties, to do, or not to do, certain acts, it must be obvious that the 
propositions offered, and agreed to by Virginia, being accepted and 
ratified by Kentucky, is a contract. In fact, the terms compact and 
contract are synonymous; and in Fletcher v. Peek, the Chief Justice 
defines a contract to be a compact between two or more parties. The 
principles laid down in that case are, that the Constitution of the 
United States embraces all contracts, executed or executory, whether 
between individuals, or between a State and individuals; and that a 
State has no more power to impair an obligation into which she herself 
has entered, than she can the contracts of individuals. Kentucky, 
therefore, being a party to the compact which guaranteed to claimants 
of land lying in that State, under titles derived from Virginia, their 
rights as they existed under the laws of Virginia, was incompetent to 
violate that compact, by passing any law which rendered those rights 
less valid and secure''. 5 L. Ed. 570.
    The use of compacts during the first century of American history to 
regulate the relationship between Congress and territory, between 
Congress and States, and between States and other States bears out that 
the concept of compact is a hallowed institution of American 
constitutional heritage, firmly rooted in legislative practice and in 
the precedents of the courts.
    The Task Forces' impudent falsehood on the juridical nature of 
Commonwealth is not the only infirmity of the document. The Report 
flies in the face of the assertions made by the United States in the 
Cessation Memorandum it presented to the United Nations General 
Assembly in 1953. Under the treaty creating the U.N., those members 
that have colonies must report annually to the U. N. on the advances 
made in the colonies towards self-government. Thus, the United States 
undertook through treaty to develop a full measure of self-government 
for Puerto Rico. Commonwealth was one way under the treaty to reach 
self-government. The U. N. Treaty is the supreme law of the land on the 
same footing of supremacy as the Constitution. The Task Force Report 
denies that this nation had the power to discharge its treaty 
obligations by entering into a binding compact for self-government for 
Puerto Rico. If the United Nations recognizes Commonwealth as a status 
of self-government it must be because the member nations have sovereign 
powers to affect such an association with dependent territories. Will 
the United States be the exception? Who so mighty that its sole power 
supports the entire apparatus of the United Nations and yet so weak 
that it cannot comply with an obligation under the charter?
    The U.S. filed reports on the advancement to self government for 
Puerto Rico up to 1952. In 1953 it presented a Cessation Memorandum 
informing the General Assembly that it would cease submitting such 
information because Puerto Rico had become a Commonwealth.
    The Cessation Memorandum noted that Public Law 600 had expressly 
recognized the principle of government by consent, and declaring that 
it was ``adopted in the nature of a compact'', required that it be 
submitted to the voters of Puerto Rico in an island-wide referendum for 
acceptance or rejection. The Cessation Memorandum also noted that 
Public Law 447, ``in its preambular provisions, recalled that the 
[Public Law 600] `was adopted by the Congress as a compact with the 
people of Puerto Rico....'''.
    In describing the principal features of the Constitution of the 
Commonwealth, the Cessation Memorandum noted that the new Constitution, 
as specifically approved by Congress, expressly provides that it 
``shall be exercised in accordance with [the people's] will, within the 
terms of the compact agreed upon between the people of Puerto Rico and 
the United States of America''. The Memorandum also advised the United 
Nations that the Puerto Rico Legislature had been given ``full 
legislative authority with respect to local matters''.
    Under the heading ``Present Status of Puerto Rico'', the Cessation 
Memorandum declared:
        By the various actions taken by the Congress and the people of 
        Puerto Rico, Congress had agreed that Puerto Rico shall have, 
        under that Constitution, freedom from control or interference 
        by the Congress in respect of internal government and 
        administration, subject only to compliance with applicable 
        provisions of the Federal Constitution, the Puerto Rican 
        Federal Relations Act and the acts of Congress authorizing and 
        approving the Constitution, as may be interpreted by judicial 
        decision.
    Finally, Mason Sears, the United States Representative to the 
Committee on Information from Non-Self-Governing Territories, explained 
the legal significance under American law of the fact that Puerto 
Rico's Constitution was the result of a compact:
        A most interesting feature of the new constitution is that it 
        was entered into in the nature of a compact between the 
        American and the Puerto Rican people. A compact, as you know, 
        is far stronger than a treaty. A treaty usually can be 
        denounced by either side, whereas a compact cannot be denounced 
        by either party unless it has the permission of the other.
    Relaying on these representations made by the United States, the 
General Assembly approved Resolution 748, VIII, approving the cessation 
of information on Puerto Rico stating that:
        ``... in the framework of their Constitution and of the compact 
        agreed upon with the United States of America, the people of 
        the Commonwealth of Puerto Rico have been invested with 
        attributes of political sovereignty which clearly identify the 
        status of self-government attained by the Puerto Rican people 
        as that of an autonomous political entity''.
    The White House Task Force report characterizing the Commonwealth 
as a territory under the plenary powers of Congress in effect says that 
the United States lied to the United Nations when it moved the General 
Assembly to accept the cessation of information on the development of 
Puerto Rico towards self-government because, through the compact, we 
had achieved the status of an autonomous political entity.
    In leading the world as the only super power, the U.S. requires 
more than economic or military power. It also requires moral 
legitimacy. The Report of White House task force on Puerto Rico is a 
step down the slippery slope of the justification of policy through 
falsehoods. This Report will live in infamy.
                                 ______
                                 
    The Chairman. Thank you. Our final witness today is Mr. 
Carlos Romero-Barcelo, the former Governor of Puerto Rico, and 
a gentleman the members will recall also served on this 
committee as Resident Commissioner from the 103rd through the 
106th Congress. Carlos, welcome back to the Committee.

   STATEMENT OF CARLOS A. ROMERO-BARCELO, FORMER GOVERNOR OF 
             PUERTO RICO, FORMER MEMBER OF CONGRESS

    Mr. Romero-Barcelo. Thank you, Mr. Chairman. Thank you very 
much and thank you, Mr. Fortuno and to Mr. Kennedy and Ms. 
Velazquez and Mr. Serrano for being here with us today.
    The stated purpose of this hearing is to consider the 
Report of the President's Task Force on Puerto Rico's Status. 
The report accurately states Federal law governing the current 
status of Puerto Rico as well as the options for an ultimate 
political status recognized under Federal law as fully 
Democratic, permanent and not subject to the power of Congress 
over territories in the United States.
    Congress now should move forward with legislation to 
implement the recommendations of the report in the manner it 
deems necessary and proper. It is my hope that the Committee 
will be able to take up the Fortuno-Serrano bill, H.R. 4867, 
for consideration. Having said that, what is left for me is to 
respond to the desperate attempts being made to distract and 
confuse the public and the Congress about the Task Force 
report.
    Those who support the existing political and economic 
relationship between the U.S. citizens of Puerto Rico and the 
rest of the Nation cannot feel comfortable when the 
relationship is discussed from the point of view of democracy. 
Why? Because the existing relationship called commonwealth 
deprives the Puerto Ricans--or if you prefer the four million 
U.S. citizens who live in Puerto Rico--of their right to vote 
for President and Vice President. It also deprives them of our 
right to elect Representatives and Senators in the nation's 
Congress.
    Pursuant to the Constitution of the United States, in order 
to be able to vote for President and Vice President, you can do 
it by voting for electorates who are apportioned among the 
states pursuant to a number of Representatives which the state 
may elect plus the two Senators which every state has a right 
to elect. A special Constitutional amendment was passed in 
order to allow U.S. citizens residing in Washington to vote for 
President and Vice President.
    However, all U.S. citizens who reside in a territory or 
possession of the United States are not allowed to vote for 
President and Vice President. With respect to the U.S. Congress 
only U.S. citizens residing in the state of the union may vote 
to elect Senators and Representatives to Congress. There is no 
way in which Congress may authorize U.S. citizens in the 
territories or possessions to vote in congressional elections.
    It is for that reason that the so-called commonwealth 
relationship is undemocratic. To maintain it erodes and 
undermines the credibility and sincerity of the expressed 
desires of the President and this Congress to bring freedom and 
democracy to all peoples in the world. How can the President 
and Congress express support for all efforts to bring democracy 
to foreign countries such as Cuba, Iraq, Afghanistan and others 
while it maintain a relationship with four million of its 
citizens in the nation's front yard in the Caribbean which 
denies them of their right to vote for President and to elect 
the representation to Congress?
    To look for excuses not to put an end to such an 
undemocratic relationship as now exists is a disservice to the 
United States and country, to everything that our nation has 
stood for and fought for. As we speak, thousands of our men and 
women including Puerto Ricans are risking their lives and are 
dying to bring democracy to Iraq and Afghanistan.
    Congress has already authorized hundreds of millions of 
dollars to finance the armed forces in the war against tyranny. 
How then can Congress look for excuses not to promote a 
solution to the undemocratic disenfranchisement of four million 
of its citizens?
    Those who support commonwealth, like my fellow former 
Governor Hernandez Colon, would have you support the continued 
disenfranchisement of four million U.S. citizens in Puerto 
Rico, yet he sits here and complains. He says that this bill or 
the bill that is for Senate would deprive 50 percent of the 
people of their right to vote, but he wants to deprive 100 
percent of the people in Puerto Rico of their right to vote.
    They complain and criticize the report by the President's 
Task Force as a permanent, fully democratic, nonterritorial 
status. Only statehood and independence are considered as 
permanent, fully Democratic, nonterritorial options. 
Unfortunately for those who claim they believe in and support 
democracy, but want to remain disenfranchised U.S. citizens, 
the report's recommendation accurately states the law and 
correctly interprets the existing relation.
    If anyone believes, as commonwealth supporters believe, 
that the right to vote for President and for representation in 
the nation's Congress is not important, how can they claim to 
believe in democracy? Obviously they are confused or else they 
do not understand what democracy is all about. If they do 
understand, then they are lying, and trying to mislead the 
people.
    Congress cannot allow itself to be misled into a conspiracy 
to lie to the U.S. citizens in Puerto Rico by pretending that 
commonwealth is not undemocratic. If Congress were to allow the 
commonwealth supporters to continue misleading Puerto Rico into 
believing that disenfranchisement is acceptable in our 
Democratic system, they would be discrediting and undermining 
the credibility of the United States.
    As I told President Clinton in a meeting that was held with 
Members of Congress, his cabinet, his White House staff and 
U.S. Ambassadors and the different countries in North and 
Central America, prior to America's summit meeting in Miami, I 
said, Mr. President, to preach democracy throughout the world 
while ignoring the disenfranchisement of four million U.S. 
citizens in Puerto Rico is tantamount to preaching morality in 
your underwear.
    Millions of people throughout the world have risked their 
lives and died and continue to risk their lives and die in 
order to reach U.S. soil. They are looking for better 
opportunities and a better life. Some risk their lives in 
rickety and makeshift boats on stormy seas. Others cross the 
desert on foot or are jammed and suffocating in trucks or 
trailers. Many of them disappear or die, but still they keep 
coming.
    Do you think that they would risk their lives to come to 
the United States if the U.S. were not a symbol of freedom and 
democracy throughout the world? Do you think of those who now 
come would do so if we lived under a dictatorship in a fascist 
or communist regime? Of course not. They see our nation as a 
beacon of hope and opportunity. They see our nation as an 
escape from oppression and despair.
    We are not debating as to how and when all those who are 
now living, working and raising their families in the United 
States should be allowed to become U.S. citizens or not so that 
they may fully enjoy the blessings of democracy. Is Congress 
then to look the other way or look for excuses to deny Puerto 
Ricans who are native born U.S. citizens since 1917 of the 
right to vote, and the right to representation in their 
nation's Congress? No. Too many Congresses and too many 
Presidents have looked the other way for too long. We are now 
in the 21st century, where businesses are being reduced ever 
more by faster and more efficient methods of audiovisual 
communication. We now know almost instantly what is happening 
on the other side of the globe.
    The President's Task Force on Puerto Rico is a product of 
the concern of a Democratic President who initiated it, and the 
concern of a Republican President who accepted and amended the 
Executive Order, and appointed the members of the Task Force. 
It is a bipartisan effort and concern. The bill was filed by 
Republican Luis Fortuno and Democrat Jose Serrano and yet so 
far been cosigned by 100 Republicans and Democratic Members of 
Congress.
    If we consider the issue of Puerto Rico's status from the 
point of view as to how Congress can live by its statements and 
strengthen its efforts to bring freedom and democracy to those 
that are still not enjoying its blessings, the answer is 
obvious, by implementing the recommendations of the President's 
Task Force and supporting H.R. 4867. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Romero-Barcelo follows:]

           Statement of The Honorable Carlos Romero-Barcelo, 
                   Governor of Puerto Rico 1977-1985

    Mr. Chairman, thank you for inviting me to testify. With your 
permission I would like to submit my written statement for the record 
and present a brief summary at this time.
    Mr. Chairman, the stated purpose of this hearing is to consider the 
Report of the President's Task Force on Puerto Rico's Status. In my 
view the report accurately states federal law governing the current 
status of Puerto Rico, as well as the options for an ultimate political 
status recognized under federal law as fully democratic, permanent, and 
not subject to the power of Congress over a territory of the United 
States.
    Congress now should move forward with legislation to implement the 
recommendations of the report in the manner it deems necessary and 
proper. It is my hope the Committee will be able to take up the 
Fortuno-Serrano bill (H.R. 4867) for consideration.
    Having said that, what is left for me is to respond to the 
desperate attempts being made to distract and confuse the public and 
the Congress about the Task Force report.
    In this respect, my colleague at the witness table today, former 
governor Hernandez Colon, did us all a service by attacking the Task 
Force report in a series of essays defending the commonwealth party's 
doctrine of separate nationhood within the American federal union.
    To pierce through the murky haze of commonwealth party ideology and 
semantics, Congress really needs to understand what the current 
Governor and leaders of his party are actually saying:
    <bullet>  There is no territorial status under the U.S. 
Constitution, The constitution merely grants Congress the power to 
govern a territory.
    <bullet>  The power of Congress to govern territories is conferred 
by the territorial clause, in Article IV, Section 3 but they allege 
that Congress also can govern territories outside the scope of the 
territorial clause, as if that provision were not there, or were 
meaningless.
    <bullet>  That Congress can allegedly establish territorial 
governments by federal statute and then enter into agreements or 
``compacts'' with those governments in which congress irrevocably cedes 
to the territorial government, the sovereign powers conferred to 
Congress by the U.S. Constitution.
    <bullet>  That such agreements allegedly become part of the federal 
constitution itself, and place the territory, the local constitution, 
the operations of the commonwealth government and the compact beyond 
the reach of a future Congress.
    <bullet>  That Federal law thereafter can allegedly be made 
applicable to the territory, only if the territory has consented in the 
compact, or if the territory subsequently gives its consent.
    <bullet>  That the Northwest Ordinance model of territorial 
incorporation and admission to the union allegedly establishes the 
precedent for a compact to establish a permanent political union under 
the U.S. Constitution with a territory, that will have the status of a 
sovereign nation-state.
    <bullet>  That allegedly all powers retained by the federal 
government under such a compact are limited to those delegated by the 
compact, and that all powers not delegated to the federal government, 
are reserved to the territorial nation-state.
    <bullet>  That such a compact was allegedly created in 1952 upon 
adoption of a local constitution approved by Congress, and therefore, 
Puerto Rico is allegedly no longer a territory.
    <bullet>  That alternatively, if the 1953 constitution did not 
perfect Puerto Rico's non-territory status, there is no need to make 
the more difficult choice between statehood and separate nationhood, 
because Congress still allegedly has the option of entering a permanent 
non-territory compact with the ``nation'' of Puerto Rico.
    <bullet>  Under the alleged ``compact'' the commonwealth advocates 
promise the people that the local government could allegedly conduct 
its own foreign policy and trade relations with the international 
community, and the U.S. would guarantee U.S. citizenship and defend the 
``commonwealth'' in perpetuity, in a relationship where there would be 
dual national citizenship and first allegiance to Puerto Rico.
    I could go on, but you get the point. The commonwealth party 
leaders are talking about a confederation with a local power of 
nullification. The bilateral compact they espouse is based on a legal 
theory under which, the allocation of powers under the Constitution to 
govern territories, is changed permanently by an agreement approved by 
statute, without going through the amendment process under Article V of 
our Constitution.
    No member of this Committee would ever vote for such a status 
formula because it is unconstitutional and legally flawed. Even if it 
were legally feasible, it will never be accepted by Congress as a 
matter of federal policy. Indeed, in one from or another, it has been 
presented to Congress over 10 times in the last fifty years, and it has 
always been ignored or rejected by Congress. In 1998 it was voted down 
by this Committee.
    Congress will never create a nation-within-a-nation; a separatist 
regime exempt from supremacy of federal law; with U.S. citizenship but 
divided allegiance; with U.S. protection, but separate foreign 
relations powers; with federal subsidies but exemption from federal 
taxation; with separatist rights instead of equal rights. In other 
words, confederacy instead of federalism that is--Apartheid.
    That is not the solution to the current undemocratic status under 
which the national law which apply in Puerto Rico are made by a 
Congress in which the U.S. citizens of the territory are not 
represented. The solution to that problem is statehood or separate 
nationhood, not separate nationhood within the American political 
union.
    Yet, the Governor and the commonwealth party leadership endorse a 
bill that has been introduced in Congress to authorize a constitutional 
convention, in order that the commonwealth party may present its failed 
status formula to Congress again. This time, at the invitation of 
Congress. But Congress will not pass that bill, because it is as flawed 
as the ``bilateral compact'' allegation of the commonwealth party is.
    The brazen assertions of ``commonwealth'' advocates do not merit, 
but still require rebuttal. Thus, it must be repeated here that if 
Congress could, by statute, or agreement approved by statute, 
permanently enjoin one or all three branches of the federal government 
from exercising the powers conferred to it by the U.S. Constitution; 
that would effectively mean that Congress has the power to amend the 
Constitution by statute. And that is absurd!
    It is a maxim of constitutional interpretation that no provision is 
without a meaning and purpose. This maxim negates the suggestion that 
the territorial clause was not necessary, because an alleged inherent 
power of Congress to govern territories not within a state, is implied.
    As for the Northwest Ordinance, Clause 14 of that seminal 
instrument of territorial policy does employ language of compact, but 
that applies only to the promise of incorporation and admission to 
statehood, not to territorial government. However, even under the 
Northwest Ordinance model, incorporation remains a political question, 
and a statutory ``compact'' for admission to the union is a promise 
that cannot be enforced. It is a promise kept by Congress when 
determined to be in the national interest.
    Enactment of the Northwest Ordinance by Congress did not make its 
articles of incorporation part of the U.S. Constitution, and language 
in early legal rulings cited by Governor Hernandez Colon, to suggest 
elevation of the compact to constitutional equivalence, has been 
overtaken by later Supreme Court rulings. Clause 12 of the Northwest 
Ordinance referred to territorial governments as ``temporary'', by 
their constitutional and political nature, not parties to the articles 
of compact. And even the articles of compact, were subject to 
alteration by amendments to the Articles of Confederation and ``all 
acts and ordinances'' of Congress.
    In short, Governor Hernandez Colon and the leadership of his party 
are fabricating a revisionist theory of the constitutional nature of 
the Commonwealth of Puerto Rico, in a desperate last stand against the 
onslaught of historical truth and legal reason embodied in the Task 
Force report.
    He cites court rulings, concerning vesting of property rights and 
vested legal rights under executed contracts between private parties 
and the federal government, as if these cases were legal precedents for 
vesting of political rights in the body politic of a territory, on the 
statutory policy question of political status.
    The commonwealth advocates claim that the U.S. Constitution gives 
Congress ``flexibility'' in its governing relationship with 
territories, whether it is with uninhabited territory under the 
territorial clause, or under bilateral compacts with Puerto Rico, 
alleged to be a nation in union with the U.S., rather than a state.
    Congress has flexibility in territorial relations only because the 
political status of territories is defined by statutes, and statutes 
can always be amended or repealed. In addition, since the U.S. 
Constitution does not apply of its own force in territories, Congress 
has flexibility to limit the rights and benefits extended to U.S. 
citizens in a territory, who are subject to the laws of the national 
government in which they are not represented.
    Even if Congress by statute granted greater powers of local 
autonomy, it would be a statutory policy that a later Congress could 
alter or end. That is why commonwealth cannot be converted from a non-
permanent form of local government into a permanent status. Permanent 
disenfranchisement and the present undemocratic status under federal 
supremacy is not a solution, and there is no substitute form of consent 
that can ever make the U.S. citizens of Puerto Rico whole, for the lack 
of equal voting rights and voting representation in Congress.
    The former Governor and his party's leadership accuse the U.S. 
Department of Justice under Attorney General Thornburgh of reversing 
sympathetic interpretation of ``mutual consent'' provisions in 
instruments of federal territorial policy. But it was under Attorney 
General Reno that the U.S. Department of Justice confirmed that such 
provisions are unenforceable, and were being used in the territories in 
a way that was ``illusory'' and ``deceptive''.
    Those two words pretty much sum up what needs to be said about the 
local commonwealth party attacks on the Task Force report, as well as 
the five decades of ``enhanced commonwealth'' ideological 
indoctrination, perpetrated on the U.S. citizens of Puerto Rico by the 
commonwealth party.
    That former Governor Hernandez Colon, and his party's leaders, are 
using illusory and deceptive legal arguments to sustain an implausible 
status theory is obvious. The question for the Committee is, why are 
they doing this?
    The answer is that the commonwealth party cannot sustain its very 
existence and its espousal of commonwealth as a political status, 
unless it can convince the U.S. citizens of Puerto Rico, that a local 
power of consent to application of federal law, makes their lack of 
voting rights in national elections and voting representation in 
Congress, not only tolerable, but preferable to equal citizenship under 
statehood.
    That is what is really going on here, and that is why the Task 
Force report so powerfully threatens the commonwealth party elite, and 
causes them to be so extreme and reactionary in condemning the report. 
Thus, the Governor of Puerto Rico has accused the Administration of 
threatening to end U.S. citizenship in Puerto Rico. Yet, no one has 
suggested a loss of U.S. citizenship in the future, except in the 
context of a vote by the residents of the territory favoring 
independence or associated republic status.
    Scare tactics are all part of the reactionary politics of the 
commonwealth party today, They are all part of the illusory and 
deceptive agenda of that party. If I seem harsh, it is because the 
tactics being employed in commonwealth party response to the report are 
based on deception and outright lies.
    The real problem underlying this issue is that the commonwealth 
party based its existence and its credibility with the people on a 
myth. It now must defend that myth, and to do that they must try to 
discredit the truth embodied in the Task Force report. The myth is that 
the language of ``compact'' in the 1950 federal statute authorizing a 
local constitution, means much more than it does.
    The term ``compact'' was borrowed form early American territorial 
policy to add the color of solemnity to the procedure for adoption of a 
local constitution. Because it was not actually a Congressional compact 
in the full tradition of the Northwest Ordinance, it was qualified as 
being ``in the nature of a compact''.
    In any event, the real issue is what the alleged compact entailed. 
It was simply a commitment to a process through which a local 
constitution would be approved in Puerto Rico and submitted to Congress 
for its approval. That is all, and at no point did the U.S. Congress 
agree that approval of the local constitution would make the local 
constitution unalterable, or that Puerto Rico had become a nation-state 
in permanent union with the U.S., subject to a local power of consent 
to application of federal law.
    Indeed, at the time of its approval in 1952, Congress imposed 
amendments to the locally approved constitution that clarified the 
supremacy of federal law and limited amendments to the constitution. In 
addition, the U.S. Supreme Court and lower federal courts have upheld 
application of federal wiretap laws and death penalty laws that in 
effect amended the local constitution without local consent. The 
commonwealth myth has been dispelled time and time again and there is 
less reason than ever for Congress to consider it further.
    Finally, it is my duty to inform the Committee and the public of an 
even more fundamental constitutional problem presented by the tactics 
of the commonwealth party in response to the Task Force report. I am 
referring to the support by the current Governor and his party leaders 
in the Legislative Assembly for H.R. 4963.
    This bill purports to authorize a ``constitutional convention'' in 
Puerto Rico on the status issue. However, Article VII, Section 2, of 
the Constitution of the Commonwealth of Puerto Rico prescribes the 
exclusive procedure for a constitutional convention. A 2/3's vote of 
the legislature and a majority approval by the voters in a referendum 
at the time of a general election are required to call a constitutional 
convention.
    A federal law authorizing a constitutional convention that does not 
comply with Article VII would be a unilateral federal amendment of the 
local constitution. Yet, H.R. 4963 does not contemplate mutual consent 
to the amendment of the local constitution.
    Since the Governor and his party leaders in the legislature took 
oaths of office to uphold the constitution of Puerto Rico, how can they 
support a federal bill that amends the local constitution and calls a 
constitutional convention in violation of Article VII?
    They have staked their honor on the myth, that consent must be 
given to a federal law that amends the local constitution and the so-
called compact it allegedly embodies. Yet they endorse a bill that 
violates their own theory of consent.
    There is no bilateral compact. Commonwealth is undemocratic and 
Congress can unilaterally apply federal law to Puerto Rico. Thus, I 
oppose H.R. 4963 for the simple reason that Congress should not 
intervene in the local constitutional process without a compelling 
federal purpose, and there is no federal purpose underlying H.R. 4963.
    Thus, I urge the Committee to reject H.R. 4963 and implement the 
Task Force report based on H.R. 4967.
                                 ______
                                 
    The Chairman. Thank you. I thank both of you for your 
testimony. I am going to recognize Mr. Fortuno for his 
questions.
    Mr. Fortuno. Thank you, Mr. Chairman, and I join you in 
welcoming these two distinguished former Governors of Puerto 
Rico. We are honored to have both of you here this afternoon 
with us.
    My colleague, Jose Serrano, mentioned something with the 
previous panel having to do with actually having a third 
option. That option being an option that is nonterritorial, 
that is permanent in nature, that would not be statehood or 
independence, but that would be true free association granting 
full sovereignty to that body politics. I have tried and tried 
over and over again publicly and privately to get from the 
commonwealth party a commitment to do that, and I will be the 
first one to be in line to amend this legislation.
    However, as in the past, since they do not like what the 
Justice Department has been stating about commonwealth for the 
last three Administrations including this one, they will refuse 
to move forward and would rather block anything to move along. 
So I just wanted to say that for the record.
    Initially and I mentioned that I wanted to introduce for 
the record last year's legislation. The state legislature tried 
and reached an agreement last year to hold a direct vote on 
this issue. However, the Governor decided to veto it as well. 
If I may, I know we are running short of time, I would like to 
ask former Governor Hernandez Colon a question.
    Governor, with all due respect, since 1952 the commonwealth 
leaders have made more than 15 specific proposals that Congress 
recognize commonwealth as a bilateral compact that cannot be 
altered without the consent of Puerto Rico. Congress has never 
accepted the concept or the defined commonwealth as a permanent 
or nonterritorial status.
    On top of that, the Federal courts have ruled that Puerto 
Rico is a territory, that Federal laws supersede local law and 
that local powers of self-government are limited to matters not 
governed by Federal law, and I just cite a few cases like U.S. 
v. Pinorez, U.S. v. Acostas, Martinez and PDP v. Rodriguez in 
that line.
    Now the Executive Branch has rejected the bilateral 
compact, the nonterritory doctrine of so-called commonwealth in 
the President's Task Force report, yet you insist again that an 
interminable bilateral compact and nonterritory status in the 
Federal system, other than statehood, is available under 
commonwealth.
    You may disagree with Federal law and may even interpret 
some Federal court cases differently than the U.S. Department 
of Justice under three different Administrations, but you have 
failed to secure the status U.S. policy in all three branches 
of the Federal government for 50 years. It reminds me of the 
country western song ``What Part of No Don't You Understand?''
    Let me ask you: Politically, but especially legally 
speaking, do you think it is realistic to continue to tell the 
people of Puerto Rico that nonterritorial commonwealth status 
in the Federal union based on a bilateral compact is still 
feasible under the U.S. Constitution and applicable law?
    Mr. Colon. Yes, Mr. Congressman, and I believe you are 
absolutely wrong in all the expressions that you have just 
made. First of all, I would like to refer you to Law 600 of 
1950. The approval of that law by the people of Puerto Rico, 
their election of delegates, their creation of a Constitution 
under the power of the people of Puerto Rico not delegated by 
Congress, and Law 447 which says explicitly that the Congress 
is approving a compact with the people of Puerto Rico. There 
you have the laws.
    Now, as to the case law, all case law on the local 
application of Federal laws in Puerto Rico since Mora v. Mejias 
have held that Federal laws are not applicable to Puerto Rico 
as if Puerto Rico were a territory like they would apply in the 
District of Columbia because we are a sovereign entity such as 
a state, and three of the cases that you cited Rodriguez which 
I took to the Supreme Court with some other more prominent 
attorneys than I, Calero, Board of Examiners, they all hold 
that Puerto Rico is a sovereign entity like the states.
    It is not an independent country, but it is a sovereign 
entity because it has its own Constitution, and it has a 
compact. So we do not need to come to Congress to approve a 
compact. We have a compact, and that is what I am defending 
here.
    Mr. Fortuno. I will close now, Mr. Chairman, but certainly 
we should be reminded that after the voters in Puerto Rico 
approved the state Constitution this was meant for self-rule, 
internal rule, Congress amended that Constitution, and as we 
recall, it was electorally amended. Two sections were taken 
out, and actually to try to solve the situation, it was taken 
back to the voters to try to make it appears as if indeed the 
voters had full sovereignty over this.
    Had it not been for Congress granting and allowing us for a 
process to have self-rule, some measure of self-rule, that 
would not have happened. For example, we can talk about that 
level of sovereignty that we will aspire to be like a state. I 
would agree with you on that one, but certainly for example 
right now in Puerto Rico there is discussion on the death 
penalty.
    As you all know, there will be a case that will come up, 
and indeed already the U.S. Justice Department has been seeking 
the death penalty in a number of cases. Of course we have a 
system in which 12 men and women decide whether to go along or 
not, but that is occurring today even though our state 
Constitution states otherwise.
    The Chairman. Time has expired. I recognize Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman. It is enormously 
frustrating to hear this debate because again it is all about 
the past. To say that something that was ruled on in 1950 is 
still the law of the land is saying well, the Constitution at 
the time of Dred Scott was the law of the land. That does not 
mean it is currently the law of the land.
    This notion that somehow we can wish something into being 
is really frustrating because you can say what you interpret 
the current situation to be, but as the saying goes if it looks 
like a duck and quacks like a duck, it is a duck, and you can 
say whatever you would like about what you would prefer it to 
be, but it is what the international community has said it is. 
The international community I think has acknowledged that 
commonwealth is not a Constitutional option.
    I would like to ask kind of a yes or no answer from 
Governor Colon, and let me begin by thanking him for endorsing 
my father in 1980 for President. Let me ask him whether or not 
Puerto Ricans are American citizens.
    Mr. Colon. Yes, Puerto Ricans are American citizens. You 
can ask me another question.
    Mr. Kennedy. If Puerto Ricans are American citizens, do 
they not deserve the same rights and responsibilities as every 
other American citizen?
    Mr. Colon. My other question relates to that which is 
whether Puerto Ricans are Americans. We are not Americans. We 
are Puerto Ricans. We are a nation unto ourselves, and when you 
think about the status of Puerto Rico you have to take that 
reality into consideration, and you also have to take into 
consideration economic realities. For instance, we have an 
income, per capita income which is less than half of 
Mississippi.
    Now, we cannot develop an economy, Congressman, on 
earmarks. That is not the way you develop an economy. You 
develop it by creating jobs and permanent jobs. So the policy 
of this Congress established at the beginning of the last 
century of not taxing Puerto Rico has roots in that situation, 
and that difference between the level of economic development 
of the United States and the level of economic development of 
Puerto Rico. So it is directed toward the promotion of that 
growth.
    Mr. Kennedy. Thank you, Governor. I think I just heard you 
say that Puerto Ricans are American citizens, but Puerto Rico 
is a nation unto itself.
    Mr. Colon. Yes.
    Mr. Kennedy. I just want to repeat that. You just said 
Puerto Ricans are American citizens, but they are a nation unto 
themselves.
    Mr. Colon. That is correct.
    Mr. Kennedy. If you want to know the whole problem with 
commonwealth is because you are defining commonwealth as a 
nation unto itself but American citizens. If that is the case, 
then maybe Rhode Island wants to reconsider its relationship 
with the Federal government under the current Constitution. 
Should we not have that same right as Americans in Rhode 
Island?
    Mr. Colon. That should have been asked of the Congress in 
1917 when it granted citizenship to Puerto Rico. They were 
granting citizenship to a different people. That is a situation 
created by this Congress.
    Mr. Romero-Barcelo. Mr. Kennedy, the Nation is made up of 
people from all over the world. People from different 
countries. Latin America. South America. From Europe. From 
Africa. From Asia. They come here as members of their nation, 
but eventually they stay in the United States, and they acquire 
residence, and become citizens. Then they are U.S. citizens. We 
are all U.S. citizens. Ask Mr. Hernandez Colon if they are 
willing to renounce the American citizenship of all Puerto 
Ricans.
    Mr. Colon. Of course not.
    Mr. Romero-Barcelo. And benefits.
    Mr. Colon. Of course not.
    Mr. Kennedy. If I can----
    Mr. Romero-Barcelo. Can you say what commonwealth is?
    Mr. Kennedy. Let me just ask the----
    Mr. Romero-Barcelo. That is the issue.
    The Chairman. If we can have order.
    Mr. Kennedy. I think Romero was basically saying that 
people come from all over the world to be in the United States. 
They accept the responsibility of being citizens of the United 
States. They swear to uphold the oath, to follow the 
Constitution. I do not know how they can say that they also 
have the same rights and responsibilities of the country they 
just came from.
    Mr. Romero-Barcelo. Of course not.
    Mr. Kennedy. And how can they be American citizens, and be 
in this sovereign nation, and yet say that well they are also 
Indian so they are under the Indian laws?
    Mr. Romero-Barcelo. And the problem here is: How can they 
say that he believes in democracy? That he is concerned about 
the fact that this bill takes away, according to him, the right 
to vote of 50 percent of the people of Puerto Rico, but yet he 
wants to disenfranchise 100 percent of the people of Puerto 
Rico in the Nation of their citizenship.
    The Chairman. The gentleman's time has expired.
    Mr. Romero-Barcelo. Not how. Not for one incident, but 
forever and ever, and he wants to disenfranchise our children 
and our children's children, but then they want to be U.S. 
citizens, and they want to have all the Federal funds, and they 
want to have all the benefits of the common trade with the rest 
of the nation.
    They want to have all the benefits that are related to 
being a part of the United States except the responsibilities. 
That is the issue, and that is why we cannot have commonwealth 
because commonwealth is the problem, and they themselves are 
not happy with what they have. They want to change it, but they 
want to change it without renouncing their citizenship. They 
want to have nation's rights without denouncing citizenship, 
and that is what the Congress will never accept, and that is 
what the Nation will never accept, and it is also ridiculous.
    The Chairman. The gentleman's time has expired. Mr. 
Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. The first conclusion 
I reach in watching this distinguished panel is that the 
independent nation of Puerto Rico or the 51st state or the 
associated republic of Puerto Rico would have a very high I.Q. 
at any given moment. I find myself in a difficult situation, 
and I mean this sincerely, gentlemen, because the respect that 
I have for you which I think is the respect that all Puerto 
Ricans have for both of you is such that you have to make sure 
that any question you ask in no way is perceived as insulting.
    Governor Hernandez Colon and Governor Barcelo, I have the 
utmost respect for both of you, and seeing you together even if 
you disagree momentarily, I know it is two Puerto Rican 
patriots who want the best for our people, and who will differ 
on how we get the best.
    I would very much like, Governor Hernandez Colon, to end my 
disagreement with the Popular Democratic Party on what I 
believe is a colonial status which you disagree with. So, my 
question to you is: In the conversations to competition 
Congress in this period or another period why do you think it 
has been so difficult for the populares to go with the option 
of an enhanced commonwealth that fits into the mold of free 
association, which then would allow people like me to say you 
know something, I now support two bills? I support the Fortuno 
bill that takes it this way, and I would support a 
Constitutional convention that takes it out of a colonial 
status.
    But I cannot support anything that still offers the 
possibility of a colonial status. My question again is: Why has 
it always been so difficult for party populares to put forth a 
noncolonial status as the enhancement of the commonwealth? Then 
let me add something to this because you are a historian on 
this, and I am not trying to be cute. You are a product of that 
era.
    Do you think that the Luhulahaman that I grew up respecting 
and continue to respect, notwithstanding the commonwealth 
issue, do you think he envisioned commonwealth to be temporary 
leading toward independence or do you think the envisioned 
commonwealth as a permanent union which could only eventually 
lead to a statehood?
    Mr. Colon. I think that he eventually came to the 
conclusion that commonwealth should be permanent, but should 
grow within its own nature. At the beginning, maybe he did not 
hold that position, but at the end I think that is where he 
ended up. Now, why do we not favor associated independence or 
free association or whatever way you might want to call it? 
Well, first of all because we do have a compact with the United 
States, and we view the matter of the development of 
commonwealth as stemming from that compact upon which we want 
to improve.
    Now, if we take that apart and just look at free 
association by itself, then the main problem with free 
association for the Popular Democratic Party is the question of 
citizenship because as applied to the states in the Pacific, 
Micronesia, they do not have American citizenship, and that is 
part of our vision that we should have American citizenship. 
That is the basic reason.
    Mr. Serrano. So the vision is--and I say this most 
respectfully--to continue to be citizens, but not to join the 
union rather than to take the chance of not. Now, do you not 
think that under associated republic if it was part of 
legislation that that would be open to a negotiation, and that 
people would know ahead of time? See the big difference here 
with this bill and other referendums you have had in the past 
is that if this one becomes law this is federally sponsored. 
Therefore, you begin to get the Federal government and the 
Congress in at different levels.
    One of them could be, by the way, if you choose associated 
republic citizenship is not an option or if you choose 
associated republic citizenship is an option to be negotiated. 
Do you not think that the party could go with that?
    See what I am looking for is for people like myself to say, 
all right. All three parties are for ending the territorial 
status, which you may not agree it is, or the colonial status, 
which I believe it is. That would accomplish it, and I know 
there are some within your party who are proposing that, and I 
think by the way incidentally if this does not get resolved 
soon I think that is where your party may go.
    Mr. Colon. You see, if instead of having a plebiscite which 
will end up something--if you have the three alternatives--you 
are going to end up something like 49, 46, 4, something like 
that. That is inconclusive. You will not have a majority 
mandate. A substantial majority for change. Instead of doing 
that, you go to a Constitutional convention where you can have 
an interaction between the delegates to that convention from 
the different parties, and ultimately a vote and then 
negotiations with Congress, but with the convention that is in 
permanent session so that it can propose to Congress, and 
Congress can accept or modify or we can find out what is 
possible. It is a negotiating process the convention.
    Mr. Serrano. Right.
    Mr. Colon. That is what the Congressman is pointing to can 
come out of such a convention.
    Mr. Serrano. Mr. Chairman, I know I am out of time, but I 
promise I will be very brief, and then I will keep quiet. So, 
why would you not accept the Independence Party proposal which 
takes the first Fortuno-Serrano vote and says yes or no whether 
you want to remain in this relationship, and then move to a 
Constitutional convention? What is the problem with having 
people ask do you want to remain a commonwealth or it is my 
belief that no one wants to remain in the present commonwealth?
    Mr. Colon. You see they would define the commonwealth as a 
colonial relationship, and that we cannot accept.
    Mr. Serrano. What if there was a bill that never defined 
anything, and just said do you want to stay the way you are?
    Mr. Colon. That is a different matter. You can just take 
the laws of Congress. Why do you not just put them there in the 
ballot? Do not characterize them. Just say Public Law 600. 
Public Law 447. Concrete references to the historical record, 
and we can deal with that, but not calling us a colony or 
putting us under plenary powers of Congress. Not that.
    The Chairman. The gentleman's time has expired. Ms. 
Velazquez.
    Ms. Velazquez. Thank you, Mr. Chairman. Thank you to both 
former Governors and Puerto Ricans patriots. I have a lot of 
admiration for your passion and your commitment, and I know 
that in your heart you have the best interest of the people of 
Puerto Rico. We might disagree, but we have to recognize that 
you have done it in a very responsible way.
    Not only Carlos Romero is the former Governor, he was also 
a former Member of Congress, and he also is an author. You 
wrote a book Statehood Is For The Poor in which you defined 
statehood in a way where it will have its own Olympic team, 
Spanish will be the official language.
    Mr. Romero-Barcelo. No.
    Ms. Velazquez. No? That is not part of that?
    Mr. Romero-Barcelo. Two languages.
    Ms. Velazquez. OK. Two languages. Spanish and English will 
be the official language, but Puerto Rico will have its own 
Olympic team, and it will have its own beauty contest. Miss 
Universe. I am asking this because statehood advocates tell 
Congress that they support statehood just like any other state, 
but in the island they try to sell esta hibera. Which one is 
it?
    Mr. Romero-Barcelo. Esta hibera what it means is that we 
are not going to lose our personality or our traditions or our 
way of life because we become a state. What is the culture of a 
group of people or a community, a state or a nation? The 
culture is the relationship between the family, the 
relationship between neighbors, the relationship at work, the 
religion that they profess, the music that they like, the 
poetry that they like, the music they sing, the celebrations. 
None of that is going to change.
    Ms. Velazquez. OK.
    Mr. Romero-Barcelo. We are not going to stop going to 
church that we go because we become a state. We are not going 
to start acting differently with our neighbors or with our 
children or with our other parents. We are not going to be 
singing different songs.
    Ms. Velazquez. I hear you. My follow-up question is: You 
know that we are engaged in such an important debate here in 
Congress, and that is immigration reform, and one of the things 
that people are saying is that immigrants have to learn 
English. That should be the language to conduct official 
business. Do you think any contradiction between that and the 
fact that you will have Spanish and English as an official 
language?
    Mr. Romero-Barcelo. No, I do not. Right now in America, in 
our continent, whether we become independent or we become a 
state we have to realize that it is to the advantage of our 
children and our children's children if they speak Spanish and 
English. Anyone who is bilingual today has better 
opportunities. What we want to have is everyone in Puerto Rico 
to be fully bilingual, and to increase on the teaching of both 
Spanish and English.
    My youngest son is a teacher right now in a bilingual 
school in Washington, D.C. in Oester School, and he teaches 
half of the class in Spanish, and then another teacher comes in 
and teaches the other half of the class in English.
    Ms. Velazquez. Carlos, I know all that, and that is all 
wonderful.
    Mr. Romero-Barcelo. Right.
    Ms. Velazquez. But let me just say that there is a movement 
here amongst some members who want to make English the official 
language, and Puerto Rico will be the first state in which you 
will have Spanish and English as an official language.
    Mr. Romero-Barcelo. Right. No. I think New Mexico also. I 
think New Mexico also has Spanish and English as official 
languages.
    Ms. Velazquez. I am not aware of that.
    Mr. Romero-Barcelo. Yes.
    Ms. Velazquez. But we will make our research. Governor, 
would you like to make a comment?
    Mr. Colon. Yes. There is something that should be very 
clear, and that is that Puerto Rico is a Spanish speaking 
country, and it will remain Spanish speaking no matter what we 
become. If we become a state, we are going to be a Spanish 
speaking state. There is no way that we are going to become 
bilingual.
    Why? Take history. When Puerto Rico was a colony--and I 
will accept that classification from 1898 to 1952--the United 
States, the President appointed the Governor and appointed the 
commissioner of education, and the policy was to teach English 
in English in the public schools. The objective was to make 
Puerto Rico bilingual.
    Now, that policy implemented with all the power of the 
Federal government failed in Puerto Rico. We continued to speak 
in Spanish. There is no way that we will become a bilingual 
state. Every U.S. census shows that 60 percent of Puerto Ricans 
speak no English at all. Twenty percent speak some English, and 
another 20 percent are bilingual. That is the reality that you 
will be faced with.
    Ms. Velazquez. Thank you, Mr. Chairman.
    The Chairman. Thank you. I am going to claim my time to ask 
questions, and yield to Mr. Fortuno.
    Mr. Fortuno. Thank you, Mr. Chairman. I just wanted to 
thank you for your leadership in having this hearing today, as 
well Mr. Rahall. As you can see, we have been at this issue for 
over a century. Our leaders are passionate about all these 
issues, but certainly I am convinced that this is a matter that 
we have to deal with. It not only will not go away, it is a 
legal and moral obligation of this Congress to address it.
    It is true that the economy is very important and partially 
one of the reasons why we are suffering right now we have lost 
one percent of the private sector jobs in the last five years 
just because the system does not work any more, and that is one 
of the reason why we are here today because we have to solve 
this.
    Certainly I have tried, as I mentioned earlier in this 
hearing, and I will continue to try to have a process that 
allows all Puerto Ricans the right to vote directly. I do not 
want my constituents to have to actually have delegates decide 
for them what is best for them. I want my constituents to have 
the right to vote directly as many times as we have so that we 
can solve this issue.
    The issue at the end of the day here, as has been stated, 
is what will be enhanced commonwealth, and certainly at least 
three consecutive Administrations have stated that the party is 
over. That we cannot have our cake and eat it too. That we have 
to decide, and it is either independence, statehood or free 
association with what that entails, and I enjoyed seeing the 
exchange between my colleague, Jose Serrano, and Governor 
Hernandez Colon as to there is no way to see to it that it 
happens.
    I would like to finish with two items. First of all, there 
has been a discussion of what it is like to be an American. 
Actually, a patriot of Puerto Rico said it best when he said 
that he was proud to be an American and proud to be a Puerto 
Rican, and that was Luis Munoz Marin who was Governor in the 
1950s when all this began. I must say that to be an American--
and I am proud to be an American and I am proud to be a Puerto 
Rican--has nothing to do with the color of your skin or your 
sex or your language.
    It has to do with shared values, and I visit on a regular 
basis in a very private manner to soldiers coming back from 
Iraq and Afghanistan, and there is one specific case who just 
lost his leg who was in a coma for months, and I will whisper 
into his ear how proud I was of the service to his country. He, 
thank goodness, came out of his coma, and Manuel has been the 
inspiration for what we are doing here today if I may say so 
because that young kid from Salinas is an American hero, and to 
say that we are not Americans, and to tell that American hero 
that he is not an American or that he cannot aspire to the 
American dream is a travesty, and that is why we are here.
    We have been at it for over 100 years. We have to put an 
end to this for one reason because the U.S. Constitution 
guarantees all U.S. citizens--and we are U.S. citizens--three 
major rights. The right to enjoy life, liberty and the pursuit 
of happiness. Under the present circumstances, that is not 
entirely possible at the same level that our colleagues in the 
mainland. I encourage this committee, the Chairman and the 
Ranking Member to pursue this further so that we can finish 
this matter that certainly will never go away, and that is part 
and parcel of what it means to be an American. Thank you, Mr. 
Chairman, again.
    Ms. Velazquez. Will the gentleman yield for just one 
second?
    The Chairman. I will yield to her.
    Ms. Velazquez. Thank you. I just would like for the record 
to reflect that the exchange that took place here between my 
colleague, Jose Serrano, and the former Governor of Puerto 
Rico, Rafael Hernandez Colon, that he in no way stated anything 
different than what was expressed by former Governor Luis Munoz 
Marin. We are Americans, but we are also Puerto Ricans, and 
there is no different. We fight to protect the national 
security of this nation. Proportionately speaking we have more 
Puerto Rican soldiers participating in every single war, and we 
are proud of that participation. Thank you.
    The Chairman. Reclaiming my time. I want to thank this 
panel very much for your testimony. This obviously is a 
complicated issue and an emotional issue, and as we move 
forward in the Committee, we will continue to work with all of 
you to hopefully come up with a solution that all Puerto Ricans 
and all Americans can agree on. Thank you very much for being 
here. I thank my colleagues for their questions, for their 
participation in the hearing. If there is no further business 
before the Committee, the Committee stands adjourned.
    [Whereupon, at 1:54 p.m., the Committee meeting was 
adjourned.]

    [Additional material submitted for the record follows:]

    [A statement submitted for the record by Hon. Jose Aponte-
Hernandez, Speaker of the House of Representatives of Puerto 
Rico, follows:

         Statement of The Honorable Jose F. Aponte-Hernandez, 
         Speaker of the House of Representatives of Puerto Rico

    Good morning. On behalf of the nearly 4 million U.S. citizens who 
reside in Puerto Rico, which my fellow 50 representatives and I proudly 
and responsibly represent in our House of Representatives, let me 
recognize the importance of this hearing and the significance of the 
legislative process which in earnest begins today.
    I commend this Committee and, particularly the unwavering resolve 
of Chairman Pombo in addressing the issue of Puerto Rico's self-
determination. To many people, Puerto Ricans seemingly do not get their 
act together as to what do they want to do... the kind of relationship 
that we would like to have with the United States. Then, among so many 
pressing issues facing our Nation in an election year... immigration... 
social security... the war against terrorism... the fiscal deficit... 
budget priorities... just to name a few... and with time running out in 
the legislative calendar of the 109th Congress... does it make sense to 
spend time and effort in dealing with such a controversial issue?
    Let me convey to you why it is the right thing to do.
    This Congress represents the citizens of the greatest Nation in the 
face of this Earth. Most nations around the World look upon us... the 
United States of America... to provide the political, economic and 
moral leadership as the undisputed leader of the Free World. As such, 
we are the beacon of freedom and democracy.
    Today this Nation has thousands of our brave men and women who 
serve in our Armed Services risking their lives in order to provide 
hope and guarantee freedom and democracy in Irak and Afghanistan. Among 
those everyday heroes, there are many Puerto Rican soldiers serving in 
the various branches of the U.S. Military who have responded to the 
call of duty and ably served in the military operations in this War 
against Terrorism; including several units and or detachments of our 
U.S. Army Reserves and National Guard. <SUP>1</SUP> Sadly, many have 
also paid the ultimate sacrifice to our Nation by giving their lives in 
this war effort. <SUP>2</SUP>
---------------------------------------------------------------------------
    \1\ So far in the ongoing War against Terrorism, only three states 
have sent more servicemen and women per capita than Puerto Rico. At 
this moment, there are three full units active in Irak; these are: 393 
Quartermaster and 432 Transportation from the U.S. Army Reserves and 
246 Mortuary Services from the Puerto Rico National Guard.
    \2\ The current death toll stands at 51 in the ongoing War against 
Terrorism.
---------------------------------------------------------------------------
    Yet, this should come as no surprise to anybody, as Puerto Rico is 
the proud home of many of our Nation's military heroes, including four 
recipients of the Congressional Medal of Honor. <SUP>3</SUP> Let me 
tell you the brief story of Captain Euripides Rubio, from Ponce, Puerto 
Rico, who was one of the four Congressional Medal of Honor recipients. 
His tremendous sacrifice occurred in November of 1966. Although he 
himself suffered three serious wounds as part of an intensive fire 
fight, he was helping to evacuate other wounded personnel when he 
discovered a smoke grenade had fallen too close to friendly lines. In 
preparation for friendly airstrikes, the smoke grenades were used to 
mark the Viet Cong position. Captain Rubio intended to avert an 
unnecessary tragedy and ran to reposition the grenade. He was 
immediately ``struck to his knees'' by enemy fire. Despite his many 
wounds, he grabbed the grenade, lumbering through the deadly onslaught 
of enemy gunfire, and made it to within 20 meters of the enemy 
position. Hurling the already smoking grenade into the midst of the 
enemy, he fell for the final time. His death made a difference. The 
hostile position was destroyed because the friendly air strikes were 
able to use the repositioned grenade as a marker.
---------------------------------------------------------------------------
    \3\ Before the ongoing War against Terrorism, well over 200,000 
Puerto Ricans had already served as combatants in previous military 
conflicts... 6,220 had been wounded... and 1,225 had been killed in the 
service of their Nation.
---------------------------------------------------------------------------
    This moving anecdote is no different from that of Fernando Luis 
Garcia, Carlos James Lozada, Hector Santiago-Colon or many of the close 
to 1,300 Puerto Ricans who have given their lives in the service to our 
Nation. Probably, Gen. Douglas MacArthur put it best, when he said ``I 
wish we had more like them.''
    Regretfully, I have to remind everyone of the extreme irony of the 
service of so many of my fellow Puerto Ricans. Our Nation... the United 
States of America... has allowed for the sacrifice of so many of our 
men and women to be somewhat in vain.
    We have fought valiantly and without objection ever since we came 
under the American flag. Yet, this flag which stands for freedom, 
liberty and justice everywhere it flies does not protect my fellow 
Puerto Ricans from disparate and discriminatory treatment by my Nation. 
<SUP>4</SUP> We fight for liberty and democracy all over the World... 
yet we have been denied one of the most basic of human and civil 
rights... the right to self determination.
---------------------------------------------------------------------------
    \4\ Former Governor and current Senator Dr. Pedro Rossello put it 
best, when he states on page x of the Introduction to his book titled 
The Unfinished Business of American Democracy [Public Policy Institute 
of the Ana G. Mendez University System, San Juan, 2005], ``...a people, 
whose allegiance to American democracy is surpassed nowhere, finds 
itself as totally lacking in civic equality as it was when the Stars 
and Stripes first billowed forth in our tropical breezes at the end of 
the 19th century.''
---------------------------------------------------------------------------
    For example, how contrary to the values and principles that have 
always defined our Nation is it to have so many servicemen go to war 
and, sometimes even giving their lives, without having the basic 
fundamental right to vote for their Commander-in-Chief or for the 
Members of Congress who have the right to declare war. This 
discriminatory practice has been validated by Supreme Court decisions 
that incredibly are still valid today, such as Balzac v. People of 
Porto Rico <SUP>5</SUP>  and more recently in Harris v. Rosario 
<SUP>6</SUP>.
---------------------------------------------------------------------------
    \5\ 258 U.S. 298 (1922).
    \6\ 446 U.S. 651 (1980).
---------------------------------------------------------------------------
    In the latter case, appellees claimed that the lower level of AFDC 
reimbursement provided to families with needy dependent children in 
Puerto Rico violated the equal protection guarantee of the Fifth 
Amendment of our Constitution. Surprisingly, the United States Supreme 
Court disagreed and found that Congress is empowered under the 
Territory Clause of the Constitution to ``...treat Puerto Rico 
differently from States so long as there is a rational basis for its 
actions.'' In other words... can there be a truly rational basis to 
discriminate with regards to the need of children who are U.S. citizens 
just because they happen to live in Puerto Rico? I guess none of you 
would feel comfortable with such decision making. Could there be 
something more un-American? After all, wasn't disparate and 
discriminatory treatment from the British Government what led our 
forefathers to independence and later establishing this more perfect 
union?
    Furthermore, the paradox and the inequity of living in the 
``Commonwealth'' of Puerto Rico... the ``unincorporated'' U.S. 
territory <SUP>7</SUP>... the ``oldest colony in the World'' (as aptly 
described by former Chief Justice Jose Trias-Monge, who also happened 
to be the primary legal scholar involved in the forging of our current 
``commonwealth territorial arrangement'') <SUP>8</SUP>... is such that 
if any of you decide to move to Puerto Rico and maintain the desire to 
vote in federal elections as an absentee voter of your last state of 
residence, you would be denied the right to do so, as we are neither a 
state of the Union or the District of Columbia, nor a foreign or 
overseas jurisdiction under the Uniformed Overseas Citizens Absentee 
Voting Act of 1986. On the other hand, if you happened to be in Tehran, 
Iran, P'yongyang, North Korea, Havana, Cuba or any other rogue nation 
where there is no U.S. Embassy, you just need to go to the U.S. 
Interest Section of the appropriate foreign embassy in order to cast 
your ballot (assuming that you already filled out in advance a Federal 
Post Card Application for an absentee ballot). In other words, as a 
U.S. citizen, don't even think about moving to Puerto Rico if you wish 
to continue exercising the most fundamental of rights of our 
democracy... of any democracy... the right to vote for those who 
legislate and make decisions that may affect your daily lives in any 
way or manner. <SUP>9</SUP>
---------------------------------------------------------------------------
    \7\ An excellent description of the true implications of the 
``incorporation'' doctrine regarding the status of U.S. territories, 
appears on page 160 of the book by former Governor and current Senator 
Dr. Pedro Rossello titled The Unfinished Business of American Democracy 
when he cites from Sanford V. Levinson's Why the canon should be 
expanded to include insular cases and the saga of American 
expansionism, Constitutional Commentary, Summer 2000:
       The importance of the [Insular] Cases did not lie in the 
particular resolution of tariff policy, but, rather, in deciding 
whether the United States could emulate the European nations and 
conquer and possess colonial territories. And what it meant to be such 
a territory--the term that comes out of Downes is ``unincorporated 
territory,'' in contrast to ``incorporated territories'' like, say, the 
Dakotas, Alaska, Hawaii, and the like--is, among other things, that 
there is simply no pretense that the colonized entity was being held in 
trust until, on the one hand, it could become independent or, on the 
other, until it was absorbed in to the United States as an equal member 
of the federal Union, with whatever ``sovereign'' prerogatives 
continued to be possessed by the states. Territories do not even 
possess the fictive elements of ``sovereignty'' retained by Indian 
tribes. (Emphasis supplied)
    \8\ Trias-Monge, Jose Puerto Rico: The Trials of the Oldest Colony 
in the World New Haven: Yale University Press, 1997. At the end of page 
161, Mr. Trias-Monge explains why he concluded that Puerto Rico remains 
a colony of the United States:
       It can be said that Puerto Rico is still a colony of the United 
States for several reasons:
      <bullet>  United States laws apply to the Puerto Rican people 
without their consent.
      <bullet>  United States laws can override provisions of the 
Commonwealth Constitution.
      <bullet>  The President of the United States and executive 
appointees negotiate treaties and take other actions which affect 
Puerto Rico without consulting it.
      <bullet>  Through the unilateral grant by Congress of diversity 
jurisdiction, United States courts decide cases involving strictly 
local matters of law.
      <bullet>  There is no equality or comparability of rights between 
United States citizens residing in Puerto Rico and those domiciled in 
the States.
      <bullet>  Congress assumes that it can unilaterally exercise 
plenary powers over Puerto Rico under the territorial clause of the 
United States Constitution.
      <bullet>  The United States government contends that sovereignty 
over Puerto Rico resides solely in the United States and not in the 
people of Puerto Rico.
      <bullet>  Both Congress and the executive branch of the United 
States government accordingly act as if there were no compact between 
the United States and Puerto Rico, and some officials even argue that 
none is legally possible. In spite of statements to the contrary by the 
Supreme Court of the United States and the Court of Appeals for the 
First Circuit, both Congress and the executive branch of the United 
States treat the Commonwealth in practice as if it were no different 
than any other territory or possession of the United States.
      <bullet>  Even if the courts eventually hold that there is now a 
binding compact and that this compact encompasses the Federal Relations 
Act, the consent extended by the Puerto Rican people in 1950 when 
accepting Law 600 in a referendum is overbroad. Consent to the 
unrestricted application to Puerto Rico of all federal laws, past and 
future, does not thereby erase the colonial nature of such an 
arrangement. A slave's consent to bondage does not make him a free man. 
The realization of such a weakness in the Commonwealth structure has 
been, together with the insistence that Congress is vested with plenary 
powers over Puerto Rico, what has fueled Puerto Rican attempts in the 
past forty-odd years to enhance or improve Commonwealth status.
      <bullet>  Puerto Rico plays no role in the international 
community, either directly or indirectly as a participant in the 
decisions taken by the United States.
      <bullet>  Commonwealth status as it is at present does not meet 
the decolonization standards established by the United Nations.
      <bullet>  There is no known noncolonial relationship in the 
present world where one people exercises such vast, almost unbounded 
power over the government of another.
       Those in the United States and Puerto Rico who still cling to 
the strange notion that Puerto Rico is nevertheless self-governing are 
simply out of step with the rest of the informed world. There is no 
question that in the Caribbean, Latin America, and the United Nations 
itself Puerto Rico is seen as a colony of the United States.
    \9\ In any society, the right to vote is probably the most basic of 
civil rights as it is the means whereby other rights are protected. 
Without it the principles of freedom and equality would be hollow 
concepts. Former Chief Justice Earl Warren expressed in Reynolds v. 
Sims, 377 U.S. 533, 555 (1964) that ``[t]he right to vote freely for 
the candidate of one's choice is of the essence of a democratic 
society, and any restrictions on that right strikes at the heart of 
representative government.'' (Emphasis supplied)
---------------------------------------------------------------------------
    Even though we may have been blessed with many of the benefits of 
our citizenship... America cannot tolerate... and our flag--defended by 
the blood of so many of our people--cannot be put to shame by further 
legitimization and a continuation of the misguided policy of separate 
and unequal.
    Do these policies make any sense to you? <SUP>10</SUP> I guess they 
would only makes sense to those who feel comfortable with 
categorizations such as those that describe Puerto Rico... as foreign 
in a domestic sense... belonging to, but not a part of the United 
States... separate and unequal. Is it possible to have colonialism by 
consent?... or slavery by consent for arguments sake? That is the moral 
challenge before you today.
---------------------------------------------------------------------------
    \10\ Former Governor and current Senator Dr. Pedro Rossello states 
on page 45 of his book titled The Unfinished Business of American 
Democracy that:
       By giving short shrift to the principle of governance with the 
consent of the governed, and by withholding full recognition of 
constitutional citizen rights, these federal behaviors effectively 
converted the noble republic into a hybrid entity that displayed 
characteristics eerily reminiscent of the European imperial model that 
the United States was supposed to have gloriously abolished in the late 
18th century. In the space of approximately 125 years, a full circle 
had been constructed: the colonial dependencies of an empire had 
liberated themselves; had established an independent republic; and had 
then proceeded to create a new empire via the republic's acquisition of 
colonial possessions of its own!
       As further discussed by Dr. Rossello in his book on pages 167 
and 168, this accurate criticism of our Nation's ``imperialistic'' 
policy at the turn of the 19th century was subject of discussion in 
Justice John Marshall Harlan's dissenting opinion in Downes v. Bidwell, 
182 U.S. 244 (1901). The only dissenting voice in Plessy v. Ferguson 
brought forth in Downes his most passionate concern over the 
redefinition of U.S. territorial policy that, to him, clearly meant a 
redefinition of the very nature of the Nation itself.
       In my opinion, Congress has no existence and can exercise no 
authority outside of the Constitution. Still less is it true that 
Congress can deal with new territories just as other nations have done 
or may do with their new territories. ... Monarchical and despotic 
governments, unrestrained by written constitutions, may do with newly 
acquired territories what this government may not do consistently with 
our fundamental law. To say otherwise is to concede that Congress may, 
by action taken outside of the Constitution, engraft upon our 
republican institutions a colonial system such as exists under 
monarchical governments. Surely such a result was never contemplated by 
the fathers of the Constitution. ... The idea that this country may 
acquire territories anywhere upon the earth, by conquest or treaty, and 
hold them as mere colonies or provinces--the people inhabiting them to 
enjoy only such rights as Congress chooses to accord them--is wholly 
inconsistent with the spirit and genius, as well as with the words, of 
the Constitution. (Emphasis supplied)
---------------------------------------------------------------------------
    To those of you who might be somewhat confused with our political 
reality, let me state for the record that Puerto Rico is not a 
sovereign state in association with the United States. There is no 
compact in our case, as opposed to the Republic of the Marshall 
Islands, the Federated States of Micronesia and the Freely Associated 
State of the Republic of Palau, all of whom negotiated compacts with 
the United States. Neither are we recognized by any other country as 
being a sovereign state.
    The United States is the only sovereign in Puerto Rico. In 
accordance with Article IV, Section 3, Clause 2 of the United States 
Constitution ``[t]he Congress shall have Power to dispose of and make 
all needful Rules and Regulations respecting the Territory or other 
Property belonging to the United States.'' <SUP>11</SUP> That is why 
the people of Puerto Rico come before you time after time... because 
primary constitutional authority rests exclusively in the Congress.
---------------------------------------------------------------------------
    \11\ The Treaty of Paris of December 10, 1898 (proclaimed in 
Washington, DC on April 11, 1899) formally put an end to the Spanish-
American War and ceded Puerto Rico to the United States. Therefore, by 
virtue of the Treaty, Puerto Rico came under the sovereignty of the 
United States; nonetheless, it is significant to point out that as 
opposed to other treaties whereby the United States had previously 
acquired territory, this one stated (in the second paragraph of Article 
IX) that the ``[t]he civil rights and political status of the native 
inhabitants of the territories hereby ceded to the United States shall 
be determined by the Congress.'' (Emphasis supplied) In other words, 
the foundation for an entirely new territorial management doctrine was 
being laid, thus providing a different dimension to the application of 
the Territory Clause of the U.S. Constitution.
---------------------------------------------------------------------------
    Thus, even though the official name of our government in Spanish is 
``Estado Libre Asociado'', we are not a free associated state (as the 
name of our Government in Spanish claims to be) with our Nation... but 
rather, we are just the U.S. territory with the largest degree of 
internal self-government by virtue of an act of Congress. <SUP>12</SUP>
---------------------------------------------------------------------------
    \12\ In order to understand the true implications of congressional 
policymaking over Puerto Rico in the early 1950's, as per Public Law 
600 (which authorized the people of Puerto Rico to decide if they 
wanted to draft a constitution of their own with regards to local 
affairs), Public Law 447 (which approved the Puerto Rican Constitution 
as amended by Congress in order to be proclaimed as such in the Island) 
and the Puerto Rican Federal Relations Act (which maintained certain 
sections of the Jones Act of 1917 in full force and effect; such as 
Sec. 1 where it is clearly stated that ``the provisions of this Act 
shall apply to the Island of Puerto Rico and to the adjacent islands 
belonging to the United States'' (Emphasis supplied) and Sec. 9 where 
it establishes that the ``statutory laws of the United States not 
locally inapplicable, except as hereinbefore or hereinafter otherwise 
provided, shall have the same force and effect in Puerto Rico as in the 
United States,'') it is essential to go into the legislative history of 
Public Law 600. During the discussion in the congressional committees 
of H.R. 7674 and S. 3336, then Resident Commissioner Antonio Fernos-
Isern stated:
       As already pointed out, H.R. 7674 would not change the status of 
the island of Puerto Rico relative to the United States. ... It would 
not alter the powers of sovereignty acquired by the United States over 
Puerto Rico under the terms of the Treaty of Paris. (Emphasis supplied) 
(Hearings Before the Committee on Public Lands, House of 
Representatives, on H.R. 7674 and S. 3336, 81st Cong., 2nd Sess., 
p.63.)
    Then Governor Luis Munoz Marin said that:
       If the people of Puerto Rico should go crazy, Congress can 
always get around and legislate again. But I am confident that the 
Puerto Ricans will not do that, and invite congressional legislation 
that would take back something that was given to the people of Puerto 
Rico as good United States citizens. (Hearings Before the Committee on 
Public Lands, House of Representatives, on H.R. 7674 and S. 3336, 81st 
Cong., 2nd Sess., p.33.)
    In the same manner, the position of the Executive Branch, as stated 
in a letter by Secretary of the Interior, Oscar L. Chapman, to the Hon. 
Joseph C. O'Mahoney, Chairman of the Committee on Interior and Insular 
Affairs, suggested no change in congressional power over Puerto Rico:
       It is important at the outset to avoid any misunderstanding as 
to the nature and general scope of the proposed legislation. Let me say 
that enactment of S. 3336 will in no way commit the Congress to the 
enactment of statehood legislation for Puerto Rico in the future. Nor 
will it in any way preclude a future determination by the Congress of 
Puerto Rico's ultimate political status. The bill merely authorizes the 
people of Puerto Rico to adopt their own constitution and to organize a 
local government which, under the terms of S. 3336, would be required 
to be republican in form and contain the fundamental civil guaranties 
of a bill of rights... The bill under consideration would not change 
Puerto Rico's political, social, and economic relationship to the 
United States. (Emphasis supplied) (Hearings Before the Committee on 
Public Lands, House of Representatives, on H.R. 7674 and S. 3336, 81st 
Cong., 2nd Sess., p.33.)
    Finally, the Reports in both the House and the Senate Committee on 
the bill clearly state that:
       The bill under consideration would not change Puerto Rico's 
fundamental, political, social and economic relationship to the United 
States... Nor will it in any way preclude a future determination by the 
Congress of Puerto Rico's ultimate political status. (Emphasis 
supplied) (H.R. 2275, 81st Cong., 2nd Sess., p. 3. See also, S. Rep. 
1779, 81st Cong., 2nd Sess., p.3)
---------------------------------------------------------------------------
    As the proud American citizen that I am, I cannot possibly be 
satisfied or resign myself to being less than a full-fledged citizen of 
our Nation. To me it would be just like if African Americans would have 
remained satisfied with the untenable condition of segregation... as if 
separate but equal could ever be right.
    It is clear that your fellow citizens from Puerto Rico can no 
longer remain within the current arrangement. Change towards a final 
solution that needs to be fully democratic, non-territorial and non-
colonial <SUP>13</SUP> has to take place. We cannot be denied the 
inalienable right to self-determination; whereby we would be able to 
achieve a status option that provides for full self-government, be it 
either under independence, free association or statehood.
---------------------------------------------------------------------------
    \13\ The use of the term colony or colonial should not be 
misinterpreted. Former Chief Justice Jose Trias-Monge in Puerto Rico: 
The Trials of the Oldest Colony in the World discussed the use of the 
term on page 194, as follows:
       The term colony is not employed here in the usual, vituperative 
sense applied in the past to the dependencies of the European imperial 
nations. Economic exploitation of Puerto Rico was never an aim of the 
United States government. The charge rests, rather, on the unnecessary 
retention of excessive power over Puerto Rico, the consequent 
limitations to self-government, and the lack of proper attention to the 
requirements of a relationship based on equality and full, specific 
consent, be it under any of the status formulas under discussion.
---------------------------------------------------------------------------
    This human and civil right firmly entrenched in the constitutional 
principles of our Nation, as well as in International Law, requires 
that the people of Puerto Rico be given a true and fair exercise of 
their right to self determination. But in order to have a real and 
meaningful process of self-determination, we need to know what Congress 
and the President of the United States understand as constitutionally 
viable and politically acceptable from among the possible status 
options. <SUP>14</SUP> If not, we would only have a futile process, 
just like our three locally sponsored status plebiscites that led to 
nothing, while further confusing our people as to what is really 
attainable under our three traditional status alternatives (regarding 
this last point I would respectfully refer you to H.R. 4751 from the 
106th Congress, whereby this same committee had the opportunity to 
analyze the contents of the ``Enhanced Commonwealth'' alternative still 
proposed by the Popular Democratic Party <SUP>15</SUP>).
---------------------------------------------------------------------------
    \14\ This precise concern was well discussed by former Chief 
Justice Jose Trias-Monge in Puerto Rico: The Trials of the Oldest 
Colony in the World when, on page 4 of the Introduction he states:
       ...the policy of self-determination, in the manner that it has 
been used in Puerto Rico, is not a coherent policy at all and something 
should be done about it. How can a people exercise the right to self-
determination if they do not know what their choices are? The United 
States has to realize that it is rightfully part of the equation. Is it 
in the interest of the United States to grant Puerto Rico statehood by 
return mail if Puerto Ricans just ask for it? Is it ready to increase 
Puerto Rico's self-governing powers within its association to the 
United States, and if so, to what extent? On what terms would it be 
willing to grant Puerto Rico independence? The unceasing debate about 
the island's political status and the uncertainty about its future is 
sapping Puerto Rico's strength to stand on its own feet and deal with 
its severe economic problems. Keeping Puerto Rico in a state of 
subjection does not serve any perceivable United States interest and is 
seriously out of line with developments in the rest of the world. 
(Emphasis supplied)
    \15\ On June 26, 2000 Congressman John Doolittle introduced H.R. 
4751. This measure intended to ``recognize entry of the Commonwealth of 
Puerto Rico into permanent union with the United States based on a 
delegation of government powers to the United States by the people of 
Puerto Rico constituted as a Nation, to guarantee irrevocable United 
States citizenship as a right under the United States Constitution for 
all persons born in Puerto Rico, and for other purposes.'' In order for 
Congress to be clear as per the terms of Puerto Rico's future 
relationship with the United States under an ``Enhanced Commonwealth'', 
Section 2 of the bill establishes that: Congress recognizes Puerto Rico 
a nation legally and constitutionally, with a political status and 
relationship with the United States on the basis of the following 
governing provisions:
      (1)  The people of Puerto Rico, exercising their sovereignty, 
their natural right to govern themselves, and their free will as the 
ultimate source of their political power, may reaffirm, in accordance 
with this Act, the validity of the Commonwealth as established as an 
autonomous political body, neither colonial nor territorial, in 
permanent union with the United States of America under an agreement 
which may not be unilaterally nullified or changed, and may propose its 
further autonomous development. The relationship between Puerto Rico 
and the United States shall continue to be based on a common defense, 
market, and currency, and on the nonrevocability of United States 
citizenship, acquired by birth and protected by the Constitution of the 
United States.
      (2)  This relationship guarantees the autonomous development of 
Puerto Rico based on the democratic precept of government by consent of 
the governed and the recognition that Puerto Rico is a nation with its 
own history, national character, culture, and Spanish language.
      (3)  To achieve maximum economic progress and well-being, the 
people of Puerto Rico may propose to develop the Commonwealth in order 
to retain all powers not delegated to the United States. In keeping 
with Puerto Rico's fiscal autonomy, areas of economic development will 
be identified in which joint action will create jobs and other benefits 
for both parties, including flexibility in the use of Federal funds.
      (4)  This Act shall not be construed to affect programs involving 
direct assistance to individuals.
      (5)  The Commonwealth may arrange commercial and tax agreements, 
as well as other agreements, with other countries and belong to 
regional and international organizations, consistent with the common 
defense and security interests of the United States and Puerto Rico, in 
accordance with this Act and bilateral agreements entered into pursuant 
to this Act.
      (6)  After a petition for further development of Commonwealth has 
been approved by the people of Puerto Rico, a Constituent Assembly 
shall be convened to negotiate with the Government of the United States 
the terms and conditions of an agreement to implement the proposals to 
further develop the Commonwealth, including a mechanism for consent to 
application and enforcement of laws approved by Congress. (Emphasis 
supplied)
       On October 4, 2000, this same Committee held a hearing with 
regards to this measure. Deputy Assistant Attorney General, William M. 
Treanor, testified on behalf of the Department of Justice reaffirming 
the long-standing position of the Department that an option of an 
``Enhanced Commonwealth'', based in the sovereignty of the people of 
Puerto Rico, in permanent union with the United States, and 
guaranteeing irrevocable U.S. citizenship for those born in the Island, 
was clearly unconstitutional. He went even further as per the only 
available status options, when he stated that ``[t]he constitutionally 
defined means of changing the political status of unincorporated 
territories would be through the process of incorporation, statehood, 
or independence.'' In the same hearing, this Committee had the 
opportunity to listen to former Attorney General Dick Thornburgh who 
also concluded that this measure ran counter to the Constitution. He 
also expressed a very somber warning to Congress regarding the proposed 
basis of an ``Enhanced Commonwealth'' arrangement when he stated that 
``[a]s a result of the introduction of H.R. 4157, Congress is waking up 
to the fact that the proposed Commonwealth formula is nothing less than 
the creation of a new form of statehood under the federal system. 
Instead of the union that exists between the sovereign states, this 
would be union between the U.S. and another nation.'' (Emphasis 
supplied) (Hearing Before the Committee on Resources, on H.R. 4751, 
106th Cong., 2nd Sess., October 4, 2000)
---------------------------------------------------------------------------
    In other words, without an expression by Congress and the Executive 
Branch, as to what is constitutionally and politically viable, 
everything would be a charade. For example, periodic elections in the 
People's Republic of China or in Cuba do not make them bastions of 
democracy.
    That is why I commend our President, George W. Bush, for his vision 
and continued commitment in addressing this issue... in trying to put 
an end to this unfinished business of American democracy. He was firm 
and resolute in providing leadership on an issue that thirsts for a 
high moral ground.
    To that end, President Bush made sure that the directive begun by 
former President William Jefferson Clinton, whom I also should commend 
as per the establishment of the President's Task Force on Puerto Rico's 
Status, would be successful in achieving its stated objectives. Amidst 
all the efforts generated by people who do not want this issue to move 
forward, the President did not allow the members of his Task Force to 
stray from the course of clearly and correctly addressing this issue. 
Seldom has such leadership been exercised by a President with regards 
to the political aspirations of your fellow citizens who reside in 
Puerto Rico.
    On December 22, 2005, President George W. Bush's Task Force on 
Puerto Rico's Status made public its Report on the issue, which 
included a series of recommendations for the United States Congress to 
consider and act upon. That Report represents the final work product of 
a group of responsible and highly professional individuals which 
represented most of the important agencies of the Executive Branch. In 
earnest, they devoted more than a year in analyzing the issue, studying 
documents and meeting with members of Puerto Rico's three political 
parties on multiple occasions. The result was a surgically precise and 
legally correct document that is crystal clear as to what needs to be 
done to resolve this issue.
    Furthermore, the Report's first recommendation to Congress 
basically incorporates the process prescribed by the Substitute to 
House Bills 1014, 1054 and 1058 <SUP>16</SUP>, which was a truly 
historic achievement of our House of Representatives and Legislative 
Assembly in general. That measure was a product of honest and frank 
negotiations with fellow representatives of the three delegations in 
the House (thus representing the traditional status options in Puerto 
Rico), as well as with the Governor of Puerto Rico by means of his 
party's minority leaders both in the House and Senate. The result was a 
status bill which garnered the UNANIMOUS APPROVAL in both chambers. 
<SUP>17</SUP> That included not only the vote of members of the 
majority pro-statehood New Progressive Party; but also, those of the 
minority pro-independence Puerto Rican Independence Party and the pro-
commonwealth Popular Democratic Party. Sadly in an unexpected move, 
Governor Acevedo-Vila vetoed the measure after all of his conditional 
amendments were included and after his minority leaders had indicated 
that the Governor would sign the aforementioned measure.
---------------------------------------------------------------------------
    \16\ The stated objective of the Substitute to House Bills 1014, 
1054 and 1058 was
       To authorize the holding of a referendum in which the People of 
Puerto Rico may express themselves to demand from the President and the 
Congress of the United States of America, before December 31, 2006, an 
expression of their commitment to respond to the claim of the People of 
Puerto Rico to solve their political status from among fully democratic 
options of a non-colonial, non-territorial nature; to create a 
Committee to Petition, appropriate funds, and for other purposes.
       As per Section 7 of this measure, voters would have had the 
opportunity to vote yes/no on the following proposition:
         We, the People of Puerto Rico in the exercise of our right to 
self-determination, demand from the President and the Congress of the 
United States of America, before December 31, 2006, an expression of 
their commitment to respond to the claim of the People of Puerto Rico 
to solve our political status among fully democratic options of a non-
colonial and non-territorial nature. (Substitute to House Bills 1014, 
1054 and 1058, Presented by the Committee on Governmental Affairs, 
House of Representatives of Puerto Rico, 15th Legislative Assembly, 1st 
Session)
    \17\ Even though the initial version of the Substitute Bill was the 
product of intense, albeit productive meetings, where the final result 
was a true consensus between the three ideological sectors in Puerto 
Rico as represented by the majority pro-statehood New Progressive 
Party, the pro-Commonwealth Popular Democratic Party and the Puerto 
Rican Independence Party, the initial vote in the House on March 17, 
2005, was 35 in favor and 9 against. Those 9 votes were dissident 
members of the Popular Democratic Party who deviated from the directive 
of Governor Acevedo-Vila as presented by their Minority Leader, Hon. 
Hector Ferrer-Rios. Nonetheless, once the measure was considered by the 
full Senate on March 31, 2000, and additional last minute changes by 
the Governor were included in the Substitute Bill in order to maintain 
the historic consensus, the Substitute to House Bills 1014, 1054 and 
1058 garnered 27 votes in favor and none against. The following day, 
with a 43x0 vote, the House of Representatives concurred unanimously 
with the measure as approved by the Senate, thus securing its place in 
our Island's political history as the first status measure that was 
able to achieve unanimous support in both legislative chambers.
---------------------------------------------------------------------------
    As the proponent and/or defender of the status quo, it is logical 
to conclude that Governor Acevedo-Vila is not truly committed in 
addressing this issue. He may fear the future and the inevitable 
consequences of change and self-determination. Could that be the reason 
for his absence here today? I leave that up to my fellow Puerto Ricans 
and to you the members of this Committee.
    Three months after the President's Task Force issued its Report, on 
March 2, 2006, Resident Commissioner Luis Fortuno filed H.R. 4867. This 
measure, also known as the ``Puerto Rico Democracy Act of 2006'', 
basically incorporated all the recommendations proposed by the Task 
Force's Report. It is significant to point out that, in less than two 
months, this measure has garnered the support of 106 sponsors, 
including 21 members of this Committee. Because of this measure, 
Congress is in a much better position to address this issue in the most 
prompt and responsible manner while exercising its constitutional 
prerogatives.
    At the same time, it is appropriate to point out that on March 15 
of this year, Representative Duncan filed H.R. 4963. This measure 
supported in Puerto Rico by Governor Acevedo-Vila and his Popular 
Democratic Party proposes the recognition of ``the right of the 
Commonwealth of Puerto Rico to call a constitutional convention through 
which the people of Puerto Rico would exercise their right to self-
determination...''. I wish that this Committee may have the time and 
opportunity to seriously consider what is proposed by this measure. 
Particularly, I would like for you to ponder... how democratic would it 
be for a select group of individuals to decide the future of all Puerto 
Ricans as to our final status option? Therefore, wouldn't the calling 
of a constitutional convention run contrary to our entrenched concept 
of participatory democracy and the constitutional principle of one 
person, one vote?
    As you may be fully aware, there are people, both in Puerto Rico 
and here in the mainland, who would rather not have this issue take 
center stage at the national level. One could easily denominate them as 
the powerful ``Forces of Inertia''. <SUP>18</SUP> You may have heard 
them talk about self determination, but their track record in 
torpedoing any step that may lead to the exercise of full self-
government befits Dr. Kevorkian.
---------------------------------------------------------------------------
    \18\ Former Governor and current Senator Dr. Pedro Rossello 
describes what he calls ``colonial inertia'' on page x of the 
Introduction to his book titled The Unfinished Business of American 
Democracy as:
       ``colonial inertia'' effectively stymies the formation of any 
consensus among the Puerto Rican people concerning a permanent solution 
to our political status dilemma. Repeatedly, for as long as anyone 
alive today can remember, inertia has fomented indecision. And, 
invariably, that inertia has been perpetuated and exacerbated by doubt 
and uncertainty over what exactly would be the terms under which a 
permanent status solution would be implemented.
---------------------------------------------------------------------------
    As all of you know, it is easier to kill an initiative than to 
convince others about its importance and merits. Therefore, since they 
are very able as to what they do in order to achieve their nefarious 
goal, there are three important myths that I want to dispel from your 
minds.
    First myth... that Puerto Ricans need to get their act together 
first and present the federal Government with the solution to this 
issue.
    I would begin my reply by formulating the following question... how 
could we get our act together if the people have been confused and 
misinformed for decades as to what is truly available under each of the 
traditional status options? <SUP>19</SUP>
---------------------------------------------------------------------------
    \19\ This concern was discussed by former Governor and current 
Senator Dr. Pedro Rossello on page 239 of his book titled The 
Unfinished Business of American Democracy and, particularly, in a quote 
from Christina Duffy Burnett and Burke Marshall's Foreign in a Domestic 
Sense: Puerto Rico, American Expansion, and the Constitution, Duke 
University Press, 2001:
       How does colonial inertia manifest itself? What mechanisms 
perpetuate a colonial mindset?
       Is there really a simple distinction between the imposition from 
above of an unwanted colonial regime and the inability of the colonial 
subjects to agree on a path toward decolonization? Can the lingering 
divisions among colonized people ever be fully separated from the 
inherent divisiveness of a regime imposed from above? Are these not at 
some point mutually constitutive? One might say, looking at the result 
of the 1998 plebiscite, that the people of Puerto Rico exercised their 
inalienable right to self-determination, and a majority of them--fully 
50.3 percent, to be exact--chose to remain a colony. One might also 
say, however, that the oldest strategy for governing recalcitrant 
subjects--divide and conquer--was subtly at work. A long-overdue and 
commendable reluctance on the part of the United States to impose an 
unwanted solution upon Puerto Rico's problem has become 
indistinguishable from a less commendable willingness to do nothing at 
all about the problem, now well cloaked in the unimpeachable rhetoric 
of noninterference with the principles of ``self-determination'' and 
the ``will of the people.'' This inaction rests on flawed premises: 
that Puerto Rico's status problem is somehow untouched by the actions 
and inactions of the people of the United States and their government; 
that this problem has no real consequences for them. (Emphasis 
supplied)
---------------------------------------------------------------------------
    The role of the Federal Government in providing for a final 
solution to our centuries old dilemma is essential to this process, not 
because we feel or act as subservient to anyone (as that would be 
totally un-American), but because we fully respect and adhere to the 
rule of law; and under the current Commonwealth territorial arrangement 
we do not have the power--nor the right--to change our current status 
or relationship with the United States in a unilateral manner. The 
recognition of this congressional power over those of us who reside in 
Puerto Rico is a legal and political reality over which we have no 
control. Nonetheless, that does not mean that any process undertaken by 
the Federal Government would preclude or inhibit continuous dialogue 
and negotiation by the people of Puerto Rico regarding the specifics 
and details of each option, the process or processes that need to be 
undertaken to finally enable this final choice by our people, as well 
as the implementation of the selected option.
    For the past thirty years, the political and ideological blocks in 
Puerto Rico have been bogged down in a political quagmire. No side 
commands a solid absolute majority. Misinformation and confusion as per 
the future and our real status options reigns supreme. That is the 
reason for the results of the three plebiscites of local initiative 
(1967, 1993 and 1998). None have led to anything, particularly those of 
1967 and 1993 where the option of ``Enhanced Commonwealth'' resulted as 
the winner (although that may also be the fault of proponents who 
really did not want Congress to take action with regards to their 
status options or to the issue in general). Why would a constitutional 
convention be any different?
    Therefore, it should become clear that, in order to resolve this 
issue once and for all, the Federal Government, and Congress in 
particular need to assume their constitutional prerogatives and 
responsibilities over the nearly four million U.S. citizens who reside 
in Puerto Rico. Failing to do so would only complicate the problem 
further. <SUP>20</SUP>
---------------------------------------------------------------------------
    \20\ Former Governor and current Senator Dr. Pedro Rossello quotes 
from former Governor Hernandez-Colon's essay in Foreign Affairs in page 
240 of his book titled The Unfinished Business of American Democracy 
that:
       ...the resolution of the status of Puerto Rico has been left 
hanging. It is morally unacceptable, unfair, and harmful to Puerto Rico 
and the United States for Congress to relegate the issue to business as 
usual--that is, do nothing, wait for a Puerto Rican initiative, play 
with it for a while but take no action, wait for the next initiative, 
and repeat the cycle. Such insensitivity undermines Puerto Rico's 
capacity for self-government, inflicts considerable hardship on its 
society, and drains the U.S. Treasury. (Emphasis supplied) (Doing Right 
by Puerto Rico, Foreign Affairs, July-August 1998)
---------------------------------------------------------------------------
    Second myth... that Puerto Ricans do not wish to change their 
status... why force something that they do not want?
    This myth is based on pure misinformation.
    Some people in the mainland may ask... haven't Puerto Ricans long 
favored Commonwealth in plebiscite after plebiscite? NO.
    Back in the early 1950's when the Commonwealth territorial 
arrangement came into life, no plebiscite or referenda among options 
was ever held. We were only presented the question whether we wanted to 
follow the path to have a Constitution of our own or remain subject to 
an Organic Act. <SUP>21</SUP> As you see, that could never be confused 
with a true process of self-determination... as there was never a 
ballot with status choices.
---------------------------------------------------------------------------
    \21\ Public Law 600 stated in its first two sections, that 
``...this Act is now adopted ``so that the people of Puerto Rico may 
organize a government pursuant to a constitution of their own adoption. 
... This Act shall be submitted to the qualified voters of Puerto Rico 
for acceptance or rejection...'' (Act July 3, 1950, c. 446, 64 Stat. 
314.)
---------------------------------------------------------------------------
    In the first plebiscite ever conducted, held in 1967, almost 60% of 
voters favored an ``Enhanced Commonwealth'' option. Statehood achieved 
close to 40%, as the Puerto Rican Independence Party boycotted the 
plebiscite accounting for almost no votes in favor of Independence. As 
I have indicated before, there was no concerted effort undertaken by 
commonwealth advocates for Congress to take action on the vote.
    The next plebiscite was held in 1993 and another version of 
``Enhanced Commonwealth'' won the electoral vote; this time though, 
with a plurality of less than 49% of the vote. Again, the pro-
commonwealth Popular Democratic Party took more than half a year to 
inform the House Subcommittee with jurisdiction over Puerto Rico 
regarding the results of the 1993 Plebiscite. <SUP>22</SUP> The result 
was a subcommittee hearing on October 17, 1995.
---------------------------------------------------------------------------
    \22\ Statement of Ms. Celeste Benitez on behalf of the Hon. Hector 
L. Acevedo, then President of the Popular Democratic Party, presented 
in the hearing on H.R. 4442, before the Subcommittee on Insular and 
International Affairs of the House Committee on Natural Resources, 
103rd Congress, 2nd Session.
---------------------------------------------------------------------------
    Then, in 1998, in a plebiscite where the current Commonwealth (or 
status quo) was an option... that option failed to garner 1% of the 
vote. <SUP>23</SUP> Therefore, as anyone may see... there is clearly NO 
mandate by the Puerto Rican electorate to maintain our current 
Commonwealth territorial arrangement as is.
---------------------------------------------------------------------------
    \23\ That has been the ONLY plebiscite or referendum where the 
current Commonwealth territorial arrangement has been on the ballot. In 
each of the two occasions that ``Commonwealth'' resulted as the most 
favorite option of Puerto Rican voters (1967 and 1993), they were NOT 
presented with the option to vote in favor of the current Commonwealth 
territorial arrangement. Then... how could anyone say that voters have 
supported ``Commonwealth'' as we know it in plebiscite after 
plebiscite? Would it be wise and logical to conclude that, if voters 
have been told by Congress that the winning options of ``Enhanced 
Commonwealth'' presented to voters in 1967 and 1993 were 
unconstitutional and unavailable as a status choice, the results would 
have been the same? Therefore, please stay away from the overly elastic 
interpretations regarding the results of our locally sponsored 
plebiscites or referendums.
---------------------------------------------------------------------------
    Befitting the level of confusion and misinformation that exists 
among Puerto Ricans with regards to true contour of the options that 
would be really available... the write-in column, titled ``None of the 
Above'', garnered over 51% of the vote. It is important to point out 
that voter participation in these plebiscites hovered around 75 to 85% 
and in poll after poll, people select this issue as either the most 
important one that needs to be addressed. or at the very least among 
their top 5. Obviously, this shows the existence of a clear consensus 
among Puerto Ricans, overlapping ideological and party lines, yearning 
for a resolution to this issue. <SUP>24</SUP>
---------------------------------------------------------------------------
    \24\ Even those who favor an ``enhancement'' of the current 
``Commonwealth'' territorial arrangement have gradually come to the 
same conclusion. For example, H.B. 1014 filed by Governor Acevedo-Vila 
on February 11, 2006, in the House of Representatives through his 
minority delegation, clearly states in the last paragraph of the 
Statement of Motives that:
         It is up to the people, subject of history and main agent of 
their future, to decide the manner in which we may best solve this 
pressing issue of the final status of Puerto Rico.
       Furthermore, former Governor Rafael Hernandez-Colon, has stated 
that ``[a]ll factions do agree on the need to end the present 
undemocratic arrangement, whereby Puerto Rico is subject to the laws of 
Congress but cannot vote in it.'' (Emphasis supplied) (Doing Right by 
Puerto Rico, Foreign Affairs, July-August 1998)
---------------------------------------------------------------------------
    Third myth... that the Report is skewed towards statehood and 
unfair in its treatment of Commonwealth.
    This myth has two different fronts.
    First... the procedural one... that the initial round was presented 
in order to corner the supporters of Commonwealth with the choice of 
rejecting ``to pursue a Constitutionally viable path toward a permanent 
non-territorial status with the United States,'' <SUP>25</SUP> while 
sponsoring an ``artificial majority'' of pro-statehood and pro-
independence supporters who would obviously vote in favor of such a 
proposal.
---------------------------------------------------------------------------
    \25\ Report by the President's Task Force on Puerto Rico's Status, 
December 22, 2005, p. 10.
---------------------------------------------------------------------------
    This argument is completely flawed for a couple of reasons. On the 
one hand... on what grounds would commonwealth supporters reject the 
aforementioned language proposed by the President's Task Force for the 
first round? Don't they want to establish and clarify once-and-for-all 
that their ``Enhanced Commonwealth'' is constitutional and a permanent 
non-territorial status? After all, pro-commonwealth Popular Democratic 
Party legislators voted unanimously in favor of language that was even 
stronger in its stance with regards to the issue in the Substitute to 
House Bills 1014, 1054 and 1058. <SUP>26</SUP>
---------------------------------------------------------------------------
    \26\ Please refer to Footnote 16.
---------------------------------------------------------------------------
    On the other hand... any coalition of voters which might favor the 
aforementioned language proposed by the President's Task Force for the 
first round do not constitute an ``artificial'' grouping; but rather, a 
true measure of the consensus in Puerto Rico that transcends ideologies 
and party lines with regards to the need for a final resolution to this 
centuries old dilemma. <SUP>27</SUP>
---------------------------------------------------------------------------
    \27\ Please refer to Footnote 24.
---------------------------------------------------------------------------
    Second... the substantive one... that the Report contains a biased 
and incorrect description of the current Commonwealth territorial 
arrangement; and furthermore, that it is incorrect as well in not 
recognizing Free Association as an option in the second round proposed 
in its second recommendation.
    With regards to the Report's description of our current 
Commonwealth territorial arrangement, I would just reiterate what I 
have stated earlier in this testimony, as well as the legally sound 
conclusions reached by the United States Department of Justice on this 
same issue as included in the Task Force's Report. <SUP>28</SUP>
---------------------------------------------------------------------------
    \28\ Please refer to Footnotes 8, 12 and 15.
---------------------------------------------------------------------------
    As per the supposed intentional omission of Free Association, the 
reason for its non-inclusion is very simple. Free Association is a 
legitimate decolonizing option as recognized by International Law and 
by our own political experience with various strategic territories in 
the Pacific Ocean which we had previously held in ``trusteeship'' for 
several decades after the Second World War. The Report does not 
contradict this reality and our own experiences. On the contrary, the 
Report recognizes Free Association, albeit as an offshoot of separate 
sovereignty or independence. The reason for the position taken by the 
Task Force in its Report is based in constitutional, legal and 
political restraints of our Nation, as only Statehood and Independence 
can truly be permanent options. On the other hand, if Puerto Rico were 
to become a sovereign nation in free association with the United 
States, such a relationship would be based on a treaty... but everybody 
has to keep in mind that no treaty can unilaterally force the United 
States to relinquish its constitutional and political prerogatives to 
withdraw unilaterally whenever it may see fit.
    This shows the sound legal positions taken by the members of the 
Task Force and their commitment in making sure that the people of 
Puerto Rico may understand the implications of each option in the most 
clear and precise manner.
    Besides all the compelling arguments for Congress to address the 
issue of Puerto Rico's self-determination... for many of you there 
could be another very important reason for this issue to be resolved 
now... that is the cost of Puerto Rico to the American taxpayer. In a 
book titled ``Pay to the Order of Puerto Rico: The Cost of Dependence 
to the American Taxpayer'' <SUP>29</SUP> Alexander Odishelidze and the 
renowned Arthur B. Laffer concluded that our current Commonwealth 
territorial arrangement ``is enormously costly to the American people'' 
over the past 20 years alone, it has been a $200 billion drain on the 
American taxpayer. From my perspective, the worst part of it all is 
that it has been equally, if not more costly for the Puerto Rican 
people, who are taxed in ways they cannot see... by growth that has not 
occurred... and sound policies that cannot develop and flourish in 
dependency.''
---------------------------------------------------------------------------
    \29\ Odishelidze, Alexander and Laffer, Arthur, Pay to the Order of 
Puerto Rico: The Cost of Dependence to the American Taxpayer, Fairfax: 
Allegiance Press, 2004.
---------------------------------------------------------------------------
    Today, Puerto Rico receives around $20 billion a year in federal 
funds, <SUP>30</SUP> although in essence, and particularly with the 
current misguided policies in place at the state level, we certainly 
need more. The failed economic policies of which Governor Acevedo-Vila 
has been part, demonstrate the total bankruptcy of the current 
Commonwealth territorial arrangement. There is no economic model for 
the future well-being of our people. The only manner in which they have 
masked the severe limitations and failure of their model is by bloating 
the government payrolls and forcing outward migration to the mainland.
---------------------------------------------------------------------------
    \30\ According to the Caribbean Business, Thursday, October 28, 
2004, page 31, Puerto Rico received $19,617,536,000 in Federal funds 
during FY 2003.
---------------------------------------------------------------------------
    The economy is stagnant, if not close to becoming paralyzed. Even 
though our unemployment rate has been hovering between 10 and 12% for 
the past few years, the reality of our bleak situation can be further 
understood by looking at our employment participation rates. For 
example, according to the 2000 Census, Puerto Rico's employment 
participation rate was at 40.7%; well below the 63.9% of the U.S. 
mainland. Many of your fellow citizens who reside in Puerto Rico have 
just lost any hope for employment and have rather decided to live on 
welfare. That is why over 50% of all Puerto Ricans live below the 
federal poverty level. <SUP>31</SUP>
---------------------------------------------------------------------------
    \31\ Such an untenable situation is the obvious result of decades 
of indifference regarding the need to resolve the status issue of your 
fellow citizens who reside in Puerto Rico. Neither the people of Puerto 
Rico, nor the taxpayers in the fifty states and the District of 
Columbia, benefit from the status quo. It should be self-evident that 
``any sort of second-class citizenship will--as an inevitable byproduct 
of its discriminatory nature--condemn its recipients to inferior 
economic and quality-of-life outcomes vis-a-vis first-class 
citizens.''; as former Governor and current Senator Dr. Pedro Rossello 
describes on page 11 of his book titled The Unfinished Business of 
American Democracy.
---------------------------------------------------------------------------
    The solution of the past two pro-commonwealth administrations has 
been a sharp increase in the government payrolls. Puerto Rico's daily 
English newspaper, The San Juan Star, reported last September 6, that 
the previous Calderon-Acevedo Vila Administration was responsible for 
increasing government payrolls by 14.37% between 2001 and 2005. Even 
with the fiscal crisis that we face because of the misguided policies 
of the past five years, Caribbean Business reported as recently as 
March 30th that government rolls registered a net increase of 500 
employees for the month of February.
    Under Commonwealth, and particularly in the last five years, 
migration to the mainland has increased dramatically. Researchers in 
Florida have indicated that every month, close to an average of 5,000 
Puerto Ricans move to the Greater Orlando area. With our social and 
economic situation worsening year after year... what could we expect 
next? If there were various real concerns that were discussed after the 
Katrina temporary displacement of many Gulf residents... what would an 
exponential increase in a permanent northward migration of our people 
cause here in the mainland?
    Worse of all, rather than being an agent of hope and of a sound 
economic future, the current Administration of Governor Acevedo-Vila is 
intent in solving our present situation by raising taxes and trying to 
ram through our Legislature other revenue raising measures. They do not 
seem intent in following the path of fiscal reform and a commitment to 
real restraint and austerity measures with regards to government 
expenditures. Now, in order to create havoc among our populace and in 
order to further pressure our legislators, Governor Acevedo-Vila is 
threatening a partial government shutdown beginning next Monday, May 
1st.
    Under those circumstances, I must remain in Puerto Rico. 
Nonetheless, I congratulate this Committee for deciding to hold this 
hearing regardless of the Governor's plea to the contrary. The real 
reason behind our fiscal crisis is our current Commonwealth territorial 
arrangement.
    In many ways, your hearing today might help to the eventual 
fulfillment of the promise given by General Nelson Miles upon the 
landing of our troops in the southern town of Guanica in the Spanish 
American War, when he said that... ``[o]ur military forces have not 
come to make war on the people of the Country; but on the contrary, to 
bring protection, promote your prosperity and bestow the immunities and 
blessings of our enlightenment and liberal institutions and 
government.''
    May God enlighten you to act according to what may be best for your 
fellow citizens who reside in Puerto Rico.
    May God bless America... and in particular all my fellow Puerto 
Ricans who place their hopes for their future in your hands.
    Thank you very much.
                                 ______
                                 
    [A statement submitted for the record by Hon. Tom Davis, a 
Representative in Congress from the State of Virginia, 
follows:]

Statement of The Honorable Tom Davis, a Representative in Congress from 
                         the State of Virginia

    For many years there has been a general consensus that Congress 
should respect the wishes of the U.S. citizens of Puerto Rico regarding 
their political status. The problem is that only Congress can define 
what status options it will recognize and consider.
    In the absence of a Congressional policy on what status options are 
available to Puerto Rico, the local political parties in Puerto Rico 
have formulated their own definitions. This has led to confusing and 
inconclusive results in every local status plebiscite.
    There has not been a majority vote for any status option in the 
most recent votes, and in the most recent vote slightly over 50% of the 
voters chose a ``None of the Above'' option.
    The time has come for Congress to end its silence and make 
meaningful and informed self-determination possible for Puerto Rico. 
The political status of Puerto Rico is defined by federal law, and 
Congress has a responsibility to define the current status and the 
options for a new status.
    If the U.S. citizens of Puerto Rico prefer to remain a territory 
with self-government under their local constitution on all matters not 
governed by federal law, we need to know that the current status is one 
to which the residents of the territory still give their consent.
    Since the Commonwealth of Puerto Rico currently does not have 
voting representation in Congress or a vote for President, Congress 
needs to be able to confirm periodically that the people in the 
territory consent and are not disenfranchised at the national level 
against their freely expressed wishes.
    If the people in the territory prefer a status that has the same 
full democratic participation in the political process at the national 
level as U.S. citizens in the former territories that have become 
states, Congress needs to determine the terms under which statehood 
would be granted to Puerto Rico.
    Similarly, if the residents of the territory want the same full 
democratic participation in the political process at the national level 
as those territories that have become separate nations, Congress needs 
to determine the terms for recognition of Puerto Rico as a nation in 
the future.
    Separate nationhood can include full independence, or a status of 
free association between two nations that allows for close political 
relations, but recognizes the right of each nation to end the 
association and become fully independent.
    The Task Force report maps out a process for the voters to inform 
Congress of their aspirations regarding status options recognized by 
Congress. Such a process, allowing 4 million U.S. citizens a choice 
between basic democratic status options, is long over due. I support 
the report's recommendations and hope we adopt implementing legislation 
soon.
                                 ______
                                 
    [A statement submitted for the record by Hon. Henry Hyde, a 
Representative in Congress from the State of Illinois, 
follows:]

          Statement of The Honorable Henry J. Hyde, Chairman, 
               House Committee on International Relations

    Mr. Chairman,
    Today the House Committee on Resources is holding an important 
hearing on ``The Report by the President's Task Force on Puerto Rico's 
Status.'' Earlier this year, Representative Luis Fortuno introduced 
H.R. 4867, the Puerto Rico Democracy Act of 2006, of which I am an 
original cosponsor. H.R. 4867 is the only bill which seeks to implement 
the White House Task Force Report recommendations which would allow 
U.S. citizens residing in Puerto Rico to vote on their status 
preference directly for the first time in 108 years.
    The President's Task Force on Puerto Rico's Status was given the 
mission of defining the policies that should govern political status 
resolution for Puerto Rico. The Task Force developed and documented a 
set of interagency policy findings and recommendations, then formally 
transmitted it to Congress and released it to the public.
    In this way, the President went beyond platitudes about accepting 
the will of the people in Puerto Rico, and put his Administration to 
work to produce a definitive policy. He mobilized the Executive Branch, 
and his appointed representatives did their job.
    Both the Republican and Democratic platforms adopted in 2004 
recommend a federally sponsored status process based on options 
clarified by the White House and Congress. I might add that, at its 
2006 winter meeting, the Republican National Committee adopted a 
resolution supporting the Task Force report.
    In light of all this, I consider the report a job well done. The 
focus now shifts to Congress, where we must meet our responsibility. 
The Task Force report provides a good road map, because it draws 
heavily on the record before Congress and the courts.
    So we should not be afraid of the choices and the mechanism for 
self-determination recommended in the White House Task Force report. 
America should not hesitate to deliver on its promise of informed self-
determination in Puerto Rico, and the Task Force report points the way 
for us to do just that.
    Thank you, Mr. Chairman.
                                 ______
                                 
    [A statement submitted for the record by Miriam J. Ramirez, 
M.D., Vice President, New Progressive Party of Puerto Rico, and 
President, Republican Women of Puerto Rico, follows:]

  Statement of Miriam J. Ramirez, MD, Vice President, New Progressive 
  Party in Puerto Rico, and President, Republican Women of Puerto Rico

    Miriam J. Ramirez is presently Vice President of the New 
Progressive Party in Puerto Rico and President of the Republican Women 
of Puerto Rico. She was a state senator from 2000 to 2004 and was 
President and founder of Puerto Ricans in Civic Action, a nonpartisan 
organization working to secure political and economic equality for the 
four (4) million United States citizens resident on the island. Since 
1982, Dr. Ramirez spearheaded the grassroots lobbying efforts of the 
group in the United States Congress. She was instrumental in scaling 
back Section 936 tax exempt benefits in the Omnibus Budget 
Reconciliation Act of 1993. Tax Sparing benefits have played a 
significant role, and influence, in the political and economic life of 
Puerto Rico. She was also instrumental in the introduction and passage 
of H.R.856, also known as the Young Bill.
    Ms. Ramirez also spearheaded the effort in support of the 
permanence and training of the U.S. Armed Forces and the Navy in 
Vieques, Puerto Rico.
    Ms. Ramirez is retired from a gynecological medical practice in 
Puerto Rico.
INTRODUCTION
    Honorable Richard Pombo, Chairman of the Resources Committee, 
Honorable Members and staff,
    I had hoped to be able to present my testimony orally during the 
Task Force Report Hearings, but I understand the time limits available 
to this Honorable Committee. Therefore I respectfully request that my 
statement be included for the record.
    Perhaps you have visited Puerto Rico, and seen the historic sights 
and the modern dynamic society here in the Caribbean, truly making our 
island its Shining Star.
    All this progress has been possible with our nearly 100 year old 
relationship with the United States. A relationship that now must take 
one final step beyond territory and colonial links to one that either 
unites our two destinies together forever, eternally preserving our 
cherished American citizenship, or creates an independent Puerto Rico 
with its own sovereignty, nationality and distinct citizenship.
    The White House Task Force's courageous efforts to resolve our 
mutual relationship dilemma is highly appreciated. Now it is time for 
Congress to exercise its responsibility under the Territorial Clause of 
the U.S. Constitution to define the status options available to Puerto 
Ricans who, through the process of self-determination, will choose a 
final status for Puerto Rico.
    It is sad that this issue of status choices has been left to 
Congress rather than to the people of Puerto Rico, due in part to some 
of our own political leaders who have failed over the past almost 100 
years to address the realities of the options available under the U.S. 
Constitution. It's not that we did not have appropriate guidelines to 
help us present the permitted choices but rather for political 
expediency some of our leaders opted to maintain the fiction of the 
status quo in order to preserve their own power.
    As the President's Task Force has so eloquently stated, Puerto Rico 
remains an unincorporated territory of the United States. They reached 
this conclusion after careful research and examination of the 
historical records as well as your own extensive hearings including 
those heard in the 1980's and 1990's. At those hearings, proponents of 
all the status options were heard and their arguments weighed.
    Through the last 20 years, we have acquired many historical 
documents dealing with the political relationship of Puerto Rico with 
the United States. A civic group, Puerto Ricans in Civic Action, which 
I founded and presided, delivered 350,000 individually signed petitions 
to Congress for statehood and worked hard with Congress to solve the 
status problem of Puerto Rico. We hope these historical documents and 
our years of research will help clarify many misconceptions regarding 
the present relationship of Puerto Rico and the United States.
    Please see a list of historical events which will help set the 
record straight. (Addendums I & II)
    We are hopeful that President George Bush's Task Force Report will 
move Congress to unravel and resolve this status question.
    The Unites States Courts, Congress, the Executive branch and others 
have confirmed what most of us have known for years, Puerto Rico's 
status has not changed since 1898 regardless of how our island today 
may be called.
    Clearly, some of our people would argue otherwise but it is self-
evident that there is no place in the Constitution for an entity other 
than a territory, possession or a state. It is also self-evident that 
only a Constitutional amendment, not an act of Congress, or Puerto 
Rico's Popular Democratic Party ``s mischievous actions, can alter that 
fundamental document and confer a status that does not appear therein.
    Yet for over forty plus years, the PDP's commonwealth proponents 
have insisted that their so called Free Associated State status was 
legitimate under the U.S. Constitution. It is a ``status'' that seeks 
all the benefits of statehood without its burdens.
    They have preached no federal taxation but full U.S. benefits, 
sovereignty without responsibility and American citizenship without 
integration into the American system. However, our local tax system is 
more onerous to the U.S. citizens in Puerto Rico than to any of the 
citizens in the fifty states when added federal taxes together.
    A new law creating a sales tax is the object of a political crisis 
right now, as a response to the economic collapse created by the PDP 
governments due to extravagant government spending.
    For this reason the White House Task Force was well advised to find 
that the commonwealth option on the 1993 plebiscite was not entitled to 
full credence given that these promises including guaranteed American 
citizenship and permanent union with the United States can only be 
achieved under statehood. These PDP's promises have been made but in a 
long line of gestures offered up without any hope of being fulfilled.
    Having dismissed a status choice without constitutional bearings, 
Members of Congress, I presume, must have reached the same conclusion 
that we have come to, namely, that left to some of Puerto Rico's 
leaders the status issue might never be resolved in such a manner that 
Congress could implement. Not wanting to prolong indefinitely a process 
that was leading to only inconclusiveness, in the 90's, Chairman Don 
Young, and the Resources Committee finally took the bull by the horns 
and acted.
    Their decision to enumerate the status choices constitutionally 
permissible was so courageous, that they must have known, from their 
close contacts with Puerto Rico over the years, it would ignite the 
passions of many who have clung to the unattainable. Yet there could be 
no other avenue to escape Congress' responsibilities under the 
Territorial Clause. After all, that clause and the Treaty of Paris 
invest Congress with plenary power over American Territories.
    The choices they did make under the Young bill were the only ones 
comporting with both the Constitution and international law; the only 
ones that could definitively decolonize Puerto Rico; the only ones that 
people of Puerto Rico could choose from among and the only ones that 
Congress could act on. President Bush's Task Force Report has informed 
likewise.
    Clearly, as a statehood advocate, I prefer that option for Puerto 
Rico. When Congress gives the U.S. Citizens in Puerto Rico the lawful 
choices and the opportunity to vote, I am sure they too will choose 
statehood.
OTHER STATUS OPTIONS
    While I cannot talk authoritatively about either independence or 
free association there are some observations, nevertheless, I wish to 
make concerning these options, the consequences for Puerto Rico 
attached to each and the manner in which they are to be achieved. The 
Task Force Report has addressed some of these issues which have created 
discussion in the island.
    President Bush's Task Force has recognized, rightly so, that full 
independence or free association carries with it certain attributes 
which endow specific responsibilities and obligations on those who 
choose this path. It also carries with it changes that must affect all 
those who opt for separate sovereignty.
    Unlike the proponents of commonwealth, the Task Force has 
recognized that Puerto Rico must first become an independent entity 
before it can hope to achieve some degree of comity with the United 
States. And that any relationship and any relations that come to exist 
between a sovereign Puerto Rico and a sovereign United States must be 
the product of negotiations between the two, the result of which would 
be memorialized in a pact between the two nations.
    No such separate sovereignty ever existed between the island 
territory of Puerto Rico and the United States which would have 
legitimized the creation of a new commonwealth status. The United 
States Congress passed a law providing for limited local autonomy, a 
law which could be altered, annulled or revoked at any time by any 
congress, which was accepted by the nationals of the United States 
living here.
    In past proposed legislation, independence would be first achieved 
and all the attributes of sovereignty trade, foreign aid, tariffs, 
diplomatic recognition would be subject to treaty negotiations between 
the two nations. Nothing promised in advance of a vote, much less 
guaranteed was the case with the 1993 commonwealth ballot proposal. In 
fact given the relative power of the United States and Puerto Rico 
there is no assurance, other than hoped for good will, that Puerto Rico 
would come off better than it is today, financially or otherwise, as an 
unincorporated U.S. territory.
    Remember the old saying, ``A bird in the hand is worth two in the 
bush.''
    Similarly, replacing the U.S. Constitution and its laws with a 
Puerto Rican Constitution is a given if Puerto Ricans vote for either 
full independence or free association. A prideful people demand that 
their way of life be governed in accordance with their own laws and not 
those of another state.
UNITED STATES CITIZENSHIP
    The matter of U.S. citizenship being replaced by Puerto Rican 
citizenship should come as no surprise to our people or to our leaders. 
First, our U.S. citizenship is legislative and what one Congress can 
give another can take away. Of course, constitutional rights obtained 
under American citizenship will be protected by American courts but 
their decisions, years away, offer no solace now with respect to who 
would be retain their citizenship and who wouldn't.
    Second, how could the United States allow for an independent Puerto 
Rico to be inhabited by nearly 4 million residents with American 
citizenship? How independent would Puerto Rico truly be if the United 
States, as it was obliged to do under the Constitution, saw fit to 
exercise its responsibilities to protect Americans wherever situated? 
If the Marines could be dispatched to save one American in Tripoli just 
how many would be sent to San Juan to 'free' hundreds of thousands or 
millions, for that matter.
    Of course, it's hypocritical to say the least that independence 
proponents would want their Puerto Rican citizens to also be American 
citizens. How does such a situation comport with the idea of a separate 
Puerto Rican nation and nationality with its own culture and language?
    This brings me to the final question on citizenship. Just what are 
the motives or intentions of supporters of the status quo and 
independence when they assert that U.S. citizenship should and can be 
retained by all Puerto Ricans regardless of the impermanence or 
permanence of the relationship of Puerto Rico with the United States?
    Under any status formula that creates an autonomous or independent 
Puerto Rico American citizenship would be inconsistent with 
sovereignty. Given that American borders are freely open to national of 
other countries, most of which do not even require passports or visas, 
Puerto Rican citizenship would not inhibit our residents from visiting 
the United States mainland to visit relatives, friends, vacation, or 
conduct business.
    If, on the other hand, autonomy proponents envision dual American 
and Puerto Rican citizenship as a means to obtain American aid and 
funding of federal programs here in Puerto Rico then U.S. citizenship 
is nothing more than a pretext to exact economic tribute. It this is, 
indeed, the case then it doesn't speak well for their promises, 
something for nothing, or casts the island's residents as little more 
than welfare miscreants looking for a handout.
    What their use of citizenship to obtain federal funding is nothing 
more than an effort to use commonwealth or independence, with dual 
American citizenship, as a vehicle to get all the economic benefits of 
statehood without the corresponding obligations of paying federal 
taxes. Unlike these hypocrites, I do not share their mercenary view of 
our fellow citizens who have made the supreme sacrifice for American 
freedom and democracy since the First World War. Puerto Ricans, willing 
to shed their blood for America, are more than willing to pay their 
fair share for paying its costs.
    The drafters of H.R. 856 ably dealt with this issue.. They made it 
abundantly clear that the price of independence is, among other things, 
both the loss of American citizenship and the attendant federal aid and 
funding that such an honor bestows on citizens who must bear, in 
return, the price of government through federal taxation.
    Since American citizenship offers an independent Puerto Rico little 
more than an obligatory handout, even then one that may not be 
forthcoming or is even guaranteed, its substitution for Puerto Rican 
citizenship should be of little consequence. Furthermore, ii is 
disingenuous to seek a separate nationality in order to preserve what 
supporters call a distinct culture and nation while at the same time 
desiring to retain the most important indicia of colonial status and 
subservience, the citizenship of another country, its colonial master.
    If there is any way to reconcile independence or free association 
with retention of American citizenship I am at a loss to be told why. I 
am also at a loss to understand how America, or any nation for that 
matter, would acquiesce in the decolonization of one of its possessions 
while at the same time preserving their most important ties to the 
mother country.
    Congress provided the one avenue to full self-government through 
self-determination that nearly ninety-five percent of all Puerto Ricans 
voted for in the 1993 plebiscite: statehood.
    This option guarantees American citizenship and a permanent 
relationship between the U.S. and Puerto Rico. It is the only status 
option, past, present or future, which provides these two most 
important aspirations that all Puerto Ricans cherish. I say all because 
even those who favor independence will not be so fast to lose their 
U.S. citizenship or break fro America without first being assured that 
the economic benefits that follow that virtue are not lost.
PUERTO RICO'S ECONOMY
    This option also satisfies the most basic objectives of any 
society, beyond freedom and the protection of human rights. It will 
allow our economy to grow at a pace that to this date has been held 
back by uncertainty over the island's status and the tax incentives 
which have delivered billions of dollars into the hands of corporate 
giants with little or no incremental benefit to our citizens.
    If Hawaii and Alaska are any indication of the economic boost that 
statehood will provide then Puerto Rico's entry into the union should 
be welcomed by every worker and his or her family. Statehood will once 
and for all shatter the self-serving boast that the island territory's 
people are to be the wonder of Latin America, by Haitian or Guatemala 
standards.
    Truth be told, the real measure of Puerto Rico's prosperity should 
not be measured against beggar economies or police states but of that 
arsenal of democracy and bastion of free enterprise. The status quo, 
fomented and fermented by politicians more interested in reelection and 
corporations hell bent on preserving their territorial imperatives, has 
been used to mercenary ends by manipulating the status issue either by 
threatening job losses or promising the sun, the moon and the stars.
    The result? An economic system bereft of internal growth and 
stimulus and a population denied the American dream. Per capita income 
half Mississippi and unemployment rates twice the mainland.
    Statehood promises not only an economic salvation that has elided 
our territory but also an economic future that an independent Puerto 
Rico would be unable to fulfill with massive infusions of foreign aid 
making it all the more dependent on the largesse and whim of outside 
powers. It would be surely an independence with an insatiable 
dependency.
    Statehood too offers us the ultimate means to achieve our goal of 
dignity and self-respect through first class American citizenship. With 
that status Puerto Ricans will no longer have to be supplicants in 
Washington depending on the largesse of senators and congressmen from 
states with little in common or with no loyalty to the island that the 
discipline of constituency and reelection enforces.
    In fact, much of our relationship with Washington has been subject 
to a form of economic imperialism in which American corporations have 
leveraged their political influence and campaign contributions to make 
sure that Puerto Rico remains an unincorporated territory of the US. 
How else to explain their support for commonwealth, a status that has 
endorsed not just the continued siphoning of billions in tax funds to 
the Fortune 500 but its expansion, which owes its plurality victory not 
to the its empty promises of more for nothing but to the overt threat 
that unless statehood is defeated ``936'' dependent jobs would vanish.
    With representation our voices would be heard and heeded in 
Washington demanding law and drug enforcement support similar to what 
Florida and other states have gotten and used to fight and restrain the 
entry of illegal contraband into their ports. We would have leverage 
with the parties not only to nominate their presidential candidates 
but, with our votes, to help elect them as well. The president would 
not only listen to us but also act with for us.
    As a state, our economic interests would be intertwined with 
national policy and international trade. American corporations would 
come here not to take advantage of our tax haven but to utilize our 
educated workforce and enjoy our modern infrastructure. Similarly our 
economy would be open to foreign investors lured by the certainty of 
our status and our entry to the mainland.
    Of course, like everything else, statehood comes with a price. No 
more something for nothing or wishing even more for nothing. Puerto 
Ricans will pay federal income taxes. Not that we don't already pay 
federal taxes, some billions in social security and unemployment and 
other dollars in other taxes.
    But while some estimate that our federal tax income burden will be 
about $4 billion our net inflow of federal funds will more than offset 
that along with a decrease in our local territorial taxes which have 
been among the highest in the United States given our need as a 
territory to supplement federal Medicare, Medicaid, food stamp and SSI 
programs.
    I believe that Puerto Ricans, regardless of whether they 
individually come out ahead or not under statehood, will still embrace 
that concept. The benefits far outweigh their federal costs. There is 
no more ample proof of this than the unfortunate out island migration 
of some of our best and brightest who willingly vote for statehood with 
their feet and the taxes that come with whether they resettle in 
Orlando, Houston, New York or Pittsburgh.
    And, if that was not proof enough, what of the thousands of Puerto 
Ricans who have made the supreme sacrifice in defense of American 
democracy and freedom abroad since World War I? Why have some of our 
political leaders sought to portray us as unwilling to pay taxes in 
order to fulfill our constitutional obligations when all of us have 
been eager to serve the American flag even if our lives depended on it, 
which they have so often, including those who are now serving and those 
who have lost their lives in Iraq and Afghanistan?
THE LANGUAGE ISSUE
    Finally, it should come as no surprise that some speak to the 
language issue requiring Puerto Rico to adhere to the same linguistic 
requirements as in the several states. This is merely a restatement of 
American Constitutional law and the Tenth Amendment which reserves to 
the several states those powers not delegated to the federal 
government.
    Since there is no official language of the United States are, to 
the extent constitutionally permissible, able to set parameters on the 
language or languages that may be used in official business. Some have 
proclaimed ``English'' only laws while still others like Louisiana 
continue to recognize legal agreement written in French. Spanish and 
English are the official languages in Puerto Rico.
    There is no reason to believe that our Spanish heritage language or 
culture would be adversely affected by our entry into the Union. Yet, 
this is just what anti-statehood proponents have argued and used to 
frighten our voters into accepting their status options which lead not 
to cultural preservation but to an impoverished sovereignty bereft of 
our American identity.
    As a state, our linguistic and cultural identity tied to our 
Spanish ancestry can be preserved in a society that will thrive 
economically and politically in partnership with our sister states. 
Surely, English will be one of the languages of our government just as 
it is today the language of our federal courts and agencies.
    But those leaders from Puerto Rico who have used language to divide 
and separate and today cynically boast of Puerto Rico's ignorance of 
English to show that only autonomy or sovereignty must reign since the 
island can never be incorporated into America's mainstream culture are 
not only deceiving you but depriving us of an economic future in a 
world growing smaller each day. They know better. Most of them send 
their children to bilingual schools in Puerto Rico or schools in the 
several states so they learn good English..
    Language is not a status issue though it has been used by our 
opponents to fight statehood and discredit our claim thereto in the 
eyes of mainlanders. We know that our proficiency in English is 
questioned on the mainland as a bar to becoming the fifty-first state. 
They play into the hands of those who take this position.
    English has never been the sin qua non of statehood and it should 
not be now. In fact, other languages including Japanese, French and 
even Spanish dominated territories that became states including Hawaii, 
Louisiana and New Mexico, Texas and California and Oklahoma. When those 
states entered the Union English either prevailed or was phased in. In 
some states, New Mexico for one, Spanish retained a second language 
ranking.
    Meanwhile in every state almost every language is spoken among the 
various ethnic and religious groups that have migrated to American 
shores. Even in such remote areas as North Dakota, the New York Times 
recently reported, German speaking descendants of early pioneers are 
now learning Spanish in order to participate in our ever growing 
``Latinized'' Western Hemisphere.
    We are not as proficient in English as we should be more on that 
later because anti-statehood proponents relegated it to second usage in 
order to further their own agenda for either the status quo, 
commonwealth, or to pursue other autonomy goals. They believed that by 
keeping us ignorant of English we would be playing into the hands of 
mainlanders who would use this ignorance to bar our Union claims.
    But Congress, and its intelligent review of history has proved them 
wrong. Their mischief has not gone totally unrewarded. Although 
reversed by the current administration, the setback to English usage 
here can only be viewed as an attack not only on status, statehood, but 
on modern Puerto Rico's ability to succeed in the globalized economy.
    That economy is increasingly dominated by English speaking 
merchants whether they are in Moscow, Jakarta, Bombay, Quito, Beijing, 
Rome, Paris or Oslo. They conduct business in English and invariably 
write their agreements in that language and make them enforceable under 
the laws of either the United Kingdom or the United states, 
particularly the laws of the State of New York.
    Status aside, it is an economic suicide to cling to a politically 
motivated educational agenda that denies its citizens the tools to 
succeed in the modern world. Puerto Ricans like their Latin neighbors 
and ancestral homeland must and will take on all the trappings of 
economic opportunity, learning and using English prominent among them.
    Yet our facility in Spanish, our bilingual facility, should not be 
dismissed even by our detractors here and on the mainland. Like those 
prairie dwellers in North Dakota learning Spanish is an asset every 
American wherever located would be well advised to learn.
    We are, after all, looking south with NAFTA where one of the 
largest under developed markets in the world for U.S. goods lays 
waiting for cultivation. Puerto Rico, sharing culture, tradition and 
language can guide and lead the way toward American success in this 
market, as Americans of Spanish ancestry, like our brothers and sisters 
to the south.
    Similarly, preservation of our Spanish culture is not threatened by 
statehood. Like countless others who came to and integrated into the 
larger American melting pot we, too, can preserve our unique heritage.
    Because we take on all the trappings, rightly earned, of statehood 
and participation in the broad stream of American society doesn't mean 
that we are any different from Italian-Americans, Irish-Americans, 
Anglo-Americans, Jewish-Americans, African-Americans Polish-Americans, 
Mexican-Americans or any other of the countless hyphenated Americans. 
All of whom work, play and live in and as America but also revel in and 
keep up their ethnic, religious and cultural ties to their roots. In 
fact there is hyphenation already available for our use, Spanish 
Americans or Hispanics!
THE TASK FORCE REPORT
    After more than a century, it is time for courageous decisions by 
Congress and Puerto Rico. We applaud the President of the United 
States, George Bush, Mr. Ruben Barrales, President of the Task Force on 
Puerto Rico and the rest of the members of the Task Force for a 
splendid job in summarizing in a concise, didactic document, what has 
been over 100 years of status debate and discussion.
    We would be foolish to throw away our future. Those who say that 
the Task Force Report shuts them out are merely unmasked charlatans. 
Every decision requires making a choice or choices. Some of them may be 
difficult, some not. Only when those choices are clearly and candidly 
presented can a decision be accurately made. That is what the Task 
Force has done in its final report.
    That decision, for most Puerto Ricans, with your help, should be 
easy to make. For me, it is an easy choice. Other leaders simply don't 
want to allow the 4 million U.S. Citizens in Puerto Rico to have the 
right to vote on their choice. Doesn't it sound similar to what our 
soldiers are fighting for in Iraq? Ironic, no?
    Mr. Chairman, please step up to the plate and act with the courage 
and faith needed to help us resolve the process of self-determination. 
Give us the opportunity to finally fulfill our destiny.
    In conclusion, let me ask you, Mr. Chairman, members of this 
Honorable Committee, as well as the rest of the Members of Congress, to 
heed the President Task Force Report and recommendations
    Thank you.
                               ADDENDUM I
        historical events regarding puerto rico's relationship 
                         with the united states
Treaty Of Paris: December 10, 1898
    <bullet>  Article II--Spain ceded Puerto Rico to the United States.
    <bullet>  Article IX--``In case they (Spanish subjects) they remain 
in the territory they may preserve their allegiance to the Crown of 
Spain by making before a court of record, within a year from the date 
of the exchange of ratifications of this treaty, a declaration of their 
decision to preserve such allegiance; in default of which declaration 
they shall be held to have renounced it and to have adopted the 
nationality of the territory in which the may reside. The civil rights 
and political status of the native inhabitants of the territories 
hereby ceded to the United States shall be determined by the 
Congress.''
First Organic Act of Puerto Rico--1900
    <bullet>  Enacted temporarily to provide revenues and civil 
government for Puerto Rico, and for other purposes
    <bullet>  Section 7: ``That all inhabitants continuing to reside 
therein who were Spanish subjects on the eleventh day of April, 
eighteen hundred and ninety-nine (April 11, 1899) and then resided in 
Puerto Rico, and their children born subsequent thereto, shall be 
deemed and held to be citizens of Puerto Rico, and as such entitled to 
the protection of the United States, except such as shall have elected 
to preserve their allegiance to the Crown of Spain on or before the 
eleventh day of April nineteen hundred, in accordance with the 
provisions of the treaty of peace between the United States and Spain 
entered into on the eleventh day of April, eighteen hundred and ninety 
nine;''
Organic Act Of 1917, As Amended ( Jones Act )
    <bullet>  Section 5: That all citizens of Puerto Rico, as defined 
by section seven of the Act of April 12th, nineteen hundred...... and 
are not citizens of any foreign country, are hereby declared, and shall 
be deemed and held to be, citizens of the United States.''
Public Law 600--Approved by the 81st Congress, July 3, 1950
                              ADDENDUM II
historical congressional and executive actions regarding the status of 
                              puerto rico.
Roosevelt Administration: (1933-1945)
    <bullet>  As a result of a personal relationship between then 
Senator Munoz Marin (the ``creator'' of Commonwealth ) and a reporter 
by the name of Ruby Black, and in turn through this reporter's close 
relationship with Mrs. Roosevelt, they convinced President Roosevelt 
that in the 40's, Puerto Rico was on a verge of a revolution.
    <bullet>  Munoz also enlisted the support of then Secretary of 
Interior, Harold Ickes, who sent President Roosevelt a memo on March 3, 
1943, urging him to announce the decision to order a revision of the 
Organic Act so as to provide for the election of a governor. He 
recommended Munoz Marin as the leader of the Puerto Rican group. 
Finally on March 5, 1943, Pres. Roosevelt sends a letter to Congress 
urging the revision of the Organic Act.
Truman Administration: (1945-1952)
    <bullet>  1947, Congress authorized the people of Puerto Rico to 
elect their own governor.
    <bullet>  1949--Under President Truman, Munoz Marin became the 
first elected governor of Puerto Rico. (By now Munoz Marin is the man 
with good ties to Washington.) He succeeds in convincing President 
Truman that the people of Puerto Rico be allowed to adopt a 
Constitution.
    <bullet>  1950--A bill, S. 3336, was introduced in Congress to 
authorize the people of Puerto Rico to adopt their own Constitution and 
to organize a local government.
    Senate Report No. 1779 and the House Report No. 2275 of S. 3336
    (Pgs. 2682-2683) ``It is important that the nature and general 
scope of S. 3336 be made absolutely clear. The bill under consideration 
would not change Puerto Rico's fundamental, political, social and 
economical relationship to the United States. Those sections of the 
Organic Act of Puerto Rico pertaining to the political, social, and 
economic relationship of the United States and Puerto Rico concerning 
such matters as the applicability of United States laws, customs, 
internal revenue, Federal judicial jurisdiction in Puerto Rico, Puerto 
Rican representation by a Resident Commissioner, etc., would remain in 
force and effect, and upon enactment of S. 3336 would be referred to as 
the Puerto Rican Federal Relations Act. The sections of the Organic Act 
which section 5 of the bill would repeal are the provisions of the act 
concerned primarily with the organization of the local executive, 
legislative, and judicial branches of the government of Puerto Rico and 
other matters of purely local concern''.
    (Pg. 2684) ``Puerto Rico is unincorporated territory''
    (Pg. 2684) Sen. Joseph C. O'Mahoney said: ``Nor will it in any way 
preclude a future determination by the Congress of Puerto Rico's 
ultimate status. The bill merely authorizes the people of Puerto Rico 
to adopt their own constitution and to organize a local government
    <bullet>  1950--Public Law 600--Approved by the 81st. Congress July 
3, 1950
    <bullet>  1951--President Truman writes Governor Munoz:
    ``It gives me great pleasure to receive word from you that the 
overwhelming majority of the voters of Puerto Rico desire to draft 
their own constitution.'' ... ``It seems to me in fairness to the 
people of Puerto Rico, that only when these economic and social goals 
are clearly in sight can they decide as to what ultimate relationship 
with the United States they desire.''
    <bullet>  1952--Resolution 22:
    The PDP controlled Puerto Rico Constitutional Convention purposely 
approves an erroneous translation of Commonwealth into ``Free 
Associated State'' (Estado Libre Asociado).
    <bullet>  1953--January 16: (THE UNITED NATIONS)
    Gov. Munoz exerts political pressure on President Truman, days 
before Truman leaves the Presidency on January 19, 1953, to inform the 
United Nations that Puerto Rico should not be included among the non-
selfgoverning areas. Truman does this, hours before leaving office, on 
the eve of Eisenhower's swearing in ceremony.
Eisenhower Administration: (1953-1960)
    (This is exactly the moment in history when Munoz Marin and the 
Commonwealth Party, truly begins to misinform Washington and the people 
of Puerto Rico, regarding Puerto Rico's relationship with the US.)
    Puerto Rico's Resident Commissioner, at Munoz' urging, introduces 
the Fernos-Murray bill to culminate Commonwealth. Its pretensions were 
so outrageous that it was defeated in Congress.
    <bullet>  January 17, 1953:
    Governor Munoz sent a letter to the President Eisenhower, who swore 
office on January 19th, where he misconstrues the facts on Puerto 
Rico's relationship with the United States.
    Among other things, the letter said:.
    <bullet>  ``On July 25, 1952, the Commonwealth of Puerto Rico was 
formally installed in response to the wish of an overwhelming majority 
of the people of Puerto Rico pursuant to a compact between them and the 
Government of the United States. Puerto Rico became a Commonwealth in 
free and voluntary association with the United States.''
        <bullet>  False: The United States did not create a status in 
        the nature of a compact with Law 600.
    <bullet>  ``In the 1948 elections the three alternatives were fully 
presented to the electorate by the three main political parties''. The 
preference of the people, expressed in an election which was as 
democratic as any in the world, was unmistakably expressed in favor of 
the third alternative: a free commonwealth associated with the United 
States on the basis of mutual consent.
        <bullet>  False: No plebiscite on the status formulas was ever 
        held in Puerto Rico until 1967. The 1948 election was a general 
        election, authorized by Congress, where the people were given 
        for the first time the opportunity to elect a governor in 
        Puerto Rico.
    <bullet>  ``Their choice is aptly summed up in the Spanish name for 
the new body politic, ``Estado Libre Asociado. On July 3, 1950, the 
81st. Congress enacted Public Law 600. This was in effect, an offer by 
the Congress to the people of Puerto Rico, which we might accept or 
reject, to enter into a compact defining the status of Puerto Rico and 
the relationship between the respective communities.''
        <bullet>  False: The Constitutional Convention specified that 
        Free Associated State would signify Commonwealth, not a compact 
        of free association. No public hearings were held for Law 600, 
        and the House and Senate Reports on Law 600 specifically say 
        that Puerto Rico's status would not change.
    <bullet>  ``Our status and the terms of our association with the 
united States cannot be changed without our full consent''
        <bullet>  False: Law 600 in no way precluded a future 
        determination by the Congress of Puerto Rico's ultimate status
    <bullet>  ``The government of the Commonwealth of Puerto Rico will 
be ready at all times to cooperate with the United States in seeking to 
advance the purposes and principles of the United Nations.''
        <bullet>  False: The United States citizens in Puerto Rico do 
        not ``Cooperate with the United States'' we are part of the 
        United States and as such, have fought in all wars since World 
        War I.
    Governor Munoz Marin, the man in charge of federal funds and 
programs since Roosevelt's New Deal, was too powerful in Puerto Rico 
for anyone to question his party's assertions.
Kennedy Administration: (1961-1963)
    Through Governor Munoz Marin, relationship with the Democrat Party 
and President John Kennedy, the PDP Party pushed for a ``new compact'' 
with greater powers for Puerto Rico. When this was proposed to the 
Kennedy Administration, Harold F. Reiss, a member of Robert Kennedy's 
staff said: ``If that's what you want, ask for independence and we'll 
favor it.'' (Puerto Rico ``Whither Commonwealth?'' J. Garcia 
Pasalacqua, Orbis, Vol 15 #3, 1971) According to Pasalacqua, all 
efforts between 1959 and 1969, to make permanent the creation of 
Commonwealth permanent, failed.
    <bullet>  1961: THE KENNEDY MEMORANDUM
    The political relationship of the Munoz administration with 
President Kennedy paid off. He issued a Presidential Memorandum in 
1961, based on information given to him by Munoz, which called Puerto 
Rico's relationship with the United States ``unique'' and in the nature 
of a ``compact.''
Johnson Administration: (1964-1968)
    As a mandate left from the Kennedy Administration, a Commission on 
Status was created to look into the status issue. This Commission was 
composed of Members of Congress and appointed individuals from Puerto 
Rico.
    During the Congressional debate, the Congressmen noted in their 
findings, that PR Law 95 would be a safety net for the people since it 
provided for a plebiscite by petitions from the people, if the people 
wanted a change in status. However, when the Law calling for a 
plebiscite in 1967 was passed by the local legislature, they derogated 
Law 95 so as to take away that right from the United States citizens in 
Puerto Rico.
    Note: All of our efforts to have Law 95 reintroduced from 1980 to 
1992, failed. We were blocked by the PDP's Resident Commissioner at the 
time. This would give a powerful tool to the UJS citizens in Puerto 
Rico to resolve the status issue
    <bullet>  1967--A locally defined plebiscite was held in 1967 
where, even though commonwealth was defined with all the privileges of 
a state of the Union without taxation, statehood received a good number 
of votes. With extraordinary benefits without taxation, Commonwealth 
won easily. The Republican statehood party and many statehooders 
boycotted the process, claiming it was stacked and would not solve the 
final status for Puerto Rico. Under Luis Ferre, a group of statehooders 
bolted from the Republican Party and participated in the plebiscite.
    From that moment on, the information on Puerto Rico became very 
confusing, both for members of the United States Congress and for the 
Executive branch. This alteration of the historical facts regarding the 
political relationship of Puerto Rico with the United States created 
the turbulent atmosphere from where Congress started new discussions in 
1985.
    The pro-statehood groups organized in a new political party, called 
the New Progressive Party (NPP), which won the 1968 elections and Luis 
Ferre became Governor. The NPP did not initiate any processes during 
the next 20 years to further the debate and achieve Congressional 
action to resolve the Status of Puerto Rico.
    It is no wonder that people in Washington and in Puerto Rico are 
confused about the relationship between Puerto Rico and the United 
States. This has been a well planned process, which goes back fifty 
years, to attempt to by pass the U.S. Constitution and the laws of the 
United States, to create a unique unconstitutional status for the 
territory of Puerto Rico, without the U.S. approval or the people 
voting for it.
    1967-1985--No significant status actions were made either by 
Congress or the Executive.
Reagan Administration: (1981-1988)
    <bullet>  1985--Puerto Ricans in Civic Action, a grassroots 
organization organized in Puerto Rico which delivered 350,000 petitions 
for Statehood to the United States Congress. This effort sparked the 
discussion and definite actions by Congress. As a first response, 
Congressman Robert Lagomarsino and Senator Bob Dole introduced similar 
bills in the House and Senate to discuss statehood for Puerto Rico. 
Congressional action has continued until today.
George H.W. Bush Administration: (1989-1992)
    <bullet>  President Bush mentioned Puerto Rico in his first State 
of the Union message at the request of Puerto Ricans in Civic Action.
    <bullet>  Senator Bennett Johnston introduced a bill in the Senate 
to discuss Puerto Rico's status. This effort failed when then Governor 
of Puerto Rico, Hernandez Colon, President of the Popular Democratic 
Party (PDP), bolted from the process because of the PDP's 
dissatisfaction with Congress' definition of Commonwealth.
    <bullet>  BUSH MEMORANDUM--President Bush signs a new Memorandum, 
derogating the Kennedy Memorandum, to clarify Puerto Rico's 
relationship with the United States to the various agencies.
William Clinton Administration: (1993-2000)
    <bullet>  Created the Task Force on Puerto Rico at the request of 
then Governor Pedro Rossello.
George W. Bush Administration: (2001-2008)
    <bullet>  TASK FORCE REPORT--President Bush continued the work 
begun by his predecessor and ordered the Task Force to deliver a final 
report. This was presented in December 2005 and is the topic of this 
Committee's hearing today.
                                 ______
                                 
    [A statement submitted for the record by Hon. Jerry Weller, 
a Representative in Congress from the State of Illinois, 
follows:]

 Statement of The Honorable Jerry Weller, a Representative in Congress 
                       from the State of Illinois

    Mr. Chairman, thank you for your leadership in holding this hearing 
today on an important topic, the President's Task Force report on 
Puerto Rico's Status. I appreciate the opportunity to share my 
thoughts.
    Let me first say that though not the main issue here today, I 
support statehood for Puerto Rico. More importantly, I believe that the 
residents of Puerto Rico should be given the opportunity, once and for 
all, to permanently determine their status. To this end, it is my 
opinion that there should be a federally sponsored plebiscite to allow 
residents of Puerto Rico to hold a vote regarding their status. Whether 
or not they ultimately choose statehood, I believe it they should have 
a fair and unbiased plebiscite to decide.
    In 1898, Puerto Rico became a territorial holding of the United 
States and today, 108 years later, Puerto Rico remains the longest 
standing territory in the history of the United States. In 1917, 
residents of Puerto Rico became citizens of the United States as they 
still are today. The United States Congress maintains jurisdiction over 
the issue of Puerto Rico's status. To this end, Congress has never 
sponsored a plebiscite to allow residents of Puerto Rico to choose 
between various options that comply with United States laws and the 
United States Constitution. I believe it is time for this to happen.
    The Task Force which produced this report was created by Executive 
Orders of President Bill Clinton and President George Bush. This 
mission of the Task Force was to provide options for Puerto Rico's 
future status and relationship with the United States.
    Mr. Chairman, I believe the time has come to give the people of 
Puerto Rico the options to choose a permanent, non-territorial status 
option.
    Thank you for allowing me to make this statement here today.
                                 ______
                                 
    [The response to questions submitted for the record by Mr. 
Marshall follows:]<plus-minus>

           Response to questions submitted for the record by 
        U.S. Deputy Assistant Attorney General C. Kevin Marshall

Questions submitted by Congressman Richard W. Pombo, Chairman, House 
        Committee on Resources
1.  Did the Task Force consult with the Governor? Did it and others in 
        the Administration, such as the Attorney General, receive 
        extensive input from the Governor and his representatives, and 
        did you seriously consider it?
    Answer: The Task Force consulted with all interested parties, 
including Governor Acevedo-Vila. It is my understanding that my Co-
Chair met with the Governor. In addition, the Task Force received 
extensive information from attorneys representing the New Commonwealth 
position, and we understood those submissions to be advocating the 
views of the Governor. I met with those attorneys and seriously 
considered their arguments.
2.  Is it the Task Force's position that Puerto Rico's status should be 
        unilaterally determined by the U.S. Government even though it 
        has the authority to do so or is it that Puerto Rico's status 
        should be the preference of the people of Puerto Rico from 
        among the constitutional options?
    Answer: The Task Force's Report does make clear that, legally, 
Puerto Rico is ``subject to congressional authority, under the 
Constitution's Territory Clause, 'to dispose of and make all needful 
Rules and Regulations respecting the Territory ... belonging to the 
United States.''' But the Task Force's position as to how the federal 
Government should exercise this legal authority is, pursuant to the 
Executive Orders governing the Task Force, that ``[t]he democratic will 
of the Puerto Rican people is paramount for the future status of the 
territory.'' We therefore recommend a process in which Congress will 
provide for ascertaining, among other things, whether the people of 
Puerto Rico wish to maintain their current status as a territory or to 
choose between the two permanent non-territorial options. In addition, 
as I explained in my prepared statement, ``our recommended process does 
not preclude action by Puerto Rico itself to express its views to 
Congress.''
3.  Does the Task Force report discuss the future of U.S. citizenship 
        of residents of the States? Does it discuss the future of 
        citizenship of residents of Puerto Rico in any context other 
        than in the case of Puerto Rico becoming a sovereign nation? 
        Further, does Appendix E of the report include an extensive 
        legal analysis by the Department of Justice that concludes 
        citizenship cannot be taken away from Puerto Ricans as long as 
        Puerto Rico remains a U.S. territory and that it is uncertain 
        whether citizenship it can be taken away in the case of 
        independence from persons alive at the time?
    Answer: The Task Force Report does not discuss the future 
citizenship of residents of Puerto Rico in any context other than in 
the case of Puerto Rico becoming independent of the United States. The 
last paragraph of the Report's legal analysis section identifies and 
discusses the issues that would arise in this context. There was no 
need to discuss the question of citizenship if Puerto Rico chose to 
remain a territory, as there does not appear to be any likelihood that 
Congress would seek to deprive Puerto Ricans of their U.S. citizenship 
in such case. The Report also does not discuss the future of U.S. 
citizenship for Puerto Rico as a State, but if Puerto Rico were 
admitted as a State its citizens would necessarily be citizens of the 
United States.
    Appendix E of the Report does contain an extensive legal analysis 
by the Clinton Administration Department of Justice. This analysis is 
in a January 2001 letter to the Chairman of the Senate Committee on 
Energy and Natural Resources. As I noted in my prepared statement, this 
letter also was sent to the House Committee on Resources. In discussing 
``the New Commonwealth proposal,'' the letter states (p. 11) that, if 
this proposal ``is understood to maintain United States sovereignty 
over Puerto Rico, then we think Congress could not revoke the United 
States citizenship of persons who already possess that citizenship by 
virtue of their birth in Puerto Rico.'' The letter took the view that 
there was ``an underlying constitutional requirement that such 
citizenship not be revoked once it is granted.'' The letter adds (p. 
10) that ``the answer is less clear'' on the question whether Congress 
may deny citizenship to persons born in Puerto Rico in the future.
    In the context of a proposal for independence, the letter notes (p. 
4) that both ``case law dating from the early republic'' and an 
accepted rule of international law ``support[ ] the proposition that 
nationality follows sovereignty.'' The letter also identifies, however, 
an argument based on a 1967 Supreme Court case, Afroyim v. Rusk, 387 
U.S. 253, that ``individuals possessing United States citizenship would 
have a constitutional right to retain that citizenship, even if they 
continue to reside in Puerto Rico after independence.'' The letter 
declines to opine on that argument, while noting that Attorney General 
Thornburgh in his 1991 congressional testimony took the view that the 
proposition of nationality following sovereignty would govern.
4.  Does the Task Force report say that the current status should 
        continue if Puerto Ricans vote for it?
    Answer: The Task Force Report recommends that the people of Puerto 
Rico be given an opportunity, through a federally sanctioned 
plebiscite, to express their views on whether they wish to maintain the 
current status or to establish a permanent non-territorial status. If 
the people elect to remain as a territory, then the Task Force Report 
recommends, consistent with a 1992 memorandum of President Bush, that a 
plebiscite occur periodically, as long as that status continues, to 
keep Congress informed of the people's wishes.
5.  Did the State Department representative agree to the Task Force 
        report?
    Answer: The entire Task Force concurred in the Report.
6.  The Governor has proposed a ``Development of the New 
        Commonwealth.'' Can this proposal be a possible status option?
    Answer: The Task Force Report describes and discusses at some 
length a proposal for ``New Commonwealth'' status, but does not include 
it among the available status options because it is not permitted by 
the Constitution. The only status options now available under the 
Constitution are territory, State, or independent nation.
7.  Does the Task Force favor statehood, or did it objectively analyze 
        Puerto Rico's status proposals and options?
    Answer: The mission of the Task Force, in accordance with Executive 
Order 13183, was ``to consider and develop positions on proposals, 
without preference among the options, for the Commonwealth's future 
status'' and ``to clarify the options to enable Puerto Ricans to 
determine their preference among options for the islands' future status 
that are not incompatible with the Constitution and basic laws and 
policies of the United States.'' The Task Force analyzed all options 
objectively, without preference for any of the options that are 
available under the Constitution. Under the Task Force's recommended 
procedure, statehood would not become an option unless and until a 
majority of Puerto Ricans voted against maintaining their current 
territorial status.
8.  The Governor has sought legislation supporting the holding of a 
        convention in Puerto Rico to choose whether Puerto Rico would 
        propose statehood, independence, or a new or amended form of 
        what it calls the current governing arrangement. Would the Task 
        Force see such a convention as a supportable alternative to the 
        plebiscites it has recommended?
    Answer: The Report recommends a two-stage plebiscite to determine 
whether the Puerto Rican people wish to retain the status quo, and, if 
not, which of the two available permanent status options they prefer. 
As I explained in my prepared statement, ``we sought to ascertain [the 
popular] will in a way that, as the report puts it, 'provides clear 
guidance for future action by Congress.''' We believe that our 
recommended approach would provide clearer guidance for Congress than a 
convention in which it is possible that none of the available options 
would win a majority of votes. As I explained in my prepared statement, 
however, ``our recommended process does not preclude action by Puerto 
Rico itself to express its views to Congress.''
    Would adoption of the Governor's ``Development of the New 
        Commonwealth'' proposal by a majority in a convention make the 
        proposal acceptable to the Task Force if the proposal were said 
        to represent the self determination will of Puerto Ricans?
    Answer: The fact that a ``New Commonwealth'' proposal, such as the 
one described in the Task Force Report, were adopted by a majority in a 
convention and could be said to represent the will of the Puerto Rican 
people would not make it more acceptable under the Constitution. The 
goal of the Task Force was to determine what status options are 
available under the Constitution. We concluded, consistent with Justice 
Department views over the past three Administrations, that it ``is not 
possible, absent a constitutional amendment, to bind future Congresses 
to any particular arrangement for Puerto Rico as a Commonwealth'' under 
the sovereignty of the United States (p. 6), and, similarly, that an 
arrangement involving freely associated status is in fact ``a form of 
independence from the United States and cannot (absent an amendment of 
the U.S. Constitution) be made immune from the possibility of 
unilateral termination by the United States'' (p. 9).
    Would such a convention or the plebiscites be a more democratic 
        process of determining Puerto Rico's status choice?
    Answer: A plebiscite is a fully democratic method for determining 
the will of the people because it allows all Puerto Rican citizens to 
vote directly on the status options. Without knowing more details, I am 
unable to express a view on a convention process. But as I explained in 
my prepared statement, ``our recommended process does not preclude 
action by Puerto Rico itself to express its views to Congress.''
9.  Does the Department of Justice agree with the Supreme Court, this 
        House, the Senate committee of jurisdiction, the Department of 
        State, past presidents, the Government Accountability Office, 
        and the Congressional Research Service, and the legislative 
        history of the laws providing for the Constitution of the 
        Commonwealth of Puerto Rico and the Puerto Rican Federal 
        Relations Act that Puerto Rico remains subject to federal 
        powers under the Constitution's Territory Clause?
    Answer: The Department of Justice does believe that Puerto Rico 
remains subject to federal powers under the Constitution's Territory 
Clause. The Task Force Report describes and reiterates that view.
10.  Some associates of the Governor claim that the Congress can 
        partially dispose of its Territory Clause power over a 
        territory, ceding some, but not all, of the power to the 
        territory, without making the territory a State or a nation, 
        and limiting the Territory Clause power of future Congresses 
        regarding the territory. Do you agree?
    Answer: No, I do not agree. The Territory Clause gives Congress 
authority ``to dispose of and make all needful Rules and Regulations 
respecting the Territory ... belonging to the United States.'' As long 
as Puerto Rico remains a U.S. territory, it is subject to that plenary 
congressional authority. Moreover, as the Report explains, one Congress 
cannot ``restrict a future Congress from revising a delegation to a 
territory of powers of self-government.''
11.  The Governor claims that there is an irrevocable compact between 
        the U.S. and Puerto Ricans. The compact entered into by federal 
        and Puerto Rican actions from 1950 to '52 provided for Puerto 
        Ricans to draft a constitution for the local government to 
        replace the local government organization provisions of federal 
        law and for the continuation of certain other provisions of 
        federal law regarding the territory as the Puerto Rican Federal 
        Relations Act. The compact did not say that its provisions 
        could not be changed by the federal government and, indeed, 
        provisions such as a ban on the death penalty in the 
        constitution and the grant of all revenue derived from Puerto 
        Rico have been superseded by Congresses, Presidents, and the 
        Supreme Court. Is there such a compact and can the federal 
        government change policies regarding the relationship?
    Answer: As noted in the Task Force Report, the Department of 
Justice concluded in 1959 that, despite the enactment of Public Law 600 
and the subsequent adoption of a Puerto Rico constitution, Puerto Rico 
remained a territory within the meaning of the Territory Clause. Thus, 
no irrevocable compact between the United States and Puerto Rico now 
exists, and, as the Report explains, ``Congress may continue the 
present system indefinitely, but it also may revise or revoke it any 
time.'' In addition, as the Report explains, such an irrevocable 
compact is not, in any event, now permitted under the Constitution.
12.  Does the report conflict with the Rodriguez v. PDP ruling? Or is 
        the report consistent in its recognition that Puerto Rico 
        currently exercises self-government on local matters?
    Answer: The Report does not conflict with the ruling in Rodriguez 
v. PDP. In Rodriguez, the Supreme Court stated, in the context of a 
challenge to a Puerto Rico statute governing participation in a by-
election for a seat in the Puerto Rico House of Representatives, that 
``Puerto Rico, like a state, is an autonomous political entity, 
sovereign over matters not ruled by the Constitution,'' and therefore 
``[t]he methods by which the people of Puerto Rico and their 
representatives have chosen to structure the Commonwealth's electoral 
system are entitled to substantial deference.'' The Report recognizes 
that Congress has given Puerto Rico self-government authority with 
respect to its internal affairs and administration.
    Do you agree that there is no conflict between Rodriguez v. PDP and 
        the Supreme Court rulings that the Territory Clause continues 
        to apply to Puerto Rico because the Territory Clause is a 
        source of federal authority over Puerto Rico and Rodriguez v. 
        PDP only says that Puerto Rico has authority over matters when 
        the federal government does not exercise its authority over 
        Puerto Rico?
    Answer: Rodriguez says nothing about the application of the 
Territory Clause to Puerto Rico, and in fact cites other cases that 
assume Puerto Rico's continuing territorial status under the Territory 
Clause.
13.  Does Puerto Rico have a democratic form of government at the 
        national government level? Isn't a basic standard of democracy 
        that people have equal voting representation in their 
        government?
    Answer: As noted above and explained in the Task Force Report, 
Puerto Ricans have since the 1950's exercised democratic control over 
their own government and internal affairs. They also have a non-voting 
representative in the House of Representatives. It is true that Puerto 
Rico, like other U.S. territories, does not have voting representation 
at the national level in Congress and does not vote for President. With 
regard to your second question, it is the policy of the Executive 
Branch, as established by President Clinton in Executive Order 13183 
and continued by President Bush in his amendments to that Order, ``to 
implement'' one of the constitutionally permissible options for the 
islands' future status ``if chosen by a majority, including helping 
Puerto Ricans to obtain a governing arrangement under which they would 
vote for national government officials, if they choose such a status.''
Questions submitted by Congressman Nick J. Rahall II, Ranking Democrat, 
        House Committee on Resources
(1)  It has been widely complained that the Task Force reported the 
        U.S. could cede Puerto Rico to another nation without 
        consulting Puerto Ricans. In 1999, however, the Committee's 
        then Chairman, Don Young, and Senior Democratic Member, George 
        Miller, reported that, ``Congress retains the plenary authority 
        under article IV, section 3, clause 2 of the United States 
        Constitution, the Territory Clause, to determine the ultimate 
        disposition of the political status of Puerto Rico''.
    Is it the Task Force's position that Puerto Rico's status should be 
        unilaterally determined by the U.S. Government--even though it 
        has the authority to do so--or is it that Puerto Rico's status 
        should be the preference of the people of Puerto Rico from 
        among the constitutional options?
    Answer: The Task Force's Report does make clear that, legally, 
Puerto Rico is ``subject to congressional authority, under the 
Constitution's Territory Clause, 'to dispose of and make all needful 
Rules and Regulations respecting the Territory ... belonging to the 
United States.''' But the Task Force's position as to how the federal 
Government should exercise this legal authority is, pursuant to the 
Executive Orders governing the Task Force, that ``[t]he democratic will 
of the Puerto Rican people is paramount for the future status of the 
territory.'' We therefore recommend a process in which Congress will 
provide for ascertaining, among other things, whether the people of 
Puerto Rico wish to maintain their current status as a territory or to 
choose between the two permanent non-territorial options. In addition, 
as I explained in my prepared statement, ``our recommended process does 
not preclude action by Puerto Rico itself to express its views to 
Congress.''
(2)  Opponents to the Report criticize the Task Force for stating that 
        the U.S. Government could take away the U.S. citizenship of 
        Puerto Ricans at will, whether they live in the islands or the 
        States.
    Does the Task Force report discuss the future of U.S. citizenship 
        for Puerto Rico as a State? And does it discuss the future of 
        citizenship of residents of Puerto Rico in any context other 
        than in the case of Puerto Rico becoming a sovereign nation? 
        Further, does Appendix E of the report include an extensive 
        legal analysis by the Department of Justice that concludes 
        citizenship cannot be taken away from Puerto Ricans as long as 
        Puerto Rico remains U.S. territory and that it is uncertain 
        whether citizenship it can be taken away in the case of 
        independence from persons alive at the time?
    Answer: (a) The Task Force Report does not discuss the future of 
U.S. citizenship for Puerto Rico as a State, but if Puerto Rico were 
admitted as a State its citizens would necessarily be citizens of the 
United States.
    (b) The Task Force Report does not discuss the future of 
citizenship of residents of Puerto Rico in any context other than in 
the case of Puerto Rico becoming independent of the United States. The 
last paragraph of the Report's Legal Analysis section identifies and 
discusses the issue that would arise in this context. There was no need 
to discuss the question of citizenship if Puerto Rico chose to remain a 
territory, as there does not appear to be any likelihood that Congress 
would seek to deprive Puerto Ricans of their U.S. citizenship in such 
case.
    (c) Appendix E of the Report does contains an extensive legal 
analysis by the Clinton Administration Department of Justice. This 
analysis is in a January 2001 letter to the Chairman of the Senate 
Committee on Energy and Natural Resources. As I noted in my prepared 
statement, this letter also was sent to the House Committee on 
Resources. In discussing ``the New Commonwealth proposal,'' the letter 
states (p. 11) that, if this proposal ``is understood to maintain 
United States sovereignty over Puerto Rico, then we think Congress 
could not revoke the United States citizenship of persons who already 
possess that citizenship by virtue of their birth in Puerto Rico.'' The 
letter took the view that there was ``an underlying constitutional 
requirement that such citizenship not be revoked once it is granted.'' 
The letter adds (p. 10) that ``the answer is less clear'' on the 
question whether Congress may deny citizenship to persons born in 
Puerto Rico in the future.
    In the context of a proposal for independence, the letter notes (p. 
4) that both ``case law dating from the early republic'' and an 
accepted rule of international law ``support[ ] the proposition that 
nationality follows sovereignty.'' The letter also identifies, however, 
an argument based on a 1967 Supreme Court case, Afroyim v. Rusk, 387 
U.S. 253, that ``individuals possessing United States citizenship would 
have a constitutional right to retain that citizenship, even if they 
continue to reside in Puerto Rico after independence.'' The letter 
declines to opine on that argument, while noting that Attorney General 
Thornburgh in his 1991 congressional testimony took the view that the 
proposition of nationality following sovereignty would govern.
(3)  Please explain claims that the Report contradicts statements made 
        by some U.S. representatives in a U.N. debate in 1953. Please 
        confirm for the Committee that the State Department is 
        represented on the Task Force.
    Was the Task Force aware of the aforementioned representations in 
        1953? Was this issue discussed and did the State Department 
        agree with the findings of this Report?
    Answer: From 1946 until 1953, the United States submitted reports 
to the United Nations pursuant to Article 73(e) of the U.N. Charter, 
which requires countries to report on non-self-governing territories. 
After Congress gave Puerto Rico broad self-governing authority in 
internal matters by approving Puerto Rico's popularly adopted 
constitution, the Governor of Puerto Rico asked the President to cease 
transmitting these reports. In its official request to the U.N. to 
permit the United States to cease reporting, the United States stated 
that Congress had given Puerto Rico the freedom to conduct its own 
internal government subject only to compliance with federal law and the 
U.S. Constitution.
    The official request did not state that Congress could make no 
changes in Puerto Rico's status without its consent. It is true that, 
prior to the submission of this official request, the U.S. 
representative to the U.N. General Assembly indicated before the 
General Assembly that common consent would be needed to changes in the 
relationship between Puerto Rico and the United States. Notwithstanding 
this statement, the Department of Justice, as noted in the Task Force 
Report, concluded in 1959 that Puerto Rico remained a territory within 
the meaning of the Territory Clause.
    The internal discussions of the Task Force are confidential and 
privileged, but I can confirm that, as the Report's list of that Task 
Force's members indicates, the State Department was represented on the 
Task Force. Among other things, this inclusion was mandated by 
Executive Order 13183, which required all members of the President's 
cabinet to designate a representative. The entire Task Force concurred 
in the Report.
(4)  Competing measures have been introduced in the House of 
        Representatives suggesting ways to resolve Puerto Rico's 
        political status. One of the bills advances an approach to 
        convene a convention in Puerto Rico to choose whether Puerto 
        Rico would propose statehood, independence, or a new or amended 
        form of what it calls the current governing arrangement. It's 
        widely believed that the new governing arrangement proposes 
        that Puerto Rico be recognized as a nation in a permanently 
        binding relationship with the U.S. under which the Commonwealth 
        could determine the application of federal laws and federal 
        court jurisdiction and enter into foreign trade, tax, and other 
        agreements and the U.S. would continue to grant citizenship, 
        all current aid to Puerto Ricans, and totally free entry to 
        products shipped from Puerto Rico and grant a new annual 
        subsidy to the insular government. A majority of votes in the 
        convention would determine Puerto Rico's status proposal to the 
        U.S., even if the majority included some delegates who were 
        elected favoring independence or statehood.
    Would adoption of such a new governing arrangement by a majority in 
        a convention make the proposal acceptable to the Task Force if 
        the proposal were said to represent the self-determination will 
        of Puerto Ricans?
    Answer: The fact that such a ``new governing arrangement'' could be 
said to represent the will of the Puerto Rican people would not make it 
more acceptable under the Constitution. The goal of the Task Force was 
to determine what status options are available under the Constitution. 
We concluded, consistent with Justice Department views over the past 
three Administrations, that it ``is not possible, absent a 
constitutional amendment, to bind future Congresses to any particular 
arrangement for Puerto Rico as a Commonwealth'' under the sovereignty 
of the United States (p. 6), and, similarly, that an arrangement 
involving freely associated status is in fact ``a form of independence 
from the United States and cannot (absent an amendment of the U.S. 
Constitution) be made immune from the possibility of unilateral 
termination by the United States'' (p. 9).
    Would such a convention or the plebiscites, as recommended by the 
        Task Force, be a more democratic process of determining Puerto 
        Rico's status choice?
    Answer: The Report recommends a two-stage plebiscite to determine 
whether the Puerto Rican people wish to retain the status quo, and, if 
not, which of the two available permanent status options they prefer. 
As I explained in my prepared statement, ``we sought to ascertain [the 
popular] will in a way that, as the report puts it, 'provides clear 
guidance for future action by Congress.''' We believe that our 
recommended approach would provide clearer guidance for Congress than a 
convention in which it is possible that none of the available options 
would win a majority of votes. As I explained in my prepared statement, 
however, ``our recommended process does not preclude action by Puerto 
Rico itself to express its views to Congress.''
(5)  Some argue that Congress can partially dispose of its Territory 
        Clause power over a territory, ceding some, but not all, of the 
        power to the territory, without making the territory a State or 
        a nation, and limiting the Territory Clause power of future 
        Congresses regarding the territory.
    Do you agree?
    Answer: No. The Territory Clause gives Congress authority ``to 
dispose of and make all needful Rules and Regulations respecting the 
Territory ... belonging to the United States.'' As long as Puerto Rico 
remains a U.S. territory, it is subject to that plenary congressional 
authority. Moreover, as the Report explains, one Congress cannot 
``restrict a future Congress from revising a delegation to a territory 
of powers of self-government.''
(6)  Puerto Rico Governor Anibal Acevedo-Vila argues that the report 
        ignores jurisprudence, in particular noting the Supreme Court 
        statement in Rodriguez v. PDP to the effect that Puerto Rico 
        has authority over matters not ruled by the federal government.
    Does the report conflict with that ruling? Or is the report 
        consistent in its recognition that Puerto Rico currently 
        exercises self-government on local matters?
    Answer: The Report does not conflict with the ruling in Rodriguez. 
In Rodriguez, the Supreme Court stated, in the context of a challenge 
to a Puerto Rico statute governing participation in a by-election for a 
seat in the Puerto Rico House of Representatives, that ``Puerto Rico, 
like a state, is an autonomous political entity, sovereign over matters 
not ruled by the Constitution,'' and therefore ``[t]he methods by which 
the people of Puerto Rico and their representatives have chosen to 
structure the Commonwealth's electoral system are entitled to 
substantial deference.'' The Report recognizes that Congress has given 
Puerto Rico self-government authority with respect to its internal 
affairs and administration.
    Does Rodriguez v. PDP conflict with the Supreme Court's rulings 
        that the Territory Clause continues to apply to Puerto Rico?
    Answer: No. Rodriguez says nothing about the application of the 
Territory Clause to Puerto Rico, and in fact cites other cases that 
assume Puerto Rico's territorial status.
(7)  Congress, the President, and the Supreme Court determine Puerto 
        Rico's national laws and foreign relations. Puerto Ricans do 
        not have voting representation in the Congress or the election 
        of the President.
    Does Puerto Rico have a democratic form of government at the 
        national government level?
    As noted above and explained in the Task Force Report, Puerto 
Ricans have since the 1950's exercised democratic control over their 
own government and internal affairs. They also have a non-voting 
representative in the House of Representatives. It is true that Puerto 
Rico, like other U.S. territories, does not have voting representation 
in Congress and does not vote for President.

                                 <all>

</pre></body></html>
